<html>
<title> - THE JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
          THE JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 18, 2007

                               __________

                           Serial No. 110-63

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

37-692 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






















































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     Dean Heller, Nevada














































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 18, 2007...............................     1

Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     1
        Prepared statement of....................................     2
        Questions for the record sent to witnesses on behalf of 
          Mr. Grijalva...........................................   102
        Questions for the record sent to witnesses on behalf of 
          Mr. Scott..............................................    97
        Closing remarks of.......................................   104
    Platts, Hon. Todd Russell, Ranking Minority Member, 
      Subcommittee on Healthy Families and Communities, Committee 
      on Education and Labor, prepared statement of..............   102

Statement of Witnesses:
    Aos, Steve, Assistant Director, Washington State Institute 
      for Public Policy..........................................    76
        Prepared statement of....................................    77
        Responses to questions submitted for the record..........    80
        Additional materials submitted for the record:
            Internet address for ``No Turning Back: Promising 
              Approaches to Reducing Racial and Ethnic 
              Disparities Affecting Youth of Color in the Justice 
              System,'' report, by the Building Blocks for Youth 
              Initiative, October 2005...........................    80
            Internet address for the King County resource guide, 
              ``Information Sharing: A facilitating tool for the 
              agency partners, and their professional staff, of 
              the King County Systems Integration Initiative,'' 
              2006...............................................    80
    Ambrose, Anne Marie, Director of Child Welfare and Juvenile 
      Justice Services, Department of Public Welfare.............    80
        Prepared statement of....................................    82
        Responses to questions submitted for the record..........    86
        Additional materials submitted for the record:
            Internet address to ``Detention Facility Self-
              Assessment: A Practice Guide to Juvenile Detention 
              Reform,'' Juvenile Detention Alternatives 
              Initiative, a poject of the Annie E. Casey 
              Foundation.........................................    88
            Commonwealth of Pennsylvania Mental Health/Juvenile 
              Justice Joint Policy Statement.....................    88
    Clark, Hon. Kim Berkeley, administrative judge, Allegheny 
      County Family Court........................................    29
        Prepared statement of....................................    31
        Responses to questions submitted for the record..........    35
    Garcia, Janet, Deputy Director, Governor Napolitano's Office 
      for Children, Youth and Families, Director, Division for 
      Children...................................................    38
        Prepared statement of....................................    39
        Responses to questions submitted for the record..........    44
        Additional materials submitted for the record:
            Letter of agreement supporting dually adjudicated 
              youth and their families in Arizona................    50
            Internet address to ``Reducing Racial Disparities in 
              Juvenile Detention,'' a project of the Annie E. 
              Casey Foundation...................................    56
            Internet address to ``And Justice for Some,'' located 
              on the Building Blocks for Youth...................    56
            ``Arizona Dual Jurisdiction Study,'' by Gregory J. 
              Halemba; Gene C. Siegel; Rachael D. Lord; Susanna 
              Zawacki, prepared by the National Center for 
              Juvenile Justice...................................    57
            Internet address to ``Juveniles in Adult Prisons and 
              Jails: A National Assessment,'' by the Bureau of 
              Justice Assistance, U.S. Department of Justice, 
              Oct. 2000..........................................    63
            Internet address to ``Blueprint for Change: A 
              Comprehensive Model for the Identification and 
              Treatment of Youth with Mental Health Needs in 
              Contact with the Juvenile Justice System,'' by the 
              National Center for Mental Health and Juvenile 
              Justice, 2007......................................    63
            Internet address to ``Prosecuting Juveniles in the 
              Adult Criminal Justice System,'' by the Children's 
              Action Alliance, June 2003.........................    63
            Child Welfare and Juvenile Justice Systems 
              Integration Publications...........................    63
            Internet address to ``When Systems Collide: Improving 
              Court Practices and Programs in Dual Jurisdiction 
              Cases,'' National Center for Juvenile Justice, June 
              2004...............................................    64
            Letter from the Governor's Office for Children, Youth 
              and Families, State of Arizona.....................    65
    Kooperstein, Hon. Deborah, administrative judge, Southampton, 
      NY.........................................................     5
        Prepared statement of....................................     8
        Responses to questions submitted for the record..........    28
    Weisman, Andrea, Ph.D., Director of Health Services, District 
      of Columbia Department of Youth Rehabilitation Services....    68
        Prepared statement of....................................    70
        Responses to questions submitted for the record..........    73


          THE JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT

                              ----------                              


                      Tuesday, September 18, 2007

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Clarke, Kucinich, 
Sarbanes, Altmire, Yarmuth, and Davis of Tennessee
    Also Present: Representatives Scott and Bishop of New York.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Denise Forte, Director of Education 
Policy; Lamont Ivey, Staff Assistant, Education; Deborah 
Koolbeck, Policy Advisor for Subcommittee on Healthy Families 
and Communities; Ann-Frances Lambert, Administrative Assistant 
to the Director of Education Policy; Robert Borden, Minority 
General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Kirsten Duncan, Minority Professional 
Staff Member; Taylor Hansen, Minority Legislative Assistant; 
Susan Ross, Director of Education and Human Services Policy; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairwoman McCarthy. I am calling the committee to order. 
The quorum is present. The hearing of the subcommittee will 
come to order.
    Pursuant to committee rule 12(a), any member may submit an 
opening statement in writing, which will be made part of the 
permanent record. Before we begin, I would like everyone to 
take a moment to ensure that their cell phones and BlackBerrys 
are on silent.
    I would now like to ask unanimous consent to allow the 
distinguished gentleman from Virginia, Mr. Scott, and the 
distinguished gentleman from New York, Mr. Bishop, to be 
allowed to join us on the dais today and participate in the 
hearing. Without objection, so ordered.
    I now recognize myself, followed by Congressman Davis from 
Tennessee, for an opening statement.
    I want to thank all of you for being here today for our 
hearing on the Juvenile Justice and Delinquency Prevention Act. 
Today, we will continue our research and education as we work 
towards the reauthorization of JJ. As it is with elementary and 
secondary education, the Federal Government's role in juvenile 
justice is to create a guiding framework, or incentives, for 
the States. The States then work within that framework to 
implement their own juvenile justice systems through laws and 
regulations. For us, there are issues to explore as we work to 
craft a framework for the States that will work to benefit our 
young people and, ideally, to prevent them from being 
incarcerated.
    Today, we will seek an understanding of the nexus of the 
child welfare system and the juvenile justice system. Previous 
hearings have made it clear to us that these two systems do not 
intersect, and yet, they often fall short of helping each other 
or even communicating with each other with the challenges to 
foster a complete system of care for our young people so that 
we can divert them away from the JJ system or get them an 
education and proper care while in the JJ system.
    Along those same lines, we will explore the connection of 
mental health for the JJ system, again, in looking at both the 
care of youth in the JJ system but, more importantly, in the 
prevention of youth suffering from mental health issues from 
entering the system.
    Critical to the experience of the young person in the JJ 
system is the judge who presides over the case of the young 
person. The decisions made by the judge determine the future of 
the youth, an immense responsibility. We need to understand how 
judges function within the framework of JJDPA and what 
alternates judges have to incarcerate based on their State laws 
and regulations.
    Each of us on the subcommittee is committed to helping the 
young people of our Nation, and they need our help. We are not 
meeting the needs of our Nation's young people very well. For 
example, many are afraid to go to school for fear of being 
bullied, and children get lost in the mental health systems 
that are meant to help or to protect them. Today, we will 
explore how to improve the JJ system, but I think we all agree 
that prevention and addressing needs on the front end will do 
much, if not more, to improve the juvenile justice system.
    Again, I want to thank you for being here today, and I look 
forward to your testimonies.
    I now yield to Congressman Davis from Tennessee for his 
opening statement.

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    Thank you for being here today for our hearing on the Juvenile 
Justice and Delinquency Prevention Act. Today we will continue our 
research and education as we work towards the reauthorization of JJDPA.
    As it is with elementary and secondary education, the federal 
government's role in juvenile justice is to create a guiding framework 
or incentives for the states. The states then work within that 
framework to implement their own juvenile justice systems through laws 
and regulations.
    For us, there are issues to explore as we work to craft a framework 
for the states that will work to benefit our young people and, ideally, 
prevent them from being incarcerated. Today we will seek an 
understanding of the nexus of the child welfare system and the juvenile 
justice system.
    Previous hearings have made it clear to us that these two systems 
do intersect, and yet they often fall short of helping each other, or 
even communicating with each other.
    The challenge is to foster a complete system of care for our young 
people so that we can divert them away from the juvenile justice system 
or get them education and proper care while in the juvenile justice 
system.
    Along those same lines, we will explore the connection of mental 
health to the juvenile justice system. Again, looking at both the care 
of youth in the juvenile justice system, but more importantly, 
prevention of youth suffering from mental health issues from entering 
the system.
    Critical to the experience of the young person in the juvenile 
justice system is the judge who presides over the case of the young 
person. The decisions made by the judge determine the future of the 
youth--an immense responsibility. We need to understand how judges 
function within the framework of JJDPA and what alternatives judges 
have to incarceration based on their state laws and regulations.
    Each of us on the Subcommittee is committed to helping the young 
people of our nation, and they need our help. We are not meeting the 
needs of our nation's young people very well. For example, many are 
afraid to go to school for fear of being bullied and children get lost 
in the multiple systems meant to help or protect them.
    Today we will explore how to improve the juvenile justice system, 
but I think we all agree prevention and addressing needs on the front 
end would do much if not more to improve the juvenile justice system.
    Again, thank you for being here today. I look forward to your 
testimonies.
                                 ______
                                 
    Mr. Davis. Good morning. Thank you for joining us for 
another hearing on the Juvenile Justice and Delinquency 
Prevention Act.
    Chairwoman McCarthy, I am pleased that we are continuing 
our focus on improving the juvenile justice system.
    We know that investing in prevention methods now will save 
substantial resources in the future. I am pleased to see a 
diverse panel of witnesses that can provide us firsthand 
knowledge of the juvenile justice system, describe how the 
Federal law is administered at the State level and provide 
insight as to which programs are working efficiently and which 
ones need improvement. One of the most important things that we 
can do as legislators is to craft legislation that prevents 
juvenile delinquency and encourages healthy child development. 
Although I recognize the aggressive fall agenda the majority is 
planning, I am hopeful that we will produce a bipartisan 
reauthorization bill before the end of this year.
    Finally, I would like to thank all of the panelists for 
being with us today.
    With that, I yield back to Chairwoman McCarthy.
    Chairwoman McCarthy. Thank you, Mr. Davis.
    Without objection, all members will have 14 days to submit 
additional materials and questions for the hearing record.
    I will now yield to my colleague, Mr. Bishop, to introduce 
our first witness, the Honorable Deborah Kooperstein. Go ahead.
    Mr. Bishop of New York. Well, first, let me thank 
Chairwoman McCarthy for giving me this honor and for yielding 
to me, and I will say that it is a true honor to have the 
opportunity to introduce my friend and colleague Deborah 
Kooperstein to this committee.
    Judge Kooperstein is the first female judge in the history 
of Southampton Town. She was first appointed to that position 
in 1993 and has subsequently been reelected to that position 
three different times. As a judge, Judge Kooperstein has been 
an innovator. She has made several changes to the court system, 
including instituting a law student intern program, installing 
a Spanish interpreter in the courtroom, and she authored a 
successful grant proposal to hire advocates for victims of 
domestic violence. She also has been appointed by the deputy 
administrative judge to preside over one of two drug courts, 
handling cases for the five east end towns in something called 
the East End Regional Intervention Court, and I have had the 
honor of attending one of the graduation ceremonies of that 
drug court, and I can attest that it has worked, really, in a 
remarkable fashion in terms of dealing with that segment of our 
population, and the leadership that Judge Kooperstein has 
provided has truly been inspiring.
    So it is a pleasure to welcome you to Capitol Hill. It is a 
pleasure to see you again. I look forward to your testimony.
    Thank you, Madam Chair. I yield back.
    Chairwoman McCarthy. Thank you, Mr. Bishop.
    Next, I would like to yield to my colleague from 
Pennsylvania, Mr. Altmire, to introduce our next witness, the 
Honorable Kim Berkeley Clark.
    Mr. Altmire. Thank you, Madam Chair.
    I am honored to have the opportunity to introduce the 
Honorable Kim Berkeley Clark of Pittsburgh, Pennsylvania. Judge 
Clark has served in the Allegheny County Court of Common Pleas 
since her appointment in March of 1999. Currently, she is the 
administrative judge of the Family Division in Allegheny 
County. Prior to this position, Judge Clark served as the 
supervising judge of the Family Division's juvenile court. In 
her capacity as a juvenile and family court judge, Judge Clark 
has been appointed to a variety of committees and boards 
relevant to today's discussion, including Pennsylvania's 
Domestic Relations Rules Committee, the Pennsylvania Juvenile 
Court Judges' Commission, and the Governor's Commission on 
Children and Families.
    In addition, Judge Clark recently ended her term as 
President of the Allegheny County Bar Association where she was 
the first African American woman to serve as president. Prior 
to serving on the Allegheny County Court of Common Pleas, Judge 
Clark was an assistant and deputy district attorney in 
Allegheny County for almost 16 years. While in the District 
Attorney's Office, Judge Clark headed the Crimes Persons Unit, 
which handled all of the sexual assault and child abuse cases 
in Allegheny County. As an assistant and deputy district 
attorney, Judge Clark tried over 150 jury trials, including the 
first gang-related and drive-by shooting homicide cases in 
Allegheny County. Judge Clark is a frequent lecturer, speaker 
and panelist on the subjects of child abuse, sexual assault 
prosecution and juvenile law. She has clearly the wealth of 
experience to address this committee today, and I am pleased 
that she has taken time from her job to join us today.
    Thank you, Madam Chair, for the opportunity to introduce 
Judge Clark.
    Chairwoman McCarthy. Thank you, Mr. Altmire.
    Our next witness, Ms. Janet Garcia, comes to us from the 
Office of the Governor of Arizona. Mr. Grijalva wishes he could 
be here. We were actually upstairs, working on Leave No Child 
Behind, but he is also a chairperson of a subcommittee, and 
that is where he is.
    Let me say at this particular point, too, many of the 
members care passionately about this issue, and we have members 
sitting here today who are on the full education committee, and 
they asked to sit here. So, even though it looks sparse up 
here, believe me, all your words and your testimony have been 
read because it is something that we do care about.
    Anyway, Mr. Grijalva wishes he could be here to introduce 
you, but he is chairing another hearing at this time.
    Ms. Garcia is the Deputy Director of the Governor's 
Division of Children, which works to promote a coordinated and 
integrated system of care for children, young people and 
families. Furthermore, the division also oversees the juvenile 
justice program. We look forward to learning of Arizona's work 
in coordinating its child welfare system and the juvenile 
justice system.
    Our next witness is Dr. Weisman, who will share with us her 
extensive experience and enterprise working on mental health 
issues surrounding young people in the juvenile justice system. 
In her current position, she oversees all medical and 
behavioral health services contained or permitted in 
Washington, D.C. She has served in many director positions as a 
mental health expert and in court cases and has authored papers 
on the mental health needs of incarcerated individuals and 
their conditions of confinement as they impact the mentally 
ill. We expect to learn from you about what we can do to 
improve the juvenile justice system in regard to mental health.
    Next, we will hear from Dr. Steve Aos. He is the Assistant 
Director of the Washington State Institute for Public Policy in 
Olympia, Washington. His expertise is in cost benefit analysis 
to be used in both the public and private sectors. Today, he 
will share his work on examining aspects of the juvenile 
justice system and the challenges and the results from States 
which have implemented some of his recommendations. We will 
look forward to learning how he can help States implement 
evidence-based research into policy from you.
    Our final witness, Anne Marie Ambrose, is here today to 
share Pennsylvania's work on its JJ system. Ms. Ambrose, a 13-
year advocate for young people at the JJ system, currently is 
responsible for the operation of four regional offices which 
serve various public and private child welfare and juvenile 
justice needs. She will share with us the forward steps that 
Pennsylvania has taken to address delinquency and other aspects 
of the JJ system.
    For those of you who have not testified before this 
subcommittee, let me explain our lighting system. Split between 
you, you will see a lighting system that is going to be green, 
yellow and red. It is a shame that we can only, really, hear 
your testimony for 5 minutes, because I know you have a lot 
more, and the same will go for the members. We have 5 minutes 
to ask questions, and after that, I give a little bit of 
leeway. You know, I will do a light tap with my nails. If I 
have to, I will go to the hammer, and I do not like doing that, 
so I do not have to say anymore about that.
    We will now hear from our first witness, Judge Kooperstein.

 STATEMENT OF HON. DEBORAH KOOPERSTEIN, ADMINISTRATIVE JUDGE, 
                        SOUTHAMPTON, NY

    Judge Kooperstein. Good morning. Thank you very much for 
inviting me, Congresswoman McCarthy. It is an honor for me. I 
am a town justice. For those of you who do not know what that 
means, I am a part-time town justice. I practice law when I am 
not sitting on the bench, and I have been doing this for 14 
years. I am considered a judge interested in problem-solving 
courts. I know my time is precious, but Congressman Davis, I 
cannot resist telling you that I am a Lady Vols' season 
ticketholder and go down to Knoxville at least twice a year.
    Mr. Davis. Thank you.
    Judge Kooperstein. In any event, I have been asked to talk 
about the East End Regional Intervention Court and our youth 
court and why they dovetail.
    I am an adult court criminal court judge. However, in New 
York State, New York State defines an ``adult'' as someone 16 
years of age, and frankly, I believe that classification causes 
difficulties for that teenage offender. I have on my docket at 
least three dozen 16-, 17- and 18-year-olds charged with 
serious crimes, most of them involving drugs. I have been very 
fortunate to have had the opportunity to start this East End 
Regional Drug Court because so many of those teenagers really 
need the supervision that weekly appearances before a judge 
provide with drug testing every single day if necessary.
    Now, why that is important is because they are children 
even though they are not juveniles within our State system. Why 
do I say that dovetails with our youth court? Because, this 
year, we redefined and reorganized our youth court. We have a 
youth bureau in our town of Southampton now, which administers 
the court, but for the first time, the judges are involved, so 
we follow what is known as a ``restorative justice model,'' a 
problem-solving court.
    So there are real cases being heard by these teenage jurors 
who are being prosecuted by these teenage prosecutors and who 
are being defended by teenage defense attorneys, and they are 
mostly going to be drug cases. In the past, we really had just 
quality of life cases in this court, but it turned into 
something--although valuable as an exercise, it really was a 
moot court competition. Now it is a real trial situation, and 
they are dealing with juveniles who have probation officers, 
these cases are referred from Probation, and I think it is 
very, very important to see how these problem-solving courts 
can help. We have a DARE program that ends in the 6th grade, 
and then in those very critical junior high school years, these 
children are left to drift. With a combination of our youth 
court that is operating now and doing very, very well and our 
East End Regional Drug Court which has graduated a number of 
teenagers with heavy, heavy drug charges against them, I see 
real progress in our town. Congresswoman McCarthy knows this, 
that we have not had one person who graduated from our drug 
court rearrested in over 3\1/2\ years, and although our pool is 
very small, 28 graduates, I think it shows that, if you have a 
judge who is actively supervising any court, be it a juvenile 
court or an adult court, and you have accountability and you 
can reach defendants who are charged with nonviolent crimes, 
you are going to have results.
    The combination of intensive rehabilitation, supervision, 
accountability, and a judge, I believe, is a combination that 
brings good results. For me, supervising the youth court this 
year and being one of the East End Regional Intervention Court 
judges is truly the best part of my job, and my law firm where 
I practice 2 out of 3 weeks has been very supportive of me, and 
I am allowed to go every Tuesday afternoon and preside. 
Although, this Tuesday, I explained that I believed it was more 
important for me to come down here and speak to you. So we will 
be testing our defendants today, and I will get the report on 
my BlackBerry, but I thought, today, if I could get your ear 
and tell you that with very few resources--and I am talking 
about a budget of our youth court of $3,000 a year and a budget 
of our East End Regional Drug Court of $45,000 a year--you get 
results, results that last, and I have many people in my drug 
court who I have put in jail before. 17-year-olds tell me they 
started using when they were 11 or 12. They are the best source 
of information for me.
    I want to thank you very much for your time and attention.
    Chairwoman McCarthy. Thank you, Judge Kooperstein.
    [The statement of Judge Kooperstein follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                                ------                                

    [Judge Kooperstein's responses to questions for the record 
follow:]

             Responses to Questions From Judge Kooperstein

    In answer to Congressman Raul Grijalva's question ``What role, if 
any, does the judiciary play in your state with regard to the review or 
approval of release plans of youth offenders?'' I must say that the 
judge reviews the release plans and must approve them. The plans are 
compiled by the Probation Officer assigned and the facility where the 
juvenile is lodged. There is a strong presumption, although rebuttable, 
in the recommendation's of the staff and director of the facility.
    My response to Congressman Robert C. ``Bobby'' Scott's 5 questions 
is as follows:
    1.The only consequences that result from imprisoning juveniles with 
adults are negative. Juveniles entering the world of calloused, 
hardened adult defendants are recruited by career criminals. Putting 
these groups together is a twisted form of networking; when the 
juveniles are released they re-enter society with the clothes on their 
back, a few dollars and contacts acquired from the inside who recommend 
them to their cohorts on the outside engaged in criminal activities.
    2. The results of imprisoning juveniles convicted of status 
offenses is once again providing them with contacts in the world of 
career criminals. In addition, if you imprison juveniles convicted of 
status offenses the punishment most definitely does not fit the crime 
thus violating Gilbert & Sullivan's maxim. These juveniles haven't even 
committed a crime, they are really reacting and acting out and the root 
causes of this behavior go unaddressed in a jail and the anti-social 
behavior become ingrained.
    3. The most effective ways to decrease the proportion of minorities 
in the juvenile justice system is to target the drug dealers who often 
employ them as runners just because they are juveniles and at the same 
time to provide hope in the tangible form of after school jobs which 
are more than menial but are jobs in areas a juvenile has told a school 
counselor they want to pursue as a career.
    4. I do not have enough experience to form a judgment with regard 
to juveniles with mental illness.
    5. Yes, the availability of quality education is a vital condition 
of confinement. However, placing these juveniles with really dedicated, 
quality teachers requires giving these teachers an incentive, an 
increase in compensation or an attractive benefit package, to attract 
them to a very challenging group of students.
    Please thank both Representatives for their interest in our 
youngsters.
            Regards,
                                       Deborah Kooperstein.
                                 ______
                                 
    Chairwoman McCarthy. Now we will hear from Judge Clark.

  STATEMENT OF HON. KIM BERKELEY CLARK, ADMINISTRATIVE JUDGE, 
    FAMILY DIVISION, 5TH JUDICIAL DISTRICT OF PENNSYLVANIA, 
                         PITTSBURGH, PA

    Judge Clark. Thank you. Good morning.
    Madam Chair and members of the subcommittee, I would like 
to thank you for this opportunity to testify before you today, 
and I am pleased to have the opportunity to comment on the 
proposed reauthorization of the JJDP Act and of the 
continuation of OJJDP. I am here on behalf of the National 
Council of Juvenile and Family Court Judges, and the National 
Council supports the reauthorization of JJDPA and the 
continuation of OJJDP.
    I was specifically asked to talk to you today about what I 
can and cannot do as a judge in Pennsylvania to help children 
and families, to describe what continuing education is like for 
judges, to describe what alternatives there are to 
incarceration of juvenile offenders in Pennsylvania, and how 
often I feel free to refer you to these programs, what 
preventative measures I recommend to help prevent youth from 
entering my courtroom, and the challenges that judges like me 
continue to face every day. This is difficult to do in 5 
minutes.
    I would like to begin with this thought to help put things 
in perspective, and this goes to how most of society, I think, 
feels about juvenile and family court. There have been times 
when I have had encountered a person, and upon discovering that 
I am a juvenile court judge, they make a comment to me like, 
``Oh, it is so awful that you have to work with all of those 
bad kids and all of those bad parents.'' statements such as 
this could not be more wrong, and I acknowledge that there are 
some bad kids, probably, and some bad parents, but they 
represent a very small fraction of the cases that judges see.
    What I mostly encounter are kids and parents in bad 
situations, and I mention this because, when we talk about 
delinquency, we cannot talk about delinquency without talking 
about dependency and custody and protection from abuse and all 
of those things, and I always say that we define and label our 
kids by how they first enter our courthouse, whether they come 
in through the child welfare system or through the juvenile 
justice system.
    I see people who are affected by poverty, drug and alcohol 
addiction, mental health instability, homelessness, mental 
retardation, youth, kids having kids or combinations of some or 
all of the aforementioned. What I see is parents who do love 
their children but who do not have the tools to properly raise 
and nurture them in this society today, and I see kids who are 
really bright and who would have so much potential but for 
their dire circumstances which provide them little chance for 
hope or success, and as a result, they make poor choices.
    These children and their parents struggle every day, and 
some of them are just really existing instead of living life to 
its fullest and looking for goals, and I am saddened by the 
fact that the public does not see what I see and that sometimes 
society tends to look the other way.
    As a family court judge, I hear dependency cases, child 
welfare cases, delinquency cases, which are juveniles charged 
with committing crimes. I hear termination of parental rights 
and adoption cases, custody cases, protection from abuse, 
mental health commitments, and drug and alcohol commitments 
involving juveniles. As a juvenile and family court judge, I 
make decisions that forever affect the lives of children and 
families in my county. I remove children from their homes and 
communities and from the care of their parents and from 
everything that they know and maybe are comfortable or familiar 
with, because they are in need of treatment in an out-of-home 
setting.
    I terminate parental rights and finalize adoptions. Though, 
on occasion, I make decisions that result in a child's being 
tried as an adult rather than a juvenile, but with the help of 
many who work in the system, I am sometimes able to have 
parents reunify with their children where juveniles 
successfully complete their conditions of supervision, and 
their cases are closed, and in some cases, children have 
permanent and lasting relationships with adults.
    In Pennsylvania, we are fortunate to have many other 
options than secure incarceration for juvenile offenders, and 
we utilize residential programs for many of these offenders. 
Obviously, the key is prevention and providing services and 
education for judges, and OJJDP helps with this.
    To sum up, I would say judges in my position need to have 
adequate training. We are asked to be part social worker, part 
physician. We are supposed to understand developmental goals, 
behavioral issues, drug and alcohol addictions, psychological 
issues, the dynamics of sexual and physical abuse. With this, 
we need training, and we need collaboration and cooperation 
with others, and OJJDP helps with this in terms of the 
training.
    I thank you for this opportunity to be heard today.
    Chairwoman McCarthy. Thank you, Judge Clark.
    [The statement of Judge Clark follows:]

 Prepared Statement of Hon. Kim Berkeley Clark, Administrative Judge, 
                     Allegheny County Family Court

    Madam Chair and members of the Subcommittee on Healthy Families and 
Communities, thank you for this opportunity to testify before you here 
today. I am Kim Berkeley Clark, Administrative Judge of the Allegheny 
County Family Court in Pittsburgh, Pennsylvania, and I am here on 
behalf of the National Council of Juvenile and Family Court Judges and 
judges across the nation who hear our nation's most difficult cases--
those related to children and families. Our caseloads include issues 
such as child abuse and neglect, juvenile delinquency, domestic 
violence, substance abuse, mental health, divorce and a myriad other 
issues affecting society today.
    We are pleased to have this opportunity to comment on the proposed 
reauthorization of the Juvenile Justice and Delinquency Prevention Act 
(JJDPA) of 1974 and continuation of the Office of Juvenile Justice and 
Delinquency Prevention (OJJDP) of the U.S. Department of Justice, 
Office of Justice Programs. We appreciate the Subcommittee's attention 
to this important task. The National Council of Juvenile and Family 
Court Judges (NCJFCJ) supports the reauthorization of the JJDPA and the 
continuation of OJJDP. When the JJDPA was originally enacted in 1974, 
many representatives of the NCJFCJ testified before the U.S. Senate in 
support of the legislation. The NCJFCJ continues today in its support 
of the JJDPA and continuation of the OJJDP.
The Need for the Office of Juvenile Justice and Delinquency Prevention
    The Office of Juvenile Justice and Delinquency Prevention has 
served a critical role in supporting the field of juvenile justice 
since its inception. OJJDP has provided critical education, technical 
assistance, research and statistics, and publications to all 
disciplines involved in the juvenile justice arena. These programs have 
proven effective in improving court practice in the handling of cases 
related to children, youth and families. Professionals who are 
supported by the work of OJJDP include judges, attorneys (public 
defenders, prosecutors, and child advocates), juvenile probation 
officers, detention personnel, child welfare professionals, volunteers, 
treatment providers and a wide variety of other juvenile justice 
professionals.
    Juvenile court judges who oversee cases involving children, youth 
and families can help effect changes in the behavior of the youth who 
appear before them. Judges are in a unique position to be able to hold 
others accountable. This includes not only the youth before them, but 
also their family members, schools and the many other professionals 
within the system. Seasoned judges throughout the nation report that 
they are seeing multiple generations of the same family over time. 
Judges realize that they must break the cycles of abuse, delinquency, 
substance abuse, and other issues negatively impacting families today 
in order to sustain their efforts in providing better outcomes for 
children and families.
    The role of the juvenile and family court judge has evolved 
significantly over time. Where judges were once primarily responsible 
for making decisions in a case as impartial magistrates with little 
connection to the children, youth and families before them, judges now 
have assumed multiple additional roles. Juvenile and family court 
judges today are working with children and their families, the 
attorneys assigned to their cases, social workers, probation personnel, 
schools, substance abuse counselors, treatment providers and others to 
find the best solutions to the issues confronting our nation's 
families. Judges are working with stakeholders in their courts and 
communities to develop better ways of doing business. Judges are 
reaching out into the community to identify, develop or import 
resources necessary to meet the needs of children and families in their 
caseloads. And finally, judges are reaching out to policy makers to 
request support for best practices and to request needed resources to 
improve the system's response to child maltreatment, substance abuse, 
juvenile delinquency and more. Judges understand the importance and 
benefits of collaborating with other system professionals and 
communities to improve outcomes for children and families.
The National Council of Juvenile and Family Court Judges
    The National Council of Juvenile and Family Court Judges is the 
nation's oldest judicial membership organization. Now celebrating its 
70th year, the NCJFCJ has more than 2,000 members. With support of the 
Office of Juvenile Justice and Delinquency Prevention, NCJFCJ has 
worked for decades to provide education, technical assistance, 
research, statistics, publications and other assistance to judges and 
professionals in the field.
    The NCJFCJ provides training/education, technical assistance and 
other resources to as many as 20,000 to 30,000 professionals annually. 
The focus of this work is to provide judges and others with the latest 
state-of-the-art information and tools to enable them to make better 
decisions on behalf of children and families, to guide systemic change 
in their communities, and to understand the issues faced by the 
families whose cases they must hear on a daily basis. Topics addressed 
by the NCJFCJ include: child abuse and neglect, juvenile delinquency, 
domestic violence, substance abuse, and family law issues, among other 
topics. A significant portion of this work is funded by OJJDP.
    As an example of the NCJFCJ work funded by OJJDP, from 1992-1995, 
in response to a systemic need for a document that outlined best 
practices in handing child abuse and neglect cases, the NCJFCJ 
developed the RESOURCE GUIDELINES: Improving Court Practice in Child 
Abuse & Neglect Cases.\1\ This document was published in 1995, and was 
endorsed by the Conference of Chief Justices, the American Bar 
Association and the Conference of State Court Administrators. This 
document was foundational in the sea change underway today in improved 
practice by judges, court professionals, child welfare professionals 
and others in handling dependency cases. National programs, state 
initiatives and individual jurisdictions have used this document as a 
blueprint for change--as many as 30,000 copies have been disseminated 
nationally to date. Significant positive results have been noted and a 
few of these are listed below:
    <bullet> In the Congressional drafting of the Adoption and Safe 
Families Act of 1997, the RESOURCE GUIDELINES was used as a guide for 
best practices as contained within the legislation;
    <bullet> State Court Improvement Programs, as supported by the U.S. 
Department of Health and Human Services, used the document to assist 
states in developing state court improvement program plans;
    <bullet> The Pew Commission's Report on Foster Care was largely 
based upon the principles stated in the RESOURCE GUIDELINES.
    The OJJDP-funded Victims Act Model Courts Project at the NCJFCJ was 
developed to identify courts willing to change practice and ready to 
embrace the key principles of the RESOURCE GUIDELINES. This Project 
provides Model Courts with the training, technical assistance, 
evaluation and research needed to improve practice in jurisdictions; 
statewide implementation is an additional goal in many of these courts. 
Currently, 31 jurisdictions around the country serve as Model Courts; 
these courts are committed to improving court practice and to serving 
as models for other courts nationwide outside the project as they 
strive to improve practice. Model Courts, as laboratories for change, 
provide a basis of information to others regarding successes and 
failures, what works and what doesn't work. Model court personnel serve 
as trainers, mentors, site hosts and guides in sharing their work far 
beyond the 31 Model Courts involved in this project.
    Listed below are examples of success in the Victims Act Model 
Courts Project: \2\
    <bullet> Of the courts involved in the project, three are the 
nation's largest juvenile or family court systems. These include: Cook 
County (Chicago) Child Protection Division of the Juvenile Court, New 
York City Family Court, and Los Angeles County Juvenile Court. At one 
time, these three jurisdictions alone represented nearly half of the 
nation's children in foster care. Thanks to a decade of focused 
collaboration between the courts and system stakeholders and the 
NCJFCJ, the total number of children in foster care in these courts and 
nationwide has begun to decrease. In each of these jurisdictions 
caseloads have been examined, issues delaying timely permanency have 
been addressed, and adoptions have increased, among other 
accomplishments. As a result, the numbers of children in foster care in 
these three jurisdictions have significantly decreased over time. In 
Cook County alone, a caseload of over 50,000 children in out-of-home 
care in 1996 has been reduced to fewer than 10,000. Caseloads in Los 
Angeles County have dropped from over 50,000 children in foster care in 
1997 to 30,000 most recently.
    <bullet> Innovations in courts resulting from the work of the 
NCJFCJ's Model Courts Project have proven inspirational to others. For 
example, Adoption Saturday was initiated in the Los Angeles County 
Juvenile Court in 1998. In order to clear a backlog of adoption cases 
in that court, Presiding Judge Michael Nash initiated an event which 
enlisted the help of volunteer judges, court staff, attorneys, social 
workers and others on a Saturday. Volunteers were immediately 
forthcoming and during that first Adoption Saturday event, hundreds of 
cases were heard. The court's celebratory atmosphere on that date has 
inspired additional events each year in Los Angeles County. In 2006, 
that court celebrated its 23rd Adoption Saturday; thousands of 
adoptions have been finalized since that first Adoption Saturday event.
    <bullet> National Adoption Day--Additionally, the Adoption Saturday 
event has been used as a model for National Adoption Day sponsored each 
year by the Dave Thomas Foundation for Adoption. This event is held on 
the Saturday before Thanksgiving and is next scheduled for November 17 
in 2007. During its initial year, this event drew only a handful of 
courts. However, in 2006, National Adoption Day was celebrated in all 
fifty states, the District of Columbia, and Puerto Rico, during 250 
adoption events. These events resulted in adoption of 3,300 children 
nationwide--in one day.
    An additional example of the significant work of the NCJFCJ as 
funded by the OJJDP is the Juvenile Delinquency Guidelines Project. In 
2005, the NCJFCJ produced another pivotal document in changing court 
and systems practice. The JUVENILE DELIQUENCY GUIDELINES: Improving 
Court Practice in Juvenile Delinquency Cases\3\ was developed by a 
committee of system stakeholders, and when published was endorsed by 
the Conference of Chief Justices, the Conference of State Court 
Administrators, the National Association of Counsel for Children and 
the Bureau of Juvenile Justice, State of Michigan. This document 
provides a blueprint for systemic improvement in juvenile justice 
cases, and is now being used by a number of courts nationwide as they 
examine statutes and protocols, identify problem areas, plan for change 
and implement new practices and procedures. A Juvenile Delinquency 
Model Courts Project\4\ as funded by OJJDP is beginning to impact the 
system nationwide in ways demonstrated by the Victims Act Model Courts 
Project over the past ten years. Without the support of OJJDP to fund 
some of this work, the improvements in handling delinquency cases now 
beginning to emerge would not have been possible.
    Another example of the work funded by OJJDP and produced by the 
NCJFCJ, is a series of three audio recordings available on CD. Telling 
Our Stories from Juvenile Court, You Can Make a Difference--Stories 
from Juvenile Court and You Can Make a Difference III--More Stories 
from Juvenile Court\5\ document success stories of troubled teenagers 
referred to the juvenile court, as well as how judges and court 
professionals can make a difference in a child's life. One of these 
success stories is that of former U.S. Senator Alan Simpson.
The Impact of the Office of Juvenile Justice and Delinquency Prevention
    NCJFCJ believes that federal recognition of the uniqueness of 
juvenile courts and the children and youth under their watch should 
continue. We urge Congress, as it considers reauthorization of the 
Juvenile Justice and Delinquency Prevention Act, to consider the 
following:
    <bullet> The juvenile justice system is unique and provides a 
distinct and important focus on issues related to children and youth. 
Juveniles are not miniature adults and must be treated differently than 
adult criminals. They are strongly influenced by their families and 
their peers, and often they can be diverted or rehabilitated from a 
life of crime with proper mentoring, programming and support. There is 
extant research showing that adolescent brains are not fully developed. 
With the infusion of medical and psychiatric research and collaboration 
with juvenile justice professionals, we are learning more all the time 
about how to better intervene and assist youth who appear before us. 
Juvenile courts are an important factor in changing behavior, and the 
programs supported by OJJDP provide judges and other system 
professionals with the knowledge, skills and tools needed to better 
serve the children and youth on their caseloads.
    <bullet> The juvenile justice system is a broadly focused arena 
which includes prevention (child protection) and juvenile delinquency. 
For a comprehensive approach to children and youth, this entire arena 
requires a special focus within OJJDP. Recognizing this early on, over 
a decade ago a child protection division was created within OJJDP to 
focus on programming to address the needs of children who had been 
abused and neglected. The NCJFCJ has worked with OJJDP since 1992 to 
develop best practices in the handling of child abuse and neglect 
cases, to develop a blueprint for change, and to implement best 
practices and improved outcomes for children and families in 
jurisdictions across the nation. As previously noted, this Victims Act 
Model Courts Project serves as a cornerstone of the work of the Child 
Protection Division. Research has proven the link between child abuse 
and neglect and juvenile delinquency.\6\
    <bullet> Funding to state and national programs, through grants and 
cooperative agreements, which support training, technical assistance, 
publications, research, and model programs, provides a comprehensive 
and integrated approach to addressing juvenile justice issues. The 
OJJDP, over time, has developed effective programs which provide a 
comprehensive approach to dealing with juvenile offenders, as well as 
children who have been abused or neglected, who are dealing with 
substance abuse issues, and whose needs cannot be met in any other way.
    <bullet> OJJDP's work in development of programs has changed the 
landscape in terms of government's response to juvenile delinquency. 
The Office's support for programs in juvenile sanctions, juvenile 
delinquency model courts, juvenile drug courts, gangs, disproportionate 
minority contact, and others have provided support to jurisdictions 
across the nation as no other funding streams have.
    <bullet> Training for Judges. Well-trained and skilled judges are 
critical to a well-functioning juvenile justice system that holds 
youth, families and system stakeholders (including themselves) 
accountable. Judges are responsible for holding youthful offenders 
accountable, ensuring community safety and providing for the needs of 
children and youth who have come into the system either through 
delinquent acts or through no fault of their own.
    Programs of OJJDP are cost-effective and thoroughly evaluated. 
Statistics maintained through OJJDP-funded programs allow analysis both 
over time and from jurisdiction to jurisdiction. Information being 
developed by OJJDP-funded programs is being widely disseminated through 
training, conferences, publications, websites and other electronic 
means.
    The Office of Juvenile Justice and Delinquency Prevention has 
played a significant role in representing issues related to justice for 
children and youth within the U.S. Department of Justice since its 
inception. OJJDP serves various functions, including:
    <bullet> providing a voice for juvenile justice and child welfare/
delinquency prevention issues within the U.S. Department of Justice;
    <bullet> supporting innovative programs for handling children, 
youth and their families;
    <bullet> supporting research, training and technical assistance for 
juvenile justice system and cross-system professionals;
    <bullet> providing national juvenile justice statistics;
    <bullet> providing leadership in developing best practices and 
guiding courts and systems nationwide toward improved practice 
throughout the continuum--from prevention to diversion and beyond.
    OJJDP's programs support development of assessment tools; 
assessment of systems practice; research on changing trends; research 
on best practices; use of early service delivery; development of 
technology; and removal of impediments for information-sharing among 
agencies.
Juvenile Justice Statistics--The Need for a Continued Focus by OJJDP
    The need for a continued focus on juvenile justice issues by a 
federal agency mandated with that task remains a high priority for 
professionals in the field. National statistics provided by the 
National Center for Juvenile Justice, the research arm of the NCJFCJ, 
detail trends in the system.\7\ These trends note the need for 
continued vigilance and programming in the juvenile justice arena.
    Arrest statistics from the Federal Bureau of Investigation show 
substantial growth in juvenile violent crime arrests from the late 
1980s until 1994. This was followed by ten years of decline. However, 
this long-term downward trend was broken in 2005 with a small annual 
increase (2%) in Violent Crime Index Arrests. More specifically, 2005 
saw an increase in juvenile arrests for murder (20%) and robbery (11%). 
It is significant to note that while juvenile male arrests for simple 
assault declined between the mid-1990s and 2005, female arrests 
increased. Without a focused office such as OJJDP to address these 
trends with new and innovative programs as they arise, there would be 
no ability within the justice community to reverse or address trends as 
needed.
Conclusion
    The mission of OJJDP is to provide national leadership, 
coordination and resources to prevent and respond to juvenile 
delinquency and victimization. Through the wide range of programs 
implemented by that office, juvenile and family courts, juvenile 
justice systems, child welfare systems, and related fields are 
receiving critical training, technical assistance, support and 
encouragement to improve systemic response to issues related to 
children and youth. With the resources provided by OJJDP, juvenile and 
family courts are better able to serve those children and their 
communities. The NCJFCJ fully supports the reauthorization of the 
Juvenile Justice and Delinquency Prevention Act of 1974, and the 
continuation of the Office of Juvenile Justice and Delinquency 
Prevention.
    On behalf of the National Council of Juvenile and Family Court 
Judges and individual judges nationwide, I would like to thank you for 
inviting me to participate in this hearing on this important piece of 
legislation. I would be pleased to answer any questions you may have.
                                endnotes
    \1\ RESOURCE GUIDELINES: Improving Court Practice in Child Abuse & 
Neglect Cases (1995). National Council of Juvenile and Family Court 
Judges, Reno, NV. Available online at <http://www.ncjfcj.org/images/
stories/dept/ppcd/pdf/resguide.pdf>
    \2\ Status Report 2005: A Snapshot of the Child Victims Act Model 
Courts Project (2006). National Council of Juvenile and Family Court 
Judges, Reno, NV. Available online at <http://www.ncjfcj.org/content/
blogcategory/365/434/>
    \3\ JUVENILE DELINQUENCY GUIDELINES: Improving Court Practice in 
Juvenile Delinquency Cases (2005). National Council of Juvenile and 
Family Court Judges, Reno, NV. Available online at <http://
www.ncjfcj.org/images/stories/dept/ppcd/pdf/JDG/
juveniledelinquencyguidelinescompressed.pdf>
    \4\ Juvenile Delinquency Model Courts are currently located in: 
Pima County, Tucson, AZ; El Paso County, El Paso, TX; Hamilton County, 
Cincinnati, OH; Erie County, Buffalo, NY; Lackawanna County, Scranton, 
PA; Buchanan County, St. Joseph, MO; and 3rd District Court (Salt Lake, 
Tooele & Summit Counties), Salt Lake City, UT.
    \5\ Telling Our Stories from Juvenile Court (2000), You Can Make a 
Difference--Stories from Juvenile Court (2002) and You Can Make a 
Difference III--More Stories from Juvenile Court (2002). CD Audio 
Recordings. National Council of Juvenile and Family Court Judges, Reno, 
NV.
    \6\ Widom, C. (2000). Childhood Victimization: EARLY Adversity, 
LATER Psychopathology. Washington, D.C.: National Institute of Justice 
Journal.
    \7\ Snyder, H. (in press). Juvenile Justice Bulletin: Juvenile 
Arrests 2005. Washington, D.C: OJJDP.
                                 ______
                                 
    [Judge Clark's responses to questions for the record 
follow:]

                                                    March 16, 2008,
Hon. George Miller, Chairman; Hon. Carolyn McCarthy, Subcommittee 
        Chairwoman, Committee on Education and Labor, U.S. House of 
        Representatives, Washington, DC.
    Dear Rep. Miller and Rep. McCarthy: Thank you for the opportunity 
to testify at the September 18, 2007 hearing of the Subcommittee on 
Healthy Families. It was an honor and a privilege to do so.
    I have received the questions from Representatives Scott and 
Grijalva. Attached are my responses. If you need any additional 
information, please do not hesitate to ask. Thank you again for the 
honor of testifying on September 18.
            Very truly yours,
                                        Kim Berkeley Clark.
I. What consequences result from imprisoning juveniles with adults?
    The research is increasingly clear that prosecuting juveniles as 
adults leads to higher recidivism rates than treating youth within the 
juvenile justice system. When incarcerated with adults, youth can be 
victimized in many ways and are exposed to adults who are involved in 
criminal activities. The negative outcomes from imprisoning Juveniles 
with Adults are well documented.
    The outcomes in Juvenile Justice System are far superior to the 
Criminal Justice System. In Pennsylvania, for the year 2005, only 12.6% 
of offenders recidivated; only 11% of juveniles had a violation of 
probation; 94.2% of juveniles completed their community service; total 
community service hours completed 536,196; 85.3% of offenders paid 
restitution in full; $2,362,067.45 in restitution was paid.
    The 2006 figures are equally impressive for Allegheny County, my 
jurisdiction.
    1. Probation staff collected and dispersed $218,866.00 in 
restitution to crime victims. (One juvenile paid a staggering 
$11,900.00 in restitution at the time of case closing.) At case 
closing, 75% of restitution ordered by the court was paid in full.
    2. Probation staff collected and submitted to the state $36,484.90 
for the Crime Victim's Compensation Fund.
    3. In 2006 Probation staff collected and submitted $55,622.38 
towards the District Justice Fund and the Victim Awareness Fund.
    4. Probation staff collected and submitted $8,575.07 towards the 
Substance Abuse Fund.
    5. Youth under Court supervision, whose cases were closed in 2006, 
performed 68,754 hours of community service. At case closing, 96% of 
court ordered community service was completed in full.
    6. In 2006, 88% of the youth under supervision of Allegheny County 
Juvenile Probation were NOT adjudication of a new offense or crime.
    The Criminal Justice System would be hard pressed to even produce 
outcomes of any kind.
    Moreover, in Pennsylvania we are very fortunate that judges have 
many options in dealing with juvenile offenders. We have a wide variety 
of services and programs that have all embraced balanced and 
restorative justice. Judges in Pennsylvania almost never send a child 
outside of Pennsylvania for placement. However, because of the wide 
variety of programs and services in Pennsylvania, our state receives 
many children from all over the United States for placement (and 
sometimes outside of the United States). We also have a wide variety of 
services that give judges an alternative to placement. In Pennsylvania 
only 11% of children receive out of home placement as a disposition for 
their first delinquent offense. 89% of children are placed on probation 
for their first offense. The vast majority of these cases close 
successfully, with no further court appearances. 80% of Pennsylvania 
juvenile offenders in placement are in residential programs as opposed 
to state-run, secure programs. The following editorial appeared on May 
11, 2007, in the New York Times.
            Juvenile Injustice
    The United States made a disastrous miscalculation when it started 
automatically trying youthful offenders as adults instead of handling 
them through the juvenile courts. Prosecutors argued that the policy 
would get violent predators off the streets and deter further crime. 
But a new federally backed study shows that juveniles who do time as 
adults later commit more violent crime than those who are handled 
through the juvenile courts.
    The study, published last month in The American Journal of 
Preventive Medicine, was produced by the Task Force on Community 
Preventive Services, an independent research group with close ties to 
the Centers for Disease Control and Prevention. After an exhaustive 
survey of the literature, the group determined that the practice of 
transferring children into adult courts was counterproductive, actually 
creating more crime than it cured.
    A related and even more disturbing study by Campaign for Youth 
Justice in Washington finds that the majority of the more than 200,000 
children a year who are treated as adults under the law come before the 
courts for nonviolent offenses that could be easily and more 
effectively dealt with at the juvenile court level.
    Examples include a 17-year-old first-time offender charged with 
robbery after stealing another student's gym clothes, and another 17-
year-old who violated his probation by stealing a neighbor's bicycle. 
Many of these young nonviolent offenders are held in adult prisons for 
months or even years.
    The laws also are not equally applied. Youths of color, who 
typically go to court with inadequate legal counsel, account for three 
out of every four young people admitted to adult prison.
    With 40 states allowing or requiring youthful offenders to spend at 
least some time in adult jails, state legislators all across the 
country are just waking up to the problems this practice creates. Some 
states now have pending bills that would stop juveniles from being 
automatically transferred to adult courts or that would allow them to 
get back into the juvenile system once the adult court was found to be 
inappropriate for them.
    Given the damage being done to young lives all over the country, 
the bills can't pass soon enough.\1\
---------------------------------------------------------------------------
    \1\ See also, ``Effects on Violence of Laws and Policies 
Facilitating the Transfer of Juveniles for the Juvenile Justice System 
to the Adult Justice System'' and ``Recommendation Against Policies 
Facilitating the Transfer of Juveniles for Juvenile to Adult Justice 
Systems for the Purpose of Reducing Violence'', American Journal of 
Preventive Medicine, 2007.
---------------------------------------------------------------------------
II. What consequences result from imprisoning juveniles convicted of 
        status offenses?
    Imprisoning status offenders would have many of the same 
consequences as mentioned above. Additionally, my experience is that 
many runaways and ``ungovernable'' children are trying to escape 
abusive situations. Why would anyone even consider sending a truant 
youth to a ``school of crime and criminal behavior''?
III. What are the most effective ways to decrease the proportion of 
        minorities in the juvenile justice system?
    First and foremost, juvenile justice systems must identify this 
issue as a priority, monitor their policies and practices, engage 
minority communities in addressing the issue, and strive to recruit and 
hire staff from these communities. The simple answer is to create more 
diversion programs for the police and court systems. This would 
especially be true for urban areas. The larger answer is figuring out 
how to address at risk kids before they become engaged in more serious 
delinquent behavior. Allegheny County has recently implemented a new 
program called Stop Now and Plan. SNAP is an example of an early 
intervention approach that will work with youth between the ages of six 
(6) and twelve (12) who have had contact with the police or who have 
identifiable behaviors that put them at risk to become juvenile 
offenders. To reiterate, in Pennsylvania only 11% of children receive 
out of home placement as a disposition for their first delinquent 
offense. 89% of children are placed on probation for their first 
offense. The vast majority of these cases close successfully, with no 
further court appearances.
    I would encourage you to review the MacArthur Models for Change--
Systems Reform in Juvenile Justice (an initiative supported by the John 
D. and Catherine T. MacArthur Foundation). MacArthur identified 
Disproportionate Minority Contact (DMC) is one of four (4) areas for 
reform in the juvenile justice system. For Pennsylvania, MacArthur's 
approach entails:
    1. a detailed analysis of existing county-level data on delinquency 
case processing;
    2. exposure of deficiencies, inconsistencies, and gaps in the data 
available;
    3. identification of local models of DMC data collection and 
reporting practice;
    4. statewide efforts to promote better DMC data collection and 
reporting and to better use the data currently available;
    5. identification of local jurisdictions and specific decision 
points for which the data suggest that race or ethnicity may be a 
factor in decision making; and
    6. targeted training and technical assistance in areas where the 
data reveal significant disparities.
IV. What are the most effective ways to decrease the proportion of 
        individuals with mental illness in the juvenile justice system?
    We must improve screening and assessment of youth entering the 
juvenile justice system and divert as many youth as possible to 
services within the mental health and/or child welfare systems.
    Again, I would encourage you to review the MacArthur Models for 
Change--Systems Reform in Juvenile Justice. This report states the 
following:
    ``In a model system, professionals in the fields of juvenile 
justice, child welfare, mental health, substance abuse, and education 
would work collaboratively to produce better outcomes for youth and 
their families. County agencies and public schools would provide 
services to young people who misbehave as a result of mental health 
problems and would not refer them to the juvenile justice system unless 
their offenses were serious. If such youths were arrested, the juvenile 
justice system would be able to tap into community-based mental health 
services. Juvenile probation officers and juvenile court judges would 
be knowledgeable about adolescent development and mental health and 
would have access to high-quality assessments and appropriate services. 
Young offenders' privacy rights would be maintained, and agencies would 
be able to collect and share information appropriately.''
    MacArthur has identified the following goals for Pennsylvania: 
collaboration at the state and county levels, creation of interagency 
teams to expedite placement and/or delivery of services, adoption of a 
single multi-system screening and assessment instrument for all youth, 
promulgation of policies to reduce contact with the juvenile justice 
system and to divert youth into community-based programs, development 
of blended/integrated funding, and delivery of evidence-based 
practices.
V. Are there any conditions of confinement issues, including the 
        availability of education that must be addressed in the JJDPA 
        reauthorization?
    I'd like to see something that requires ``year round'' education in 
all juvenile correctional/treatment facilities. In addition to 
education services while a youth is in placement, the reauthorization 
should be very clear about the value of good reentry planning. A strong 
statement needs to be made about aftercare both in the community and in 
school. A connection to work should also be identified and meaningful 
vocational training, with certification, should be offered.
VI. What role does the judiciary play in your state with regard to the 
        review or approval of release plans of youth offenders?
    Unlike many jurisdictions, judges in Pennsylvania must approve the 
release plans of youth offenders and youth offenders may only be 
released from placement by order of court.
    Additionally, judges are required to hold placement reviews at 
least every six (6) months to monitor a juvenile's progress in 
placement. These reviews are judge driven. The following questions 
should be answered at each review hearing.
    1. Is the juvenile making adequate progress in meeting the original 
goals of the disposition?
    2. Have the juvenile, the juvenile's family, the probation 
department, the staff of the placement facility, and any other service 
providers done what the court has ordered or expected?
    3. Is out of home placement still necessary?
    4. Is a modification of the original disposition order needed?
    5. What steps have been taken to prepare for the juvenile's return 
to the community?
    If the juvenile is in a Title IV-E reimbursable placement, in 
addition to the above inquiry, the judge is also required to make 
formal permanency findings.
    Although the judge receives recommendations from the probation 
officer, the staff from the placement facility, the lawyers, and many 
others, it is the judge, and only the judge, who determines whether or 
not a youth has satisfied his or her treatment goals, whether or not 
the juvenile can be released from placement, and when the juvenile's 
case is closed.
                                 ______
                                 
    Chairwoman McCarthy. Ms. Garcia.

   STATEMENT OF JANET GARCIA, DEPUTY DIRECTOR, ARIZONA STATE 
            OFFICE FOR CHILDREN, YOUTH AND FAMILIES

    Ms. Garcia. Good morning. I am honored to have been asked 
by Chairwoman McCarthy to speak on behalf of the Juvenile 
Justice and Delinquency Prevention Act and the link between 
child welfare and juvenile justice.
    As Chairwoman McCarthy mentioned, one of the duties of the 
Division For Children, which I oversee, is to staff the Arizona 
Juvenile Justice Commission, which is the Arizona State 
Advisory Group on juvenile justice as required by JJDPA. I was 
also a member of the State advisory group for 6 years prior to 
coming into my current position. So, prior to joining the 
Governor's Office, I spent over 20 years working with troubled 
youth and families in the community. My experience allowed me 
to see firsthand the devastation caused by young people by 
abuse, abandonment and family disruption to young people and 
the barriers to improvement caused by a siloed system of 
services, a challenge throughout the United States.
    One of the most consistent programs for youth in my years 
in the community was the Juvenile Justice Delinquency 
Prevention Program, and I was happy to see that in the most 
recent reauthorization of the JJDP Act in 2002, this body 
recognized the link between child maltreatment and juvenile 
delinquency and articulated requirements that promote the 
interaction and coordination of child-serving systems. 
Unfortunately, the additional priorities coupled with the 55-
percent decrease in Federal funding over the last 5 years has 
hindered efforts by the States to make reforms in this area.
    So what is the link between child welfare and juvenile 
justice? In 2005, there were nearly 900,000 substantiated cases 
of abuse and neglect in the United States. The Child Welfare 
League of America's review of the research found that victims 
of child maltreatment are 59 percent more likely to commit 
delinquent acts and one-third more likely to commit violent 
acts as adults. Maltreated children are also more likely to 
experience a range of mental health, substance abuse, 
occupational and educational problems during adolescence and 
adulthood.
    A National Council on Juvenile Justice study on Arizona 
youth found that an incredible 73 percent of youth ages 14 to 
17 with an active dependency had at least one delinquency 
referral. 49 percent were on probation, and 51 percent had been 
detained. Clearly, we must do better to identify and to divert 
these children and youth at the earliest possible point.
    Arizona has set about making changes in our system to 
address these issues. In January 2007, the Directors of the 
Departments of Health Services, Economic Security and Juvenile 
Corrections and the Chair of the Committee on Juvenile Courts 
signed the Letter of Agreement supporting duly adjudicated 
youth and the accompanying framework for interagency practice 
that was developed by an interagency task force.
    In May 2006, the Arizona State Advisory Group and the 
governor's Division for Children jointly held a child welfare/
juvenile justice summit for 15 multidisciplinary county teams 
and a State team, out of which the Interagency Coordination and 
Integration Initiative was established. A set of outcomes and 
strategies have been developed, and multiple committees are 
moving forward on priorities, including the publication of an 
information sharing guide, the organization of data across 
systems for better service delivery, and the development of 
prevention initiatives to divert youth from going deeper into 
the system.
    Our county teams have also moved forward with on-the-ground 
reforms, including that Maricopa County has collocated staff 
from Probation, Child Welfare and Mental Health at their 
juvenile detention centers to develop joint plans of service, 
and Pima County now holds child and family team meetings in the 
detention centers to move low- and medium-risked youth out of 
detention with appropriate support. The Arizona State Advisory 
Group has continued to provide leadership and financial support 
for these efforts.
    I would respectfully recommend that Congress expedite the 
reauthorization of the JJDP Act, incorporating language being 
proposed by the Child Welfare League of America and their 
colleagues to further strengthen and define the expectation for 
States to address the link between child welfare and juvenile 
justice, that Congress restore and increase funding of the 
JJDPA so that States have the resources necessary for studying, 
planning, implementing, and evaluating coordinated and 
integrated approaches to service, and finally, that OJJDP work 
together with national leaders, including CWLA and NCJJ to 
capture and to disseminate effective strategies from the field 
for collaboration and integration.
    Thank you for your concern about this issue, and thank you 
for giving me the opportunity to speak this morning.
    Chairwoman McCarthy. Thank you, Ms. Garcia.
    [The statement of Ms. Garcia follows:]

     Prepared Statement of Janet Garcia, Deputy Director, Governor 
    Napolitano's Office for Children, Youth and Families, Director, 
                         Division for Children

    Good afternoon. I am honored to have been asked by Chairwoman 
McCarthy to speak on behalf of the Juvenile Justice and Delinquency 
Prevention Act, better known as the JJDPA, and specifically, to speak 
on the link between child welfare and juvenile justice.
    My name is Janet Garcia and I am the Deputy Director of Arizona 
Governor Janet Napolitano's Office for Children, Youth and Families 
(GOCYF) and the Director of the Division for Children (DFC). The 
overall mission of GOCYF is to keep Arizona's Families Safe, Strong and 
Prosperous. In addition to the Division for Children our office 
includes the Division for School Readiness, the Division for Substance 
Abuse Policy, the Division for Women and the Division of Community and 
Youth Development. The Division for Children's purpose is to work to 
promote a coordinated and integrated system of care that responds 
quickly and comprehensively to the needs of children, youth and 
families with focus on those with involvement in state services. One of 
the duties of the Division for Children is to staff the Arizona 
Juvenile Justice Commission, which is Arizona's State Advisory Group 
(SAG) on Juvenile Justice as required by the JJDPA. This Commission is 
comprised of 24 members appointed by the Governor, each of whom has 
training, experience and special knowledge concerning the prevention 
and treatment of juvenile delinquency and the administration of 
juvenile justice. Our membership includes representation from juvenile 
justice agencies, other child- and family-serving agencies, private 
nonprofit organizations, locally elected officials, citizen-volunteers 
and youth. For the six years prior to joining the Governor's Office, I 
served as a member of Arizona's SAG representing community-based 
agencies.
    Prior to joining the Governor's Office, I was the Executive 
Director of Tumbleweed Center for Youth Development (Tumbleweed). 
Tumbleweed is a community-based, non-profit agency located in central 
Phoenix and serving runaway, homeless, abused and delinquent youth and 
their families. I spent 20 years at Tumbleweed, first as a direct 
service provider, then as a program manager and, for 15 years as the 
Executive Director of the agency. My experience at Tumbleweed allowed 
me to see first hand the devastation caused to young people by abuse, 
abandonment and family disruption. I also was privileged to witness the 
incredible strength and resilience as well as the tenacity of hope in 
many of youth and families who passed through our doors. Many of the 
youth and families served had multiple challenges that required 
assistance from multiple systems. A frequent frustration for youth, 
families and the staff members supporting them was the often siloed 
systems that provided piece-meal assistance and sometimes set forth 
contradictory expectations that made success elusive. This experience 
of a fragmented system represents a microcosm of the experience of 
children, youth and families in need and those who assist them 
throughout the United States.
Inclusion of coordination requirements in 2002 reauthorization of the 
        JJDPA
    One of the most consistent programs in my years in the community 
and before was the Juvenile Justice Delinquency Prevention Program, 
both the Title II program and the Runaway and Homeless Youth Program. I 
was delighted to see that in the most recent reauthorization of the act 
in 2002 this body recognized the link between child maltreatment and 
juvenile delinquency, recognized the need for systems to coordinate to 
address the complex needs of our most at-risk children and families and 
articulated requirements that promote the interaction and coordination 
of these systems including that:
    <bullet> States, to the maximum extent possible, must establish 
policies and systems to incorporate relevant child protective services 
records into juvenile justice records for the purpose of establishing 
and implementing treatment plans for juvenile offenders.
    <bullet> States must ensure that juvenile offenders whose placement 
is funded by Title IV-E Foster Care receive all the protections 
included the foster care system, including a case plan and a case plan 
review.
    <bullet> The federal government will study juveniles who were under 
the care or custody of the child welfare system or who are unable to 
return to their family after completing their disposition in the 
juvenile justice system. The study shall include an examination of the 
extent to which state juvenile justice systems and child welfare 
systems coordinate services and treatment, the federal and local 
sources of funds for placements and services, and local sources of 
funds for placements and services, and the barriers faced by states in 
providing services to these juveniles.
    In addition to these provisions, the 2002 JJDPA reauthorization 
broadens the categories available to states to fund juvenile 
delinquency prevention and treatment. Unfortunately, the additional 
priorities coupled with the 55% decrease over the last five years in 
federal funding to the states for improvement of their juvenile justice 
systems has led to states being forced to choose between important 
funding priorities. Progress in reforming state systems to better 
integrate and coordinate systems has undoubtedly been hindered by the 
presence of fewer resources to not only maintain compliance with 
ongoing mandates but to address additional requirements.
What is the link between child welfare and juvenile justice?
    The Child Welfare League of America (CWLA) has recognized the 
undeniable link between child maltreatment and juvenile delinquency and 
has accepted the mantle of leadership in addressing the need for 
improved cooperation between systems for the achievement of better 
outcomes for youth and families involved in multiple systems. A survey 
of the research conducted by CWLA documents the long-term consequences 
of child abuse and neglect including the increased likelihood of abused 
and neglected youth being involved in the juvenile justice system.
    In 2005, there were just less than 900,000 substantiated cases of 
abuse and neglect in the United States. As disturbing as these official 
figures are in describing the human tragedy, they mask the real toll of 
child abuse and neglect in the country. The research presented in 
CWLA's work, Understanding Child Maltreatment and Juvenile Delinquency: 
From Research to Effective Program, Practice, and Systemic Solutions 
provides undeniable evidence that victims of childhood maltreatment 
often enter the juvenile justice system and become tomorrow's serious 
and violent offenders. Our nation's maltreated children are not only 
more likely than other children to commit delinquent acts as 
adolescents and crimes as adults, but they are also more likely to 
experience a range of mental health, substance abuse, occupational, and 
educational deficiencies during adolescence and adulthood. Though many 
of these children demonstrate a remarkable resiliency and can grow up 
to be productive adults, credible research reflects that abused and 
neglected children are nearly one-third more likely to be arrested for 
violent crimes later in life. These youth are 59% more likely to commit 
delinquent acts than non-maltreated youth.
    Arizona is fortunate to have been the site of one of the only 
comprehensive efforts to drill down further on this issue by studying 
dual jurisdiction youth. That is, youth who have been declared 
dependent due to abuse, neglect or abandonment and who have also been 
found delinquent by the juvenile court. The Arizona Dual Jurisdiction 
Study (Executive Summary Attached) was conducted by the National Center 
for Juvenile Justice for the Arizona Supreme Court, Administrative 
Office of the Courts, Dependent Services Division.
    For the study, summary information on each child's involvement with 
the court was extracted from the Juvenile On-line Tracking System for 
all juveniles with active dependency, delinquency or status referral/
petition in state FY2002 (7/1/01 through 6/30/02) for four of Arizona's 
fifteen Counties, two urban and two rural, representing over 80% of the 
states population. Data was available on each case through August 2003. 
Some of the findings of the study include:
    1. Youth with histories of court involvement on dependency matters 
are twice as likely to recidivate if referred on a delinquency offense 
as juveniles with no history of dependency court involvement (62% vs. 
30%)
    2. In contrast to general population juveniles where girls are less 
likely to recidivate than males, girls with dependency court 
involvement are as likely as their male counterparts to re-offend.
    3. Seventy-three percent of youth ages 14--17 with an active 
dependency had at least one delinquency referral, 49% were on probation 
and 51% were detained at some point.
    4. Dual jurisdiction youth tend to start their delinquency careers 
earlier and have a more extensive and serious delinquency history than 
court youth without dependency court involvement.
    This study of Dual Jurisdiction youth did not specifically address 
differential impact by race and ethnicity; however, it is clear that 
youth of color are over-represented in the child welfare system and the 
juvenile justice system. It is also clear that this over-representation 
increases at the deep end of the juvenile justice system just as it 
does for youth with involvement in the dependency system. NCJJ has 
proposed to OJJDP a follow up study that would include a closer 
analysis of race and ethnicity of dually adjudicated youth.
    Clearly, children who suffer maltreatment are more likely to become 
involved with the juvenile justice system. They are also more likely to 
need support services from other child serving agencies that provide 
mental health and supported education services. We must take ownership 
of this problem, fully acknowledge the consequences, and develop 
collaborative, multi-system solutions to prevent child abuse and 
neglect and interrupt the costly trajectory--in human and financial 
terms--of these children as they digress toward a lifetime of 
delinquency and adult criminality.
    Another major research project that is supported by OJJDP funding, 
Pathways to Desistance for Serious and Violent Offenders is looking at 
factors that contribute to the trajectory of offending in a cohort of 
1,200 youth (now young adults) from Maricopa County, Arizona and 
Philadelphia, Pennsylvania. Principle investigator Dr. Edward Mulvey 
and his research team are currently gathering data from the child 
welfare system at both sites with the intent to analyze the effect of 
child welfare involvement on delinquency and criminal behavior of 
individuals in the study. This effort will provide additional valuable 
information on the effect of maltreatment on delinquency and on adult 
criminal behavior.
National efforts to address the link between child welfare and juvenile 
        justice
    Based on the research, including the findings of the Arizona Dual 
Jurisdiction Study, the National Center for Juvenile Justice (NCJJ) has 
published a Special Project Bulletin, When Systems Collide: Improving 
Court Practices and Programs in Dual Jurisdiction Cases, (attached) 
that makes a compelling case for coordinated multi-system interventions 
that interrupt this remarkably costly trajectory for our nation's most 
disadvantaged youth. In the bulletin, the authors outline five areas in 
which child welfare and juvenile justice agencies can work to 
coordinate and improve their services for dual jurisdiction youth. 
These include:
    <bullet> Screening and assessment
    <bullet> Case assignment
    <bullet> Case flow management
    <bullet> Case planning and supervision, and
    <bullet> Interagency collaboration
    CWLA, through the support of the John D. and Catherine T. MacArthur 
Foundation, has developed the Child Welfare and Juvenile Justice 
Systems Integration Initiative (summary attached). The initiative 
provides consultation and technical assistance to juvenile justice, 
child welfare, and other relevant youth-serving organizations and 
agencies regarding the connection between child maltreatment and 
juvenile delinquency, and the need for an integrated approach to 
programs and services. The initiative uses a four-phase framework for 
strategic planning that is designed to improve outcomes for dual 
jurisdiction youth and families or those who populate multiple youth 
systems. The effort is designed to develop reformed statutes, policies, 
procedures, protocols, and practices that will lead to improved 
outcomes. The CWLA framework, articulates the many issues in which CWLA 
focuses its consultation, training and technical assistance. These 
include:
    <bullet> Mobilization & Advocacy
    <bullet> Establishment of Governance & Structure
    <bullet> Multi-system Data Collection & Management
    <bullet> Information Sharing & Confidentiality
    <bullet> Coordination of Funding Resources
    <bullet> Multi-system Screening and Assessment
    <bullet> Legal & Policy Analysis (federal, state, and local)
Arizona's efforts at integration and coordination between child 
        services systems
    In December 2004, in response to the NCJJ report on Arizona's dual 
jurisdiction youth, the Governor's Division for Children took the lead 
in organizing an interagency taskforce to develop an agreement and 
framework for working together to provide coordinated, integrated 
services to youth and families involved in multiple systems. The group 
included representatives for child welfare, mental health, the courts, 
probation, parole and family members. Policy makers and practitioners 
as well as state and local representation were sought. The Division for 
Children, Youth and Families within the Arizona Department of Economic 
Security provided ongoing staffing and leadership to bring this diverse 
group of individuals together to develop the Letter of Agreement 
Supporting Dually Adjudicated Youth and the accompanying Framework for 
Interagency Practice Protocol. (A copy is included in the appendix.) In 
January 2007, the Directors of the Departments of Health Services, 
Economic Security and Juvenile Corrections signed the agreement as did 
the Chair of the Committee on Juvenile Courts. This landmark document 
sets out an agreement between Arizona's primary child serving agencies 
to increase integration and collaboration and sets out a framework by 
which this system improvement will occur.
    Another major effort to better integrate and coordinate our child 
serving system was launched in May 2006 when the Arizona SAG and the 
Governor's Division for Children jointly held a Child Welfare Juvenile 
Justice Summit. At our invitation, multidisciplinary teams from each 
Arizona county and a state-level team--totaling nearly 250 attendees--
gathered together to participate in a learning and planning Summit to 
help promote greater integration in the provision of services to 
children and families in their communities. The Child Welfare League of 
America provided training in their planning Framework at the Summit and 
has continued to provide invaluable technical assistance as we have 
moved forward with the planning and implementation of Arizona's model. 
The Summit, supported by funds administered by the Arizona SAG, led to 
the official establishment of the Interagency Coordination and 
Integration Initiative, which is currently working to (1) identify 
youth and families at-risk for multiple systems involvement earlier, 
(2) provide more comprehensive and effective services, and (3) 
cultivate improved outcomes for children and youth who are at-risk for, 
or who have experienced maltreatment. A set of outcomes and strategies 
(copy attached) have been developed from which a blueprint for action 
is being completed. Parallel to the completion of the blueprint, 
multiple committees are moving forward to take action on some of the 
priority items including:
    <bullet> The Letter of Agreement is being disseminated and 
discussed across the state to staff at all levels. A training 
curriculum is being developed combining in person and web-based 
approaches.
    <bullet> An information sharing guide patterned on the guide 
produced in King County, Washington is being developed to clarify the 
guidelines for sharing information between systems that both protects 
confidentiality and dispels common myths that restrict the flow of 
important information.
    <bullet> Methods are being developed to find and organize data 
across systems so that direct service workers have the information 
necessary to appropriately serve youth and families and so that we have 
the information necessary to evaluate the effectiveness of our efforts 
on behalf of these youth and families.
    <bullet> We are looking at ways to prevent penetration of youth 
deeper into the child welfare, mental health and juvenile justice 
systems including:
    -Identification and support of younger siblings of our highest risk 
youth to prevent the trajectory of these younger siblings into the 
system.
    -Joint training of agency and community provider staff on 
adolescent development and principles of positive youth development.
    -Updating of licensing and contract regulations to reflect current 
best practice approaches including strength-based service and positive 
youth development approaches.
    While the state team has gone about identifying and addressing 
barriers to integration, we have remained aware that the actual 
activities of integration and coordination happen at the local service 
level. Therefore, it is most encouraging that in many areas of our 
state, local teams are moving forward with specific changes in policy, 
procedure and practice to better serve youth involved in multiple 
systems. Ten of Arizona's fifteen Counties have interagency teams that 
continue to meet to address issues and develop processes to work 
together for better outcomes for youth and families. Some of the 
activities of the County Teams include:
    <bullet> Maricopa County now has co-located staff from Probation, 
Child Welfare and Mental Health at each of the two juvenile detention 
centers. These teams work together to develop case plans to divert 
status offending and incorrigible youth out of the delinquency court.
    <bullet> Pima County now holds Child and Family Team meetings in 
the detention centers to move low and medium risk youth out of 
detention with support systems in place to lower the risk of return.
    <bullet> Cochise, Graham and Greenlee Counties, three contiguous 
rural counties in southeast Arizona, have developed a formal agreement 
regarding how staff from different child serving agencies and across 
county boundaries will interact with one another to present a seamless 
system of care to youth and families.
    <bullet> Pinal County has partnered with the Governor's Division 
for Children to obtain a pilot grant from the federal Shared Vision for 
Youth Partnership to implement a pilot program called Partners Assuring 
Youth Success (PAYS) providing peer mentoring and work force skill 
development to youth aging out of the child welfare and/or juvenile 
justice system to improve employment outcomes for enrolled youth.
    The Arizona SAG has continued their commitment to this effort and 
to the engagement of local communities through committing funding for 
'mini-summits' planned by interested local teams to assist them in 
moving forward local initiatives to better integrate and coordinate 
services. Casey Family Programs has agreed to match SAG funding to 
allow more counties this opportunity.
Challenges
    <bullet> While the work of this Initiative has been extremely 
rewarding and valuable, long term change involves changing 
organizational cultures around sharing of information and collaboration 
of effort. It has been important to look for and celebrate short-term 
wins on what must be a sustained journey.
    <bullet> Categorical funding requirements create barriers to 
coordination and integration of services and can create competition 
between agencies for use of limited resources.
    <bullet> Decentralized systems including Arizona's mental health 
system and education system require the engagement of multiple entities 
with sometimes diverse opinions and approaches.
Recommendations
    1. Congress should expedite reauthorization of the Juvenile Justice 
Delinquency Act incorporating language being proposed by the Child 
Welfare League of America and their colleagues to further strengthen 
and define the expectations for states to address the link between 
child welfare and juvenile justice.
    2. Congress should restore and increase funding of the JJDPA so 
that states have the resources necessary for studying, planning and 
implementing and evaluating coordinated and integrated approaches to 
service.
    3. OJJDP should work together with national leaders addressing the 
link between child welfare and juvenile justice including CWLA and NCJJ 
to capture and disseminate effective strategies from the field for 
collaboration and integration.
                                 ______
                                 
    [Ms. Garcia's responses to questions for the record 
follow:]

        Governor's Office for Children, Youth and Families,
                                 State of Arizona, October 1, 2007.
Committee on Education and Labor, U.S. House of Representatives, 
        Rayburn House Office Building, Washington, DC.
    Dear Chairman Miller and Chairwoman McCarthy: Thank you for the 
opportunity to testify before the U.S. House of Representatives 
Education and Labor Committee, Subcommittee on Healthy Families and 
Communities. Below are my answers to the additional questions posed by 
Representatives Scott, Grijalva and Yarmuth. I have attached supporting 
documents where appropriate. Please let me know if I can be of any 
further assistance.
    The following five responses address Representative Scott's 
questions.

    Question: What consequences result from imprisoning juveniles with 
adults?

    Imprisoning juveniles with adults does not improve public safety, 
nor does incarceration with adults help youth make an appropriate 
transition to adulthood. A 2000 publication from the U.S. Department of 
Justice, Bureau of Justice Assistance titled Juveniles in Adult Prisons 
and Jails reported that youth held in adult jails are five times more 
likely to be the victims of sexual attacks and eight times more likely 
to commit suicide than youth held in juvenile institutions.
    While I served as the Executive Director of Tumbleweed, a 
community-based, non-profit agency serving runaway, homeless, abused 
and delinquent youth and their families, I participated as a member of 
the Juvenile Justice Advisory Committee in October 2001 convened by the 
Children's Action Alliance (CAA). The Committee examined issues 
surrounding the transfer of juveniles to adult court and explored 
options for system improvement. The purpose of the Committee was to 
identify key issues surrounding the treatment of juvenile offenders as 
adults and help CAA set priorities for future juvenile justice advocacy 
efforts that could be initiated to promote positive changes. CAA 
ultimately produced a report, Prosecuting Juveniles in the Adult 
Criminal Justice System that includes the data from interviews and site 
visits to county jail facilities in Maricopa and Pima counties. The 
findings from that report include:
    <bullet> Services for youth prosecuted as adults are extremely 
limited at the national and state levels--largely because facilities 
and agencies designed to serve adults do have not have the capacity to 
address the unique needs of adolescents. For example, even though Pima 
County Adult Probation Department estimated that at least 80% of 
juveniles had diagnosed mental disorders, counseling services were 
extremely limited.
    <bullet> Adult jails in Arizona are not equipped to respond to the 
special needs of juveniles. There were many reasons for this, including 
the extra costs associated with providing age-appropriate or 
developmentally-appropriate services. At the Madison Street Maricopa 
County jail, education programs were limited to 3 hours per day and did 
not provide an option for obtaining a diploma.
    <bullet> There is extremely limited training for jail personnel 
related to juvenile issues and needs. Some law enforcement and jail 
personnel were reluctant to accommodate the needs of youth in jails 
because they believed that harsher conditions would lead to more 
deterrence. However, in my experience, and as the recent adolescent 
development research confirms, adolescents do not rationally consider 
the consequences of their actions before acting. Rather, harsh 
environments contribute to youth problems.
    A national publication produced by the Bureau of Justice Assistance 
entitled Juveniles in Adult Prisons and Jails: A National Assessment, 
released in 2000. The major findings of that report are: 1) 
approximately 107,000 youth under age 18 are incarcerated on any given 
day. Of these approximately 14,500 are housed in adult facilities; 2) 
the actual number of youth who experience incarceration in an adult 
prison is much higher than the 1-day count, with an estimated 13,876 
juvenile state prison admissions in 1997; and 3) few states operate 
programs specifically designed to meet the needs of youthful offenders. 
The key recommendations of that report are for states to develop 
specialized programs that will be responsive to meet the developmental 
needs of youthful offenders, and to enhance the expertise and training 
for staff working with youth. I would propose that these activities are 
best accomplished by keeping youth in the juvenile justice system with 
strong training and support for staff in that system to provide 
developmentally appropriate services that enhance positive outcomes for 
youth and for the community.

    Question: What consequences result from imprisoning juveniles 
convicted of status offenses?

    The Arizona State Three-Year Plan for addressing JJDPA priorities 
includes an emphasis on the use of home and community-based care for 
status offenders and bolstering overall use of alternatives to 
detention. We see school success and family engagement as paramount in 
improving the life circumstances of vulnerable and at risk youth. Out 
of home placement or use of detention disrupts a children's sense of 
well being as well as his/her educational progress. Sadly, too, youth 
of color are more often detained than their white counterparts.
    Detention in general, and particularly for status offenders, has 
been widely shown to be destructive rather than productive. Nearly 70% 
of detained youth are held in facilities operating above capacity, 
nationwide. Under such conditions, discipline can become unduly harsh; 
education and medical and mental health treatment are often meager. 
Among youth in crowded detention facilities, there are a high number of 
reports of suicidal behavior, as well as stress-related and psychiatric 
illness. The Annie E. Casey Foundation's review of research on the 
effects of detention on youth has found that rather than being a 
deterrent to delinquency, multiple confinements in detention is a 
powerful predictor of future delinquency with more predictive certainty 
than weapons charges, gang membership or poor parenting.
    Here in Arizona we have turned to evidenced-based models, such as 
the Annie E. Casey Foundation's Juvenile Detention Alternatives 
Initiative (JDAI) which provides states and communities--including 
ours--with tools to reduce reliance on secure confinement and to 
provide appropriate detention alternatives for status offenders. There 
are now approximately 75 JDAI sites in 19 states and the District of 
Columbia.
    In Arizona, Pima County (Tucson area) is a participating JDAI site 
and has been highly successful in lowering the numbers of youth in 
detention without negatively impacting recidivism or failure to attend 
court hearings. Between 2003 and 2007 Pima County Juvenile Court has 
lowered the average daily population in detention from 173 to 127. They 
have revised their intake screening tool to assure that the instrument 
is objective and focused on the youths risk to the community. They have 
created strong partnerships with the mental health and child welfare 
system so that youth are not detained due to unaddressed mental health 
or dependency issues. They have, in partnership with community 
providers, opened a range of community alternatives including an 
Evening Reporting Center for youth on Intensive Probation, and a 
diversion program for youth referred on minor domestic disturbance 
charges. The Pima County site and other sites around the country can 
act as models for other jurisdictions in the country on reforming our 
system so that detention is used only to assure public safety and 
assure youth appear at court hearings, its original and legitimate 
purposes.
    New York-based Vera Institute of Justice's Center on Youth Justice 
has also made inroads in addressing status offenses by increasing 
objective decision-making in status offense processes. In 2002, New 
York State contracted with Vera Institute to improve systems and 
services for status offenders and their families in 23 counties. 
Several counties have now taken steps to refine their intake processes 
to incorporate more immediate crisis intervention, develop programmatic 
alternatives to non-secure detention and foster care placement, and 
provide more supportive services to status offenders and their 
families--especially truants--in lieu of court intervention. Momentum 
generated from these local reforms prompted the state to pass 
amendments to New York's Family Court Act in 2005 that enhance 
diversion requirements for status offenders and narrow the 
circumstances under which status offenders may lawfully be detained, 
see www.verainstitute.org.

    Question: Effective ways to decrease proportion of minorities in 
the juvenile justice system?

    Youth of color have been found to be overrepresented at nearly 
every point of contact with the juvenile justice system--and the 
finding is disturbingly persistent over time. The disparities are most 
pronounced at the arrest stage but the effects tend to accumulate 
through each subsequent processing stage, subtly amplifying the 
original differences, so that the racial and ethnic make-up of a 
``deep-end'' commitment facility (juvenile corrections institution or 
adult prison) at the end of the line is often grossly disproportionate 
to that of the youth population at large. Whether these stark 
inequalities are the result of biases in decision-making, social or 
economic differences that are merely correlated with race and 
ethnicity, or more complex structural factors--such as the availability 
of resources, services, and alternatives in some communities and not 
others--they are unacceptable in a democratic society.
    The W. Haywood Burns Institute is currently working in multiple 
jurisdictions across the country including Pima County, Arizona is a 
leader in addressing issues related to Disproportionate Minority 
Confinement. In May 2004, Pima County Juvenile Court and community 
stakeholders began a collaborative effort to eliminate disparate 
treatment and improve outcomes for minority youth involved in the 
juvenile justice system in conjunction with their Juvenile Detention 
Alternative Initiative. Essential to the success of their initiative, 
has been their development and implementation of a strategic plan that 
included five goals, specific objectives to achieve those goals, 
concrete action steps, and clear timeframes for action. Pima Counties 
Plan and recent accomplishments can be viewed on their website at 
http://www.pcjcc.pima.gov/jdai/jdai.htm.
    The Building Blocks for Youth Initiative for Youth 2005 Publication 
No Turning Back (Executive Summary Attached) enumerates some of the 
promising approaches to addressing DMC including:
    <bullet> Advocates should intentionally focus on racial and ethnic 
disparities.
    <bullet> Solid research and relevant data are powerful tools for 
reform.
    <bullet> Effective reform usually requires multiple strategies.
    <bullet> Media advocacy can be a powerful tool to level the playing 
field
    <bullet> Success can be measured in multiple ways including the 
central goal of eliminating disparity but also including reduction in 
overall rates of incarceration so that result in fewer youth of color 
being detained, changing allocation of funding to better address DMC, 
and amending laws the disparately effect youth of color.
    Attached is a report from JDAI explaining the process for 
addressing racial disparities, Pathway 8: Reducing Racial Disparities 
in Detention.

    Question: What are the most effective ways to decrease the 
proportion of individuals with mental illness in the juvenile justice 
system?

    The National Center for Mental Health and Juvenile Justice recently 
released, Blueprint for Change: A Comprehensive Model for the 
Identification and Treatment of Youth with Mental Health Needs in 
Contact with the Juvenile Justice System (attached). The Blueprint is 
the first ever systematic review of the juvenile justice system in its 
entirety--from intake to re-entry--to identify ways in which mental 
health service delivery strategies can be strengthened. The bottom line 
presented in the report is not complicated:
    <bullet> Stronger partnerships are needed between the juvenile 
justice and mental health systems.
    <bullet> Improved and systematic strategies are needed for early 
screening and assessment of youth coming into contact with the system 
so that mental health issues are accurately identified.
    <bullet> Enhanced diversion opportunities are needed so youth with 
mental health needs can be treated in the community; and
    <bullet> Juvenile justice agencies need increased access to 
effective mental health treatment.
    The report also sets forth nine principles that could be adopted in 
the JJDPA as guiding principles for jurisdictions addressing mental 
health issues in juvenile justice. These principles include:
    1. Youth should not have to enter the juvenile justice system 
solely in order to access mental health services or because of their 
mental illness.
    2. Whenever possible and when matters of public safety allow, youth 
with mental health needs should be diverted into evidence-based 
treatment in a community setting.
    3. If diversion out of the juvenile justice system is not possible, 
youth should be placed in the least restrictive setting possible, with 
access to evidence-based treatment.
    4. Information collected as part of a pre-adjudicatory mental 
health screen should not be used in any way the might jeopardize the 
legal interests of youth as defendants.
    5. All mental health services provided to youth in contact with the 
juvenile justice system should respond to issues of gender, ethnicity, 
race, age, sexual orientation, socio-economic status, and faith.
    6. Mental health services should meet the developmental realities 
of youth.
    7. Whenever possible, families and/or caregivers should be partners 
in the development of treatment decisions and plans made for their 
children.
    8. Multiple systems bear responsibility for these youth. While at 
different times, a single agency may have primary responsibility, these 
youth are the community's responsibility and all responses developed 
for these youth should be collaborative in nature, reflecting the input 
and involvement of the mental health, juvenile justice and other 
systems.
    9. Services and strategies aimed at improving the identification 
and treatment of youth with mental health needs in the juvenile justice 
system should be routinely evaluated to determine their effectiveness 
in meeting desired goals and outcomes.

    Question: Are there any conditions of confinement issues, 
particularly regarding availability of education that must be addressed 
in the JJDPA reauthorization?

    In reauthorizing the JJDPA, Congress has the opportunity to raise 
awareness of the importance that conditions of confinement have in 
maintaining the safety and wellbeing of youth. Arizona has very 
personal experience in this regard having been investigated by the US 
Department of Justice under the Civil Rights of Institutionalized 
Persons Act (CRIPA) in June 2002 as a result of inadequate attention to 
the conditions of 3 of our juvenile institutions. Evidence of abuse was 
found as well as inadequate facilities, educational programming, and 
mental health services.
    Once the conditions were brought to light, however, Arizona 
cooperated with the Justice Department to make substantial improvements 
such that on September 21, 2007, the U.S. Department of Justice 
dismissed the case against us. Although Arizona is no longer under 
investigation, we will remain vigilant and ensure that conditions do 
not deteriorate. JJDPA can provide leadership in raising the awareness 
of proper conditions of confinement, so that states are more aware of 
the dangers that lurk in their institutions and vigilant about 
protecting the rights of some of their most vulnerable youth. If the 
JJDPA included specific recommendations for proper conditions, such as 
those included in the JDAI Self-Assessment Practice Guide, I believe 
youth incarcerated in institutions across America would benefit. 
Alternatively, the JJDPA could offer states incentives to create 
independent monitoring offices to identify harmful conditions in their 
juvenile facilities. The establishment of independent state monitoring 
authorities with sufficient power to require changes where harmful 
practices are found could ensure that youth are not housed in unsafe 
and detrimental environments.
    Beyond protecting youth from dangerous situations it is important 
that we provide quality education, mental health and skill building 
services to youth during their period of confinement so that the 
potential for successful reintegration is enhanced. It has been 
established that detention and incarceration interrupts normal 
development and distance youth from the positive institutions in the 
community. It is crucial that we do not further disadvantage youth by 
allowing them to lag further behind in educational achievement and 
allowing mental health issues to go unaddressed.
    The following response addresses Representative Grijalva's 
question.

    Question: I am developing legislation to authorize a reentry 
formula grant program to states to support pre-release planning and 
reentry services targeted to youth offenders. Would such funds be 
helpful to your state?

    Yes, funds to support pre-release planning and reentry services 
would be very helpful to Arizona.
    National research indicates that the recidivism rate for juvenile 
parolees ranges from 55 to 75 percent. An Arizona Department of 
Juvenile Corrections study found that 44% of youth released from a 
department facility in 1999 had re-entered an Arizona state facility 
(returned to Juvenile Corrections or entered Adult Corrections) within 
36 months of release.
    With approximately 100,000 youth with significant mental health, 
substance abuse, educational and behavioral needs as well as normal 
developmental needs, returning to the community from residential 
placement each year successful reintegration is a challenge for across 
the country. Unfortunately, most of the resources have been focused on 
the period of time that youth incarcerated in a facility with 
inadequate attention to the pre-release planning and reentry to the 
community.
    A review of The MacAruthur Foundation Models for Change 
Pennsylvania site publication on Aftercare and the National Center for 
Mental Health and Juvenile Justice Publication Critical Intervention 
Point: Re-entry indicates a consistent set of principles and priorities 
necessary for successful reintegration of youth into the community 
including:
    <bullet> Strong collaboration at the state and county levels to 
align institutional treatment planning and programming with 
reintegration and programs and services
    <bullet> Timely, accurate information exchange
    <bullet> Enhanced training for institutional staff and community 
providers in content areas crucial to healthy youth development and 
successful post-institutional adjustment including the need for a 
graduated system of responsibility and freedom
    <bullet> Training and other support to help system, community and 
family players advocate effectively for aftercare and planning services
    <bullet> Continuous and consistent access to services
    <bullet> Coordination of efforts to re-enroll young offenders in 
school
    <bullet> Support for more uniform monitoring of aftercare planning 
and service provision
    The importance of each of these principles has been borne out in my 
20 years of experience in the community and should be considered for 
inclusion in legislation. When the above principles are applied and 
youth succeed in complete a basic education program, develop basic job 
skills and develop sustained positive relationships with caring adults 
the potential for success increases exponentially.
    After three years of intensive work to improve conditions in the 
institutions under the Department of Justice, Civil Rights of 
Incarcerated Persons agreement, Arizona is committed to maintaining the 
gains accomplished in our facilities but also to turning attention to 
building stronger reintegration services. Support in the form of a 
formula grant would assist us in comprehensively addressing this issue.
    The following six responses address Representative Yarmuth's 
questions. Note: Question 7 is a repeat of question 2 on Representative 
Yarmuth's list.

    Question: In your written testimony you discuss the fact that it is 
clear that children of color are overrepresented in the child welfare 
system and the juvenile justice system. You continue on to discuss the 
deep end of the JJ system. Can you elaborate on what you mean be deep 
end in the JJ system and discuss the correlation?

    Multiple national research studies have found that children of 
color are over-represented in both the child welfare and the juvenile 
justice system. This over-representation escalates as the level of 
intervention intensifies.
    Youth of color are increasingly over-represented in the juvenile 
justice system as the intensity of intervention increases. And Justice 
for Some, a publication (attached) of the Building Blocks for Youth 
Initiative, documents that while representing just 34% of the United 
States population in 1997, minority youth represented 62% of the youth 
in detention, 67% of youth committed to juvenile corrections facilities 
and 75% of youth admitted to adult prisons (the deepest end of the 
system). Over-representation has consistently been documented when 
controlling for a wide range of factors including severity of offense 
and prior offenses.
    In the child welfare system children of color are more likely to be 
the subject of reports of abuse, more likely to be assigned for 
investigation and when abuse is substantiated more likely to be placed 
in out-of-home care. The gap is largest between African-American and 
Caucasian children with the United States Children Bureau reporting 
that in 1997 56% of African American children receiving child welfare 
services were in out-of-home settings such as foster homes while 72% of 
Caucasian children received services in home. This over-representation 
of children in out-of-home care in the child welfare system is 
significant to the juvenile justice system because, as the National 
Council for Juvenile Justice Study of Arizona youth found, youth in 
out-of-home care were more likely to become involved in the juvenile 
justice system and more likely to penetrate more deeply into that 
system.

    Question: Can you go into detail on some of the barriers 
experienced by AZ as it attempts to integrate the child welfare and JJ 
systems, and what role, if any, the Federal government can play in 
helping states break down these barriers?

    The juvenile justice, child welfare, mental health and education 
systems are all discrete systems in Arizona with separate missions, 
visions and goals. The juvenile justice system is further bifurcated 
into the County Court and Probation system and the Arizona Department 
of Juvenile Corrections (ADJC) with youth committed to the state for 
institutionalization and treatment when problems escalate.
    Some of the separation of duties and responsibilities is necessary 
to accomplish the complex set of responsibilities we have for our 
children. However, when children, youth and families are involved in 
multiple systems, it is also important for individuals to various 
systems to communicate and coordinate so that services of non-
duplicative, non-contradictory and comprehensive but manageable. When 
systems do not work together it is common for children and their 
families to have conflicting case plans, conflicting appointments, 
overwhelming schedules of expectations and to consequently become 
discouraged and overwhelmed.
    The Federal government can assist in breaking down barriers by:
    <bullet> Providing direction to states on what information can be 
shared and with whom
    <bullet> Relaxing restrictions on funding so that some funds can be 
pooled together to address complex cases in a comprehensive manner
    <bullet> Re-examine funding rules that reward the placement of 
dependent children and youth in out of home care settings and provide 
disincentives for in-home services and relative placements despite 
current research that consistently shows children and youth have better 
outcomes when families can be kept intact or, when this is not possible 
relatives are utilized as an alternative placement.
    <bullet> Including in the JJDPA specific expectations that state 
systems develop information sharing policies and institute policies 
regarding the coordination of cases across systems
    <bullet> Restore and increase funding for JJDPA authorized programs 
so that states have adequate resources to develop, implement and 
evaluate coordination and integration initiatives.

    Question: In your written testimony you presented statistics from 
the Arizona Dual Jurisdiction study which you believe has shown that 
children who suffer from dependency issues are more likely to have 
negative juvenile justice outcomes than non-dependent youth.
    <bullet> Do you believe enough is currently being done to treat 
dependency issues among the juvenile population either in detention or 
in probation?

    No. Outcomes for youth with dependency issues who are involved in 
the juvenile justice system are consistently worse than for youth 
without dependency issues. Increased special attention is necessary to 
address the special needs of this population.

    <bullet> What more could be done at the federal level to deal with 
dependency issues in the juvenile justice system?

    1. Emphasize early, comprehensive assessment for children and youth 
consistent across systems so that the needs of the child and family are 
fully understood.
    2. Support family involvement and home-based services in accordance 
with effective practice
    3. Support expanded substance abuse treatment for parents and for 
youth to prevent family disruption and/or minimize the length of 
separation
    4. Support the development of model information sharing guides 
(such as the King County Guide attached) that set out the parameters 
for sharing information under federal law and provide a blueprint for 
incorporating state guidelines.

    Question: In your written testimony, you mention the need for 
interagency collaboration between the child welfare and juvenile 
justice communities.

    <bullet> Are there any privacy issues involved in these kinds of 
collaborations?
    <bullet> Under what circumstances should juvenile justice 
practitioners have access to child welfare case-files that include 
medical histories?

    Yes, privacy issues must be considered when engaging in 
collaborative efforts. However, laws concerning confidentiality allow 
for sharing of information between professionals when doing so is in 
the best interest of the child. This, along with protecting a child's 
right to due process should be the guidelines by which we decide when 
juvenile justice professionals have access to files including medical 
information. We are finding that often, the failure to share 
information is due to a lack of understanding of the parameters of 
confidentiality. An important part of the collaborative process is to 
develop and publish and train staff on clear guidelines for information 
sharing across systems. Arizona is currently developing such a document 
modeled after the King County, Washington Information Sharing Guidebook 
(attached).

    Question: How can the Federal government help to address the 
decentralized systems that engage multiple entities in the care of 
children with diverse goals and procedures, if possible?

    <bullet> Examine federal funding streams to eliminate disincentives 
and create incentives for sharing resources across systems
    <bullet> Establish expectations and incentives for collaboration 
and integration across systems
    <bullet> Support research and technical assistance to states and 
localities to accomplish system re-structuring and re-training of the 
workforce

    Question: In your written testimony, you list 7 items that lead to 
improved outcomes for children in both the child welfare and JJ 
systems. I'd be interested in learning if you feel that the Committee 
should explore including such activities in JJDPA, and if so which ones 
and how might we do so?

    I believe you are referring to the steps articulated in the Child 
Welfare League of America Framework for Coordination and Integration 
listed on page 7 of my original testimony. If this is correct, I would 
suggest that the ideas behind these steps be incorporated into the 
JJDPA but that a requirement to utilize this model exclusively would be 
too restrictive to state and local entities addressing this issue. 
Inclusion of expectations that states address multi-system data 
collection, information sharing, coordination of funding resources, 
cross-system screening and assessment and integrated case planning and 
management along with appropriate resources and support to accomplish 
these tasks should be included in the JJDPA.
            Sincerely,
                       Janet Garcia, Deputy Director GOCYF,
                                    Director Division for Children.
                                 ______
                                 
    [Additional materials submitted by Ms. Garcia follow:]
    [Letter of agreement supporting dually adjudicated youth 
and their families in Arizona follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Internet address to ``Reducing Racial Disparities in 
Juvenile Detention,'' a project of the Annie E. Casey 
Foundation, follows:]

              http://www.aecf.org/upload/publicationfiles/
                  reducing%20racial%20disparities.pdf

                                 ______
                                 
    [Internet address to ``And Justice for Some,'' located on 
the Building Blocks for Youth website, follows:]

     http://www.buildingblocksforyouth.org/justiceforsome/jfs.html

                                 ______
                                 

                    Arizona Dual Jurisdiction Study

By Gregory J. Halemba; Gene C. Siegel; Rachael D. Lord; Susanna Zawacki

    This report was prepared by the National Center for Juvenile 
Justice, the research division of the National Council of Juvenile and 
Family Court Judges, for the Arizona Supreme Court, Adminstrative 
Office of the Courts, Dependent Children Services Division.
Executive Summary--Introduction and Background
    In March 2003, the Arizona Supreme Court, Administrative Office of 
the Courts (AOC) entered into a contract with the National Center for 
Juvenile Justice (NCJJ) to conduct a study of youth who experience 
simultaneous dependency\1\ and delinquency court involvement. These so-
called ``dual jurisdiction'' or ``dually involved'' cases\2\ pose 
unique dilemmas for juvenile courts and child welfare agencies across 
the country.
    The Arizona study required NCJJ to examine barriers to effective 
court handling of dual jurisdiction cases, and to provide 
recommendations to address the challenges posed by this population. 
NCJJ worked closely with the AOC and the four study sites (the juvenile 
courts in Cochise, Coconino, Maricopa, and Pima counties) to establish 
the study's parameters.
    A growing body of research confirms the strong correlation between 
child maltreatment and subsequent delinquency. There has been very 
little research, however, conducted on how best to process or intervene 
in cases in which an adolescent is concurrently before the court on 
both delinquency and dependency matters, particularly teenagers 13 
years of age and older. Numerous questions arise regarding the proper 
court response in these matters (including whether case consolidation 
is appropriate), the degree of case coordination between juvenile 
probation/parole, child welfare and behavioral health required to 
effectively intervene in these cases; and how best to access and fund 
the myriad of expensive services these youth typically need to at least 
provide them a realistic opportunity to spend their teen-age years in 
living arrangements that have some semblance of permanency, a realistic 
opportunity to become functional, law-abiding adults, and to address 
immediate and long-term community safety issues.
    The findings of a brief national survey conducted by NCJJ, covered 
in a paper funded through an Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) grant and entitled When Systems Collide: Improving 
Court Practices and Programs in Dual Jurisdiction Cases (see Appendix 
A), and our experience in numerous courts across the country, confirm 
that a relatively small number of courts, probation departments, and 
child welfare agencies have instituted special court practices and/or 
comprehensive programs specifically for dual jurisdiction matters. This 
paper (developed in conjunction with work on this current project) 
highlights promising court-based practices and programs that have the 
potential to address the difficult challenges posed by dual 
jurisdiction cases. It is an initial effort to present what juvenile 
courts are currently doing or what juvenile courts can do to improve 
coordination of dual jurisdiction matters.\3\
    Dual jurisdiction cases present unique challenges to the juvenile 
court/juvenile probation, child welfare, and the behavioral/mental 
health communities. Because of their complexity, these cases drain 
scarce resources from child welfare agencies, probation departments, 
behavioral health systems of care, and the courts themselves. They 
prompt unintended duplication of case management efforts. They usually 
guarantee the influx of multiple parties and professionals, some with 
conflicting goals and missions, adding substantial costs and detracting 
from effective and timely action.
    Almost by definition, dual jurisdiction youth defy singular 
categorization. Dual system youth display an exceptional range of 
behaviors, needs, and risks. We believe, along with many child welfare 
and juvenile justice professionals in Arizona, that the unique 
characteristics of dual jurisdiction cases and the systemic impact 
these cases present, require different approaches than standard 
probation, standard child welfare, or standard behavioral health case 
management. The challenge, of course, is how to implement effective 
changes in times of austere resources.
    This report documents some of the special approaches being taken in 
each of the four study sites. Until a few years ago, efforts to more 
effectively handle dual system matters in Arizona have been marred by 
the often adversarial relationships between CPS and juvenile probation. 
This dynamic tension was frequently related to the lack of resources 
and funding to serve this special population, as well as the ``lack of 
clarity as to the roles and responsibilities'' of juvenile probation 
and CPS in the supervision, case management and provision of services 
in these cases. Much has changed in this regard. Fieldwork conducted in 
the four targeted counties, reveal evidence of expanded interagency 
collaboration and cooperation at the local and state levels, though a 
strong consensus persists regarding the need to continue to improve.
    We believe this study provides empirical support for handling dual 
jurisdiction cases differently than others. Two data sets were analyzed 
over the course of this study--an extract of data from the 
participating county juvenile courts' automated systems (JOLTS),\4\ and 
data manually collected by NCJJ project staff from court files (that 
is, legal files maintained by the Clerk of the Court's office and 
social files maintained by court probation staff and CPS liaison 
staff).
Analysis of JOLTS Data
    Data extracted from JOLTS represent the court history of all 
juveniles with an ACTIVE dependency, delinquency or status referral/
petition in FY2002 (7/1/01 through 6/30/02) for the four counties 
included in our study--Cochise, Coconino, Maricopa and Pima counties. 
Each record in the JOLTS extract data set represents the summarized 
court history involvement of a child on all delinquency, status and 
dependency matters through FY2003 and is current through August 2003.
    The JOLTS extract data file allows for comparison of the dual 
jurisdiction population with those of juveniles only active with the 
court on a delinquency matter in FY2002. These latter youth are 
referred to as our delinquency-only comparison population. The JOLTS 
data extract also permitted NCJJ staff to identify the dual 
jurisdiction population--that is, minors eight years of age and older 
at the start of the fiscal year (July 1, 2001) who were involved with 
the court on both dependency and delinquency matters at some point 
during FY2002. The process was further refined to ensure that the 
court's involvement on these matters truly overlapped within the fiscal 
year.
    Extensive court history data are available on all youth active with 
the court during the fiscal year on dependency, delinquency and/or 
status matters. This includes basic demographic data (date of birth, 
gender, race/ethnicity), as well as dates of first court involvement, 
overall number of referrals/petitions, and most serious offense/
allegations data. Data on probation supervision, probation placements, 
detention and commitments to the Arizona Department of Juvenile 
Corrections (ADJC) are also available. Probation placements are defined 
as youth on probation placed in private group homes and residential 
treatment facilities paid for, at least in part, by the juvenile court 
through a special fund appropriated annually by the State Legislature 
to fund a range of programs and services for delinquent and 
incorrigible youth.\5\
    A number of conclusions can be drawn from our analysis of JOLTS 
data that should be taken into consideration as Arizona re-examines how 
its juvenile courts identify and process the cases of juveniles with a 
court history of both dependency and delinquency involvement. These 
include:
    1. Youth with histories of court involvement on dependency matters 
are twice as likely to recidivate if referred on a delinquency offense 
than juveniles with no history of dependency court involvement (62% 
compared to 30%, respectively).
    2. Recidivism rates for first-time referred females with dependency 
court histories are similar and somewhat higher than for their male 
counterparts (65% versus 61%, respectively). Among the general 
population of juveniles referred for the first time for a delinquent 
act, males are considerably more likely to recidivate than females--33% 
for males and 23% for females.
    3. Dependent children over the age of eight are also very likely to 
be (or become) involved with the court on delinquency matters. The 
likelihood increases substantially for children 14 years of age and 
older.\6\ That is, 73% of active FY2002 dependent youth ages 14-17 had 
been referred to the court on at least one delinquency referral and 57% 
had been petitioned to the court on a delinquency matter prior to 
August 2003. Furthermore, 49% of these older dependent juveniles 
ultimately were placed on probation supervision and 51% were at some 
point detained.
    4. While only comprising a very small fraction of a juvenile 
court's informal diversion caseload (1%), dual jurisdiction youth 
comprise an increasingly larger portion of a court's deeper-end FY2002 
delinquency caseload. This includes youth on probation supervision (7%) 
and a subset of these youth placed in a probation placement (42%).
    5. Arizona juvenile courts have a substantial number of juveniles 
who are both delinquent and dependent. In the state's two largest 
counties, there are hundreds of juveniles who are both dependent and on 
probation supervision. The vast majority of these youth spend at least 
a portion of their time on probation in a group home or residential 
treatment facility--sometimes paid for fully or in part by the juvenile 
court.
    6. Dual jurisdiction youth tend to start their delinquency careers 
at an earlier age--considerably earlier than delinquency-only youth on 
probation supervision and somewhat earlier than juveniles placed in a 
probation placement. This includes age at first delinquency referral, 
petition, as well as detention and placement on probation supervision.
    7. The delinquency histories of dual jurisdiction youth tend to be 
more extensive and serious than a court's general probation population 
but not as extensive or serious as those delinquency-only youth who 
spent at least a portion of FY2002 in a probation placement.
    8. Lastly, dual jurisdiction youth were twice as likely to be 
committed to ADJC by August 2003 (then end of our tracking period) than 
delinquency-only juveniles on probation supervision (14% compared to 
7%, respectively). However, dual jurisdiction youth were considerably 
less likely to be committed to ADJC by that time than delinquency-only 
juveniles spending time in a probation placement (14% versus 23%, 
respectively).
Analysis of Case File Data
    The second data set analyzed for the Arizona Dual Jurisdiction 
Study reflects data manually collected by NCJJ project staff from court 
files--that is, legal files maintained by the Clerk of the Court's 
office and social files maintained by the court and/or CPS liaison. 
Findings from this analysis focus solely on those dual jurisdiction 
youth on probation supervision during FY2002 from Maricopa and Pima 
counties.
    A total or 204 case files were reviewed--129 from Maricopa and 75 
from Pima. These cases were randomly selected from a list of potential 
dual jurisdiction cases. For a juvenile to be on this list, (s)he must 
have had both a dependency petition active and been on probation 
supervision during some portion of FY2002. Instances in which the 
youth's involvement with the juvenile court on both dependency and 
delinquency matters did not overlap within the fiscal year were 
discarded and replaced with new cases.
    Case files were reviewed over the course of an eight-month period 
beginning in June 2003 and ending in February 2004. A follow-up review 
of subsequent court activity for these cases was conducted this past 
summer and early fall (July--September 2004). This follow-up provided 
critical information on delinquency and dependency case outcomes--
including dependency case closures and recidivism on any subsequent 
delinquency, status offense and/or probation violation filings.
    Through the case file review, NCJJ staff were able to collect an 
extensive amount of data on each child. This includes basic demographic 
data (date of birth, gender, race/ethnicity) as well as data on prior 
CPS involvement, prior/current involvement with the juvenile court on 
dependency and delinquency matters,\7\ key case assignments,\8\ 
presenting family and child problems, detailed placement histories, 
delinquency and dependency hearing dates, and services ordered in 
minute entries and/or recommended in case worker and juvenile probation 
officers reports.
    Utilizing this data set, project staff were able to better identify 
the challenges facing the judiciary, juvenile probation officers, CPS 
case managers, service providers, and others, in adequately servicing 
and sanctioning dual jurisdiction youth. Highlights from this analysis 
include the following:
    1. For most dual jurisdiction youth (62%), the delinquency petition 
resulting in the youth's placement on probation was filed prior to the 
filing of the petition alleging that the juvenile was dependent (and 
this did not vary much be county).
    2. The timing of dependency petition filings was strongly 
correlated with the referral source--privately-filed petitions were 
almost always filed after the initiation of delinquency proceedings 
(92%). The reverse was also true--AG/CPS dependency petitions were 
frequently filed first--but the correlation was not as strong (58%). A 
number of agency-initiated dependency petitions were filed after the 
initiation of delinquency proceedings--particularly in Pima County.
    3. These data should not, however, be interpreted to infer that 
most families of dual jurisdiction youth named on privately-filed 
dependency petitions had no previous CPS contact. That is, almost two-
thirds of these families had been the subject of at least one prior 
report (65%) and slightly more than half (51%) were the subject of at 
least one substantiated report. Pima County cases were more likely to 
be the subject of a prior CPS report/substantiated report regardless of 
the referral source.
    4. Additionally, 25% of the families of dual jurisdiction youth 
named on private dependency petitions had been the subject of a prior 
dependency petition which had been previously closed by the juvenile 
court--which is only slightly lower than the 30% found in the AG/CPS 
cohort.
    5. Our sample population of dual jurisdiction youth on probation 
supervision in FY2002 generally began their delinquent involvement with 
the juvenile court at an early age. However, only a small percentage of 
these juveniles were placed on probation for a serious charge--that is, 
a person or property felony (7% and 11%, respectively).
    6. The vast majority of families of dual jurisdiction youth 
displayed a range of problem attributes--the most frequent being 
parental substance abuse (78%), domestic violence (70%), and housing/
financial problems (61%). Additionally, documentation was found in the 
case files indicating that in 55% of the cases reviewed there was a 
history of either or both parents being incarcerated. Families referred 
to the juvenile court on privately-filed dependency petitions were only 
slightly less likely to be experiencing these problems but this may be 
an artifact reflecting better documentation of family problems in 
agency-initiated petitions.
    7. The percentage of dual jurisdiction families with a documented 
history of domestic violence and parental incarceration are 
considerably higher than found in the 2000 Arizona CIP-Re-Assessment 
Study and may be particularly pertinent to behavioral problems 
experienced by dual wards. However, these findings should be considered 
very preliminary and subject to further examination.
    8. Substance abuse was the most prevalent issue documented--80% 
overall--among juveniles in our dual jurisdiction study cohort. The 
case file review also found that 61% of dual jurisdiction youth had 
been diagnosed as having severe emotional/mental health problems, a 
like amount (61%) were taking psychotropic medications (often, multiple 
types), and 39% had a history of being sexually abused. In more than a 
quarter (27%) of the cases, documentation existed to suggest these 
juveniles were seriously considering or had attempted suicide. 
Educational concerns were also consistently identified--including 
chronic truancy problems (76%), severe academic deficiencies (59%), 
special education needs (44%), and a diagnosed/suspected learning 
disability (23%). The data reflect little variation by county on these 
measures.
    9. In general, females were considerably more likely to exhibit 
deficiencies in most of the above need areas than males. Substance 
abuse problems were almost universally a problem (91%) and suicide 
ideations and/or attempts were also far more prevalent among females--
more than double that of the male population (44% compared to 19%, 
respectively). Lastly, almost two-thirds of females had been sexually 
abused compared to slightly more than a quarter of the males (64% 
versus 28%, respectively).
    10. Both Maricopa and Pima counties are committed to ensuring 
consistency in judicial oversight across delinquency and dependency 
matters. However, this is not the case for attorneys assigned to 
represent these juveniles. In many respects, this is a structural issue 
in that the Public Defender's Office represents juveniles in 
delinquency matters in both counties, while court-appointed attorneys 
represent minors in dependency matters in Pima County, and attorneys 
from the Legal Advocate's Office or other court appointed attorneys 
represent juveniles in dependency matters in Maricopa County. Lastly, 
in more than half of the cases in which a GAL was assigned, the same 
GAL was assigned to advocate for the child's ``best interest'' on both 
delinquency and dependency matters before the court. This was more 
likely the case, however, in instances in which the GAL filed the 
private dependency petition.
    11. Very few dual jurisdiction youth in either county were 
relatively stable as regards to their living arrangements. During the 
study period, the vast majority experienced six or more placements 
changes and almost half moved 11 or more times after a delinquency or 
dependency petition was filed (regardless of which came first). 
Additionally, almost all dual jurisdiction youth spent at least some 
time in a group home and/or residential treatment center (90%) and this 
did not vary much by referral source, gender or county. On average, 
dual jurisdiction youth spent almost half of their time in such 
placements (46%). This dwarfs the average amount of time dual 
jurisdiction youth spent living with parents (12%) or in other more-
home like environments such as relative care (13%) and foster homes 
(4%).
    12. The vast majority of these juveniles (89%) spent time in a 
juvenile detention center during the study period and, in most 
instances, experienced multiple detention stays. On average, these 
youth spent as much time incarcerated (13%) as they did living with 
parents (12%).
    13. Probation outcomes for most dual jurisdiction youth were, in 
varying degrees, unsuccessful or otherwise problematic. On the positive 
side, 30% of our dual jurisdiction population satisfactorily completed 
their probation terms--even if their performance was not necessarily 
stellar. Outcomes for the remaining 70% of cases were generally 
unsatisfactory including a considerable portion of youth who were 
eventually committed to ADJC, referred to adult court, remained on 
probation until their 18 birthday at which point they aged out of the 
system, or were released and subsequently placed on probation on new 
charges.
    14. Regardless of their probation outcomes, almost all dual 
jurisdiction youth included in the study experienced subsequent 
referrals and petitions to the juvenile court on delinquency, status 
offense and/or probation violation matters--92% were referred and 87% 
were petitioned one or more times. On average, dual jurisdiction youth 
were referred for delinquency, status and/or probation violation 
offenses a total of 5.1 times and petitioned 3.5 times after being 
placed on probation.
    15. Dual jurisdiction youth also tended to experience poor outcomes 
with respect to types of permanent living arrangements in place at the 
time dependency petitions were closed. Both counties experienced 
difficulties placing youth in home-like settings at case closure. Only 
a quarter of dual jurisdiction youth in our study were either living at 
home (with one or both parents) or were permanently placed with a 
relative/guardian at petition closure. The two most common outcomes 
were either that the petition was closed when a youth reached the age 
of majority (33%) or the petition remained open as of July 2004--for an 
average of 4.6 years (32%). As best we can determine, almost all of the 
youth aging out of the system were either in congregate care, 
incarcerated or AWOL at the time of their 18th birthdays.
    16. During their time on dual jurisdiction status, youth were in 
court frequently--an average of almost once per month on either a 
delinquency or dependency matter. Very few hearings held by the court 
in dual jurisdiction cases, were consolidated hearings in which both 
delinquency and dependency matters were addressed.
Shared Responsibility for Dual Jurisdiction Wards
    Who should take responsibility for supervision, case management and 
servicing dual jurisdiction youth can be a sensitive issue, one that 
reflects differences of opinions as to where lines should be drawn (or 
merged) between the child welfare and juvenile justice systems. These 
varying perspectives also reflect traditional differences in the 
missions that have guided child protection and juvenile probation.
    Historically, from the CPS perspective, there have been concerns 
that the juvenile courts and their probation departments, too often, 
turn to the agency for assistance in funding needed placement and 
related treatment services for troubled youth who are primarily 
delinquent juveniles. CPS funds are not unlimited and at least some 
agency administrators have emphasized that when funds are used to place 
or treat delinquent youth, there are fewer resources for non-delinquent 
(dependent) children. For CPS, the circumstances found in dual 
jurisdiction cases may not initially meet the agency' criteria or 
threshold needed for prompt formal dependency action. Instead, the 
agency may offer voluntary services that families may or may not 
participate in. For the agency, the conundrum associated with dual 
jurisdiction matters seem particularly acute when a juvenile first 
comes to the attention of the juvenile court via a delinquency or 
status offense referral, is petitioned and adjudicated as delinquent or 
incorrigible, with dependency proceedings initiated at a later date 
because of what is perceived as limited juvenile justice funding 
options. Typically, these are cases in which the dependency action is 
initiated through the filing of a dependency petition by a court-
appointed GAL.
    In contrast, at least some juvenile court and probation officials 
have cited the need for CPS to intervene earlier, and more effectively, 
in the lives of maltreated children, including the need to file 
dependency petitions before a youth experiences formal delinquency 
involvement. These juvenile court and probation officials view the 
initiation of dependency proceedings as frequently legitimate in that 
the initial investigation of the youth and family often uncovers a 
serious and/or, possibly, long-standing history of neglect (if not 
specific physical or sexual maltreatment).
    One of the goals of this study is to assist CPS, the juvenile 
courts, and juvenile probation to move beyond any lingering focus on 
which agency is ultimately ``responsible'' for these cases, to greater 
recognition of the need for expanded interagency collaboration. In the 
past couple of years, there has been considerable movement by CPS, the 
juvenile court, and probation departments to acknowledge that both 
entities share responsibility in supervising and servicing this 
population.
    This effort at gradual consensus-building and interagency 
collaboration requires continued nurturing. Growing workload demands, 
the lack of funding resources, few specialized placements and related 
services, as well as the general difficulties facing line staff from 
both organizations in turning around the lives of these juveniles can 
ultimately frustrate these efforts. Interviews conducted in the four 
targeted counties indicate a clear recognition that shared 
responsibility, coordinated case management, interagency collaboration 
and consistent judicial oversight are keys to addressing the needs of 
dual jurisdiction wards and their families as well as ensuring that 
community safety is not unduly compromised. The juvenile court should 
continue to play a critical role in ensuring that all stakeholders 
remain committed to these principles.
    A number of innovative protocols and collaborative efforts 
implemented in recent years in the four counties are highlighted in 
Chapter 4 of this study. These include improved screening and 
assessment which often involves CPS and mental health liaisons, 
increased use of interagency resource staffings, and other continuing 
efforts to form collaborative partnerships to construct individualized 
case plans, access services and, in general, improve overall case 
management and supervision. While much still needs to be done, 
stakeholders in each of the counties should be commended for their 
efforts to date in re-examining and reconstructing how the needs of 
dual jurisdiction youth and their families are collectively addressed.
Summary of Recommendations
    Comments made by key stakeholders during county interviews revealed 
strong agreement on the need to improve how juvenile courts, their 
probation departments, CPS, behavioral health, and the schools handle 
dual jurisdiction cases. Overall, this consensus and the findings 
contained in this report, reflect the need to treat dual jurisdiction 
matters differently than others. What form this differential approach 
takes, however, is a matter for ongoing discussion and planning at the 
local and state levels.
    In preparing this summary of recommendations, we considered the 
findings from our JOLTS and case file review data analyses, the key 
themes identified during county interviews, and our own experiences in 
numerous juvenile/family courts across the country. We hope these 
recommendations prove useful as state and local officials continue to 
strive for ways to improve outcomes for these difficult cases. These 
recommendations are discussed in more detail in Chapter 5.
    1. Revise intake assessment/screening procedures for dual 
jurisdiction cases.
    2. Explore ways to keep the same attorneys assigned in dependency 
and delinquency matters, and provide special training for attorneys 
handling these cases.
    3. Examine the potential benefits and drawbacks of creating court 
teams for dual jurisdiction cases.
    4. Carefully assess the benefits and drawbacks of having assigned 
CASA volunteers serve as surrogate parents for special education 
purposes.
    5. Establish or modify diversion programs to address issues 
presented by dual jurisdiction youth.
    6. Continue and expand efforts that reduce prolonged detention 
stays for dual system juveniles.
    7. Examine the feasibility of combining delinquency and dependency 
hearings--especially for disposition and post-dispositional matters 
when appropriate
    8. Take appropriate steps to reduce delays in obtaining school 
records and improve school attendance.
    9. Revisit options for funding interagency supervision models.
    10. Co-locate Behavioral Health, CPS, and Probation where feasible.
    11. Carefully assess programs that report positive effects on dual 
jurisdiction youth and expand capacity where appropriate.
    12. Consider modifying ``medical necessity'' criteria when deciding 
to move dual jurisdiction youth from more to less restrictive settings.
    13. Providers may need special training to more effectively address 
the effects of prior child sexual abuse victimization and exposure to 
domestic violence on dual wards.
    14. Substance abuse continues to be a major problem area for dual 
jurisdiction youth and their families and efforts should be expanded to 
improve access to and the effectiveness of substance abuse treatment 
programs for both adolescents and parents/guardians..
    15. Improve permanency planning and permanency outcomes for dual 
jurisdiction cases.
    16. Improve prevention and early intervention efforts.
    17. Establish written interagency agreements and protocols for dual 
jurisdiction cases.
    18. Improve information sharing across agencies at all stages of 
dual jurisdiction matters.
    19. Develop and implement specific cross-training opportunities 
relevant to dual jurisdiction.
    20. Identify single point of contact persons within all RBHAs to 
address delays in assessments and services.
    21. Provide special training for group home personnel on handling 
dual jurisdiction youth.
    22. Conduct regular interagency case reviews of dual jurisdiction 
cases.
    23. Continue efforts to increase access to federal funding (e.g., 
Title IV-E) and find innovative ways to pool funds for placements and 
services.
    24. Establish a video conferencing pilot project for selected out 
of county providers to enhance hearing attendance and reduce cost and 
time demands.
    25. Address challenges associated with dependent youth who have 
been committed to the Arizona Department of Juvenile Corrections.
                                endnotes
    \1\ Like many states, Arizona law and Arizona's juvenile courts use 
the term ``dependency'' to refer to child abuse and neglect cases.
    \2\ In this report, ``dual jurisdiction,'' ``dual involvement,'' 
``dual wards,'' and other similar terms will be used interchangeably to 
denote youth with co-occurring dependency and delinquency court 
involvement.
    \3\ Please see Gene Siegel and Rachael Lord. When System Collide: 
Improving Court Practices and Programs in Dual Jurisdiction Cases. 
Technical Assistance to the Juvenile Court: Special Project Bulletin 
(Summer 2004), NCJJ, Pittsburgh, PA. The paper can be accessed on-line 
at: http://ncjj.servehttp.com/NCJJWebsite/pdf/dualjurisdiction.pdf. 
(downloaded on November 19, 2004)
    \4\ JOLTS is an acronym for Juvenile On-Line Tracking System. Each 
of the state's 15 juvenile courts utilizes JOLTS to track both its 
dependency and delinquency caseloads. However, there are three slightly 
different versions of JOLTS existing in Arizona.
    \5\ Youth placed in private group homes or residential treatment 
facilities funded solely through CPS and Arizona Behavioral Health Care 
System funds cannot be identified as such in the JOLTS extract 
database.
    \6\ While no data are available in JOLTS, we suspect these types of 
patterns would be maintained for youth who were informally involved 
with CPS. The authors suspect that prior or concurrent informal CPS 
involvement would be a very good indicator of future recidivism for 
juveniles referred to the court on their first delinquency referral.
    \7\ This includes aggregate and most serious offense data related 
to delinquency, probation violation and status offense referrals prior 
to the youth's placement on probation in FY2002 as well as post-
placement on probation supervision. These data are current through 
August 2004 or a youth's 18th birthday, whichever came first.
    \8\ This includes judge and commissioner case assignments, 
attorneys assigned to represent the child on delinquency and dependency 
matters, as well as any GALs and CASA volunteers who may have been 
appointed.
                                 ______
                                 
    [Internet address to ``Juveniles in Adult Prisons and 
Jails: A National Assessment,'' by the Bureau of Justice 
Assistance, U.S. Department of Justice, Oct. 2000, follows:]

             http://www.ncjrs.gov/pdffiles1/bja/182503.pdf

                                 ______
                                 
    [Internet address to ``Blueprint for Change: A 
Comprehensive Model for the Identification and Treatment of 
Youth with Mental Health Needs in Contact with the Juvenile 
Justice System,'' by the National Center for Mental Health and 
Juvenile Justice, 2007, follows:]

           http://www.ncmhjj.com/Blueprint/pdfs/Blueprint.pdf

                                 ______
                                 
    [Internet address to ``Prosecuting Juveniles in the Adult 
Criminal Justice System,'' by the Children's Action Alliance, 
June 2003, follows:]

      http://www.azchildren.org/display.asp?pageId=62&parentId=11

                                 ______
                                 

  Child Welfare and Juvenile Justice Systems Integration Publications

    Through the support of the John D. and Catherine T. MacArthur 
Foundation, CWLA established the Juvenile Justice Division in July 2000 
with the objective of supporting the education of juvenile justice, 
child welfare, related youth-serving organizations and agencies, and 
CWLA members regarding the connection between child maltreatment and 
juvenile delinquency, and need for an integrated approach to programs 
and services across the child welfare and juvenile justice systems. 
CWLA has developed a range of publications that support this work. 
These include:

    Guidebook for Juvenile Justice and Child Welfare System 
Coordination and Integration: Framework for Improved Outcomes (by Janet 
K. Wiig, with John A. Tuell)

    Built from years of CWLA collaborations and partnerships, co-
sponsorship of state and local symposia, regional training, technical 
assistance, consultation experiences and examination and use of the 
most credible research, program and practice evidence the Guidebook 
will help state and local jurisdictions achieve greater system 
coordination and integration. (www.cwla.org/programs/juvenilejustice/
jjguidebook)

    Promoting a Coordinated and Integrated Child Welfare and Juvenile 
Justice System (by John A. Tuell)

    CWLA believes that system integration and reform is best 
accomplished through a comprehensive strategic planning process that 
includes youth and families, and a broad-based representation of youth-
serving organizations. This approach uses the best information, 
research, and practices to guide the process. The framework detailed in 
this bulletin outlines the components of this process and action 
strategy that states and local jurisdictions must consider to implement 
a more coordinated, integrated child welfare and juvenile justice 
system. (www.cwla.org/programs/juvenilejustice/jjpubs)

    Understanding Child Maltreatment and Juvenile Delinquency: From 
Research to Effective Program, Practice, and Systemic Solutions (by 
Wiig, Janet K., Widom, C. A., with John A. Tuell)

    This monograph will aid agency and organizational leaders, 
policymakers, administrators, judges, attorneys, and practitioners in 
the field of juvenile justice and child welfare in understanding the 
relationship between abuse and neglect and juvenile delinquency and 
advance the effort in developing practical program, practice, and 
system responses to this important issue. This document describes the 
best research on the connection between child maltreatment and juvenile 
delinquency. Also included is a description of a wide array of 
promising responses for improving outcomes for dual jurisdiction youth. 
(www.cwla.org/programs/juvenilejustice/ucmjd)

    A Guide to Legal and Policy Analysis for Systems Integration (by 
Jessica Heldman)

    Experience gained from work in several jurisdictions provides the 
background for this valuable guide. The publication details the process 
of examination of the legal, policy, and procedural mandates unique to 
each agency/organization in order to make recommendations for changes 
that will contribute to improved coordination of initial decision-
making, case management, and service delivery. (www.cwla.org/programs/
juvenilejustice/jjpubs)
    Please feel free to contact: John A. Tuell at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e8f6f7e7eeeec2e1f5eee3acedf0e5">[email&#160;protected]</a> or 
Wayne Promisel at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e797e7c6163677d6b624e6d79626f20617c69">[email&#160;protected]</a>
                                 ______
                                 
    [Internet address to ``When Systems Collide: Improving 
Court Practices and Programs in Dual Jurisdiction Cases,'' 
National Center for Juvenile Justice, June 2004, follows:]

     http://ncjj.servehttp.com/NCJJWebsite/pdf/dualjurisdiction.pdf

                                 ______
                                 
    [Letter from Governor's Office for Children, Youth and 
Families, State of Arizona, follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    Chairwoman McCarthy. Ms. Weisman.

   STATEMENT OF ANDREA WEISMAN, DIRECTOR OF HEALTH SERVICES, 
  WASHINGTON, DC, DEPARTMENT OF YOUTH REHABILITATION SERVICES

    Dr. Weisman. Thank you for the opportunity to speak to the 
subcommittee, to the members of the Subcommittee on Healthy 
Families and Communities.
    I am a doctor of clinical psychology and the Director of 
Health Services at the District of Columbia's Department of 
Youth Rehabilitation Services. Prior to my current position, I 
was Director of Behavioral Health Services at the Maryland 
Department of Juvenile Services. Public officials and advocates 
in both mental health and juvenile justice welcome your concern 
about the very serious issue of the prevalence of mental health 
disorders among youth who come into contact with the juvenile 
justice system.
    While juvenile arrest rates have generally declined since 
1997, there are still over 2 million youth who are arrested and 
who come into contact with the Nation's State and local 
juvenile justice systems each year. The now widely accepted 
prevalence data indicate that as many as 70 percent of youth 
who come into contact with the system have one or more 
diagnosable mental health disorders and that as many as 25 
percent suffer serious disorders, causing impaired functioning 
in one or more life domains. By comparison, it is estimated 
that 10 percent of children and adolescents in the general 
population suffer from mental illness severe enough to cause 
some level of impairment, but these data alone fall short in 
really understanding the complexity of the issues our youth and 
our systems face in addressing these problems.
    There are other statistics we need to consider to really 
put this into context. For example, children of color are 
disproportionately represented in juvenile justice systems 
across the country. The data clearly show that youth of color 
are more likely to be arrested, locked up before trial, sent to 
State facilities after adjudication, and to spend more time 
incarcerated than white youth even when they are charged with 
the same categories of offense, but there is one more context 
setting parameter. There is growing evidence documenting the 
nearly pervasive experience of trauma among incarcerated youth 
prior to incarceration.
    Some studies report prevalence rates as high as 93 percent 
for boys and 84 percent for girls. ``trauma'' refers to the 
experience or exposure to violence, physical, sexual or 
emotional abuse or neglect. Trauma for these youth come in the 
form of family violence and close contact with violence among 
friends and in their communities in addition to being victims. 
The trauma our youth have experienced is pervasive, and it is 
multigenerational. If we do not treat the whole family system, 
we will be less successful in responding to the needs of our 
youth.
    Juvenile justice systems have struggled to develop the 
range of behavioral health services that satisfactorily address 
the needs of children and families. For example, the 
partnership between the MacArthur Foundation and the National 
Center on Mental Health and Juvenile Justice through the 
Foundation's Model for Change Initiative has led to some 
significant improvements in the collaboration strategies 
between State-level mental health and juvenile justice 
agencies.
    In addition, SAMHSA's Center for Mental Health Services' 
System of Care work in numerous States has provided both the 
philosophy and the strategies for interagency collaboration 
among child-serving agencies, including mental health, child 
welfare, education, and juvenile justice. Children and 
adolescents cross multiple agencies, and programs and services 
must come from the combined efforts and collaboration among 
them all.
    There are several core values and strategies in approaching 
these problems, many of which are already embodied in the 
Juvenile Justice and Delinquency Prevention Act. We must be 
institutionalized status offenders for status offenses are 
those that only a minor can be charged with, such as truancy, 
running away and curfew violations. These are the very 
behaviors we would expect from a youth being sexually abused or 
otherwise traumatized. Incarceration is not good for anybody, 
and for traumatized youth, it recapitulates their original 
trauma experiences.
    A critically important development in recent years is the 
systematic identification of youth with mental health or 
substance abuse disorders as early on as possible. We must 
screen youth with validated instruments upon their first 
contact with juvenile justice agencies, and this screening must 
lead to culturally sensitive, evidence-based treatments whether 
within juvenile justice agencies or facilities in the 
community. We must divert youth whenever public safety concerns 
allow and redirect them to community-based treatments with 
proven effectiveness. We must use evidence-based treatments.
    Quite a lot is now known about the kinds of services and 
supports that work most effectively with the juvenile justice 
population. These interventions bring therapeutic services into 
the home in varying degrees of intensity and duration to work 
with the youth and family in natural settings, and we must keep 
youth out of adult jails. They suffer significantly higher 
negative outcomes than youth in juvenile facilities from higher 
suicide rates to the increased likelihood of being victims of 
assault or abuse, and when they are in adult jails, we must 
keep them sight-and-sound separated from adults so as to 
minimize the likelihood of their being abused or exploited, and 
States and local jurisdictions must be held accountable to 
assess and to address the racial and ethnic disparities 
affecting youth of color that exist throughout the juvenile 
justice system.
    These basic protections must be a priority for this 
committee to ensure that youth in need of mental health 
treatment who come into contact with the juvenile justice 
system are, whenever possible, able to receive effective 
services in their homes or in the community, and these are the 
protections afforded by the JJDP Act.
    Thank you.
    Chairwoman McCarthy. Thank you, Ms. Weisman.
    [The statement of Dr. Weisman follows:]

    Prepared Statement of Andrea Weisman, Ph.D., Director of Health 
   Services, District of Columbia Department of Youth Rehabilitation 
                                Services

    Thank you for this opportunity to speak to the members of the 
Subcommittee on Healthy Families and Communities. I am a doctor of 
clinical psychology and the Director of Health Services at the District 
of Columbia Department of Youth Rehabilitation Services. Prior to my 
current position, I was Director of Behavioral Health Services at the 
Maryland Department of Juvenile Services.
    Public officials and advocates in both mental health and juvenile 
justice welcome your concern about the very serious issue of the 
prevalence of mental health disorders among youth who come into contact 
with the juvenile justice system.
    While juvenile arrest rates have generally since declined since 
1997, there are still over two million youth who are arrested and come 
into contact with the nation's state and local juvenile justice systems 
each year.\1\ The now widely-accepted prevalence data indicate that as 
many as 70% of youth who come into contact with the juvenile justice 
system suffer one or more diagnosable mental health disorders, and that 
25% suffer serious disorders causing impaired functioning in one or 
more life domains.\2\ That means that as many 1,400,000 of these youth 
have at least one diagnosed mental health disorder and that as many as 
500,000 have disorders of significant severity to cause dysfunction. By 
comparison, it is estimated that 10% of children and adolescents in the 
general population suffer from mental illness severe enough to cause 
some level of impairment. When we consider the frequently co-occurring 
substance abuse disorders, the numbers are astronomically high.
    But these data alone fall short in really understanding the 
complexity of the issues our youth and our systems face in addressing 
these problems. There are other statistics we need to consider to 
really put this into context. For example, children of color are 
disproportionately represented in juvenile justice systems across the 
country.\3\ The data clearly show that youth of color are more likely 
to be arrested, locked up before trial, sent to state facilities after 
adjudication and spend more time incarcerated that white youth, even 
when they are charged with the same categories of offense.
    Another piece of the puzzle is this, and I'll use the District to 
exemplify: According to Annie E. Casey's Kids Count\4\ statistics, the 
District surpasses national averages on issues such as low birth weight 
of babies born, infant mortality, child deaths, teen deaths, teen 
births rates, teen high school drop out rates, teens not in school and 
not working, children living in poverty and children living in single 
parent households.
    When I worked for the District's Department of Mental Health 5 
years ago, their penetration rate--that is, the number of children and 
adolescents to whom services were being provided was just under 1% of 
all youth. This is an example, but children throughout the country are 
underserved by mental health systems. And I don't think it's too big a 
leap to claim that judging from disproportionate number of children of 
color who wind up in the juvenile justice system with diagnosed mental 
health disorders--which public mental health systems are especially 
under serving this youth population.
    There's one more context setting parameter. There is growing 
evidence documenting the nearly pervasive experience of trauma among 
incarcerated youth prior to their incarceration. Some studies report 
prevalence rates as high as 93.2% for boys and 84% for girls.\5\ Trauma 
refers to the experience or exposure to violence, physical, sexual or 
emotional abuse or neglect. Trauma for these youth comes in the form of 
family violence and close contact with violence among friends and in 
their communities, in addition to being the being the victim of 
physical, sexual, or emotional abuse or neglect. Internalizing trauma 
responses include: emotional numbing, depression, decline in 
functioning, confusion, nightmares and flashbacks. Externalizing trauma 
responses are evidenced in interpersonal conflicts, aggressive and 
risky behaviors, substance abuse and school avoidance or refusal.\6\ 
These are entirely characteristic of incarcerated youth and likely 
account for the resulting diagnoses of oppositional defiant disorder 
and conduct disorder and other hyperkinetic disorders that make up a 
majority of the 70% of youth diagnosed as having a mental health 
disorder. The trauma our youth have experienced is pervasive and it is 
multi-generational. If we don't treat the whole family system we will 
be less successful in responding to the needs of our youth.
    Juvenile justice systems have struggled to develop the range of 
behavioral health services that satisfactorily address the needs of 
children and families. For example, the partnership between the John D. 
and Catherine T. McArthur Foundation and the National Center on Mental 
Health and Juvenile Justice through the foundation's Models for Change 
initiative has led to some significant improvements in the 
collaboration strategies between state level mental health and juvenile 
justice agencies.
    In addition, SAMHSA's Center for Mental Health Services' System of 
Care work in numerous states has provided both the philosophy and the 
strategies for interagency collaboration among child serving agencies, 
including mental health, child welfare, education, and juvenile 
justice. Children and adolescents cross multiple agencies, and programs 
and services must come from the combined efforts and collaboration 
among them all--from the identification of a youth with mental health 
needs to their treatment in programs and services that all agencies 
have a collective interest in developing.
    There are several core values and strategies in approaching this 
effort, some of which are already embodied in the Juvenile Justice and 
Delinquency Prevention Act:
1. Deinstitutionalization of Status Offenders
    Status offenses are those that only a minor can be charged with 
such as truancy, running away and curfew violations. These are the very 
behaviors we would expect from a youth being sexually abused or 
otherwise traumatized--many girls are running away from abusive adults 
in their families or neighborhoods. Locking girls up for what may be 
adaptive or survival behavior is wrong. Incarceration is not good for 
anybody, and for traumatized youth it recapitulates their original 
trauma experiences.
2. Early Identification of Youth with Mental Health or Substance Abuse 
        Disorders
    A critically important development in recent years is the 
systematic identification of youth with mental health or substance 
abuse disorders with validated screening instruments (such as the 
MAYSI-2,\7\ GAIN-Q,\8\ and Trauma Severity Index\9\ ) upon their first 
contact with juvenile justice agencies. Screening must lead to 
culturally sensitive, evidenced-based treatments--whether within 
juvenile justice agencies or facilities or in the community.
3. Diversion to Community-Based Programs
    Whenever public safety concerns allow, youth should be diverted 
from detention or incarceration to home- or community-based treatments 
with proven effectiveness.
4. Use of Evidenced-based Treatments and Services
    Quite a lot is now known about the kinds of services and supports 
that work most effectively with the juvenile justice population. These 
include Multi-systemic Therapy, Functional Family Therapy and Multi-
Dimensional Treatment Foster Care.\10\ These interventions bring 
therapeutic services into the home (or foster home) with varying 
intensity and for various durations to work with the youth and family 
in natural settings.
5. Adult Jail and Lockup Removal
    Youth locked up in adult jails suffer significantly higher negative 
outcomes than youth in juvenile facilities, from higher suicide rates 
to increased likelihood of being victims of assault and abuse.\11\ 
Youth under the age of 18 should not be held in adult jails, whether 
they are charged in the juvenile justice system or the adult criminal 
justice system.
6. ``Sight and Sound'' Separation
    Youth held in adult jails [or prisons] even for brief periods of 
time, such as for screening or waiting for transport to juvenile 
facilities, should be kept completely separated from adult inmates to 
reduce the likelihood of their being abused or exploited.
7. Disproportionate Minority Contact (DMC)
    States and local jurisdictions must be held accountable to assess 
and address the racial and ethnic disparities affecting youth of color 
that exist throughout the juvenile justice system.
    These basic protections must be a priority for this committee to 
ensure that youth in need of mental health treatment who come into 
contact with the juvenile justice system are able, whenever possible, 
to receive effective services at home or in their communities.
    Let me share with you now the singular efforts of the District in 
creating a model for change. DYRS has implemented Positive Youth 
Development as its signature focus. PYD incorporates a culturally 
competent, strength-based, family-focused agenda for those youth in the 
District who further penetrate and are committed to the District's 
juvenile justice system. DYRS has also adopted a public health model 
for its health services--both medical and behavioral health. With the 
recognition of trauma as the central issue with which most of our youth 
are faced and the multi-generational nature of this phenomenon, DYRS 
has adopted a set of strategies that incorporate families, schools, 
living unit staff and multiple agencies in the development of family 
recovery plans.
                                endnotes
    \1\ Snyder, Howard N. National Criminal Justice Reference Service: 
Juvenile Arrests, 2000.
    \2\ Blueprint for Change: A Comprehensive Model for the 
Identification and Treatment of Youth with Mental Health Needs in 
Contact with the Juvenile Justice System. Skowyra, Kathleen and 
Cocozza, Joseph. The National Center for Mental Health and Juvenile 
Justice. January 2006.
    \3\ State Disproportionate Minority Confinement Data. W. Hayward 
Burns Institute at www.BurnsInstitue.org.
    \4\ Annie E. Casey Kids Count, 2007.
    \5\ Hennessey, M. et al. Trauma among girls in the juvenile justice 
system. Washington, DC: Juvenile Justice Working Group of the National 
Child Traumatic Stress Network, 2004.
    \6\ Hodes, Gordon R. Responding to Childhood Trauma: The Promise 
and Practice of Trauma Informed Care. National State Mental Health 
Program Directors. National Technical Assistance Center
    \7\ Grisso, T. and Bynum, R. Massachusetts Youth Screening 
Instrument Version 2, 2000.
    \8\ Titus, J.C. and Bennett, M. The GAIN-Q (GQ): The Development 
and Validation of a Substance Abuse and Mental Health Brief Assessment, 
2003.
    \9\ Ford, J.D., Chapman, J.F. Hawke, J. and Albert, G. Trauma Among 
Youth in the Juvenile Justice System.
    Program Brief, National Center for Mental Health and Juvenile 
Justice, 2007.
    \10\ Burns, B., Hoagwood, K. and Mrazek. P. Effective Treatment for 
Mental Disorders in Children and Adolescents, in Clinical Child and 
Family Psychology Review, Vol. 2, No. 4. 1999:199-244.
    \11\ ACT 4 Youth Juvenile Justice: A Nationwide Initiative 
Addressing Reauthorization of the Juvenile Justice and Delinquency 
Prevention Act (JJDPA). Core Requirements at http://www.act4djj.org/
about--reauirements.html.
                                 ______
                                 
    [Ms. Weisman's responses to questions for the record 
follow:]

                                     Livingston Street, NW,
                                   Washington, DC, October 1, 2007.
Committee on Education and Labor, U.S. House of Representatives, 
        Rayburn House Office Building, Washington, DC.
    Dear Chairman Miller and Chairwoman McCarthy: Thank you for the 
opportunity to provide additional comments to add to my testimony 
before the U.S. House of Representatives Education and Labor Committee, 
Subcommittee on Healthy Families and Communities.
Youth in Adult Facilities
    Unfortunately, too many youth in America are exposed to the dangers 
of adult jails and prisons. On June 30, 2006, there were 2,364 
juveniles in state prisons, a 7.1% increase since the year before. 
There were also 6,104 juveniles in adult jails--4,836 were held as 
juveniles in the juvenile court system, and 1,268 were held as youth in 
the adult criminal system.\1\ Adult facilities are often unsafe for 
other adults but because of their size and age, youth are especially 
vulnerable. A report by the Commission on Safety and Abuse in America's 
Prisons found that ``violence remains a serious problem in America's 
prisons.'' \2\ Sexual violence varies across systems and states, but 
almost every system experiences problems with sexual violence. 
According to a Bureau of Justice Statistics report, about 36% of the 
reported allegations of sexual violence in 2006 involved staff sexual 
misconduct; 34% inmate-on-inmate nonconsensual sexual acts; 17% staff 
sexual harassment; and 13% inmate-on-inmate abusive sexual contacts. 
This report also found that 13% of the victims of substantiated 
incidents of inmate-on-inmate sexual violence in jails were juveniles 
under the age of 18--a surprisingly high percentage of victims. In 
contrast, youth under 18 were 0% of the perpetrators of sexual violence 
in jails.\3\
    Youth are also particularly susceptible to suicide when placed in 
jails. According to another Bureau of Justice Statistics report, 
Suicide and Homicide in State Prisons and Local Jails, jail inmates 
under 18 had the highest suicide rate (101 per 100,000) of all inmates. 
While the most common cause of death for jail inmates over 18 is 
illness, that is not true for youth. A few other facts are particularly 
important to note from that study. First, jail inmate suicides were 
heavily concentrated in the first week spent in custody (48%). Almost a 
quarter of all jail suicides took place either on the day of admission 
to jail (14%) or the following day (9%). Second, of all offender 
groups, public-order offenders spent the shortest time in custody prior 
to committing suicide; half of their suicides took place in the first 
three days of custody. Finally, rates of inmate suicide were closely 
related to jail size, with the smallest facilities recording the 
highest suicide rates.\4\ These findings are particularly relevant to 
the reauthorization of the Juvenile Justice and Delinquency Prevention 
Act (JJDPA) because many people do not realize that youth held in jails 
for even very limited periods of time are at a great risk of suicide. 
These findings support my recommendation to extend the core protections 
to cover youth in the adult system as well.
Conditions of Confinement
    The first national survey of juvenile facilities conducted in 1990-
92 by Abt Associates for the Office of Juvenile Justice and Delinquency 
Prevention, found that children were repeatedly held in short-term 
isolation (one to 24 hours) with many youth being isolated for more 
than 24 hours; youth frequently were suicidal and were not given 
appropriate treatment. Unfortunately those abusive practices have not 
yet ended.
    Six years ago state officials closed the South Dakota State 
Training School after federal litigation by the Youth Law Center 
revealed that staff regularly sprayed confined youth with pepper spray, 
chained them by their wrists and ankles to the four corners of their 
beds, and locked them in their rooms for days and weeks at a time. More 
recently, the Special Litigation Section of the Civil Rights Division 
of the U.S. Department of Justice has found horrendous restraint, 
isolation, and use of force practices in state facilities in Louisiana 
(staff ``hog-tied'' youth, physically beat youth, used mace on youth); 
Mississippi (staff ``hog-tied'' youth, shackled girls to a pole, kept 
girls in ``dark room ''); and other states.\5\ Earlier this year, an 
investigation of Texas Youth Commission facilities revealed more than 
2,000 complaints of abuse in over 50 facilities. Unfortunately, the 
Texas Youth Commission has declined to follow the recommendations of a 
commission created to investigate the abuses and has proposed 
increasing the use of pepper spray at its facilities. The JJDPA should 
send a clear signal to juvenile justice facilities nationwide that such 
practices are unacceptable.
    In reauthorizing the JJDPA, Congress has the opportunity to include 
prohibitions on the use of some especially dangerous practices. These 
include use of chemical agents; use of pain compliance techniques; 
hitting, kicking, striking, or using chokeholds or blows to the head; 
use of four- or five-point restraints, straightjackets, or restraint 
chairs; tying or placing in restraints in uncomfortable positions; 
periods of excessive isolation; restraining to fixed objects; 
restraining in a prone position or putting pressure on the back; using 
physical force or mechanical restraints (including shackling) for 
punishment, discipline, or treatment; and use of belly belts or chains 
on pregnant girls. These recommendations are based on the 
recommendations of experienced attorneys, physicians, and psychologists 
who have seen such practices firsthand in states throughout the 
country. The recommendations are in keeping with national standards for 
conditions in juvenile detention facilities created by the Annie E. 
Casey Foundation for its Juvenile Detention Alternatives Initiative. 
The standards include the combined insight of 15 national experts, 
myself included, as to effective best practices for safe and humane 
juvenile facilities.
    In addition, states should be encouraged to create independent 
monitoring offices with authority to investigate and seek remedies of 
harmful conditions in their juvenile facilities through the use of 
incentive grants. Establishing independent state monitoring authorities 
with sufficient power to make necessary changes where harmful practices 
are found could significantly improve the quality of conditions in 
facilities nationwide. Currently there is only one main agency 
available to investigate and remedy such abuses. The Civil Rights 
Division of the Justice Department is been able to pursue some 
investigations under the Civil Rights of Institutionalized Persons Act. 
Private, nonprofit legal advocacy organizations such as the Center for 
Children's Law and Policy, Youth Law Center, and National Center for 
Youth Law, who have historically improved conditions of confinement 
through litigation, have been hampered by procedural and other 
obstacles in the Prison Litigation Reform Act. The Office of Juvenile 
Justice and Delinquency Prevention of the Justice Department has no 
authority, experience, or expertise to conduct such investigations. The 
Prison Rape Elimination Commission focuses on one portion of the 
problem--sexual abuse of inmates in adult and juvenile facilities--but 
has no authority to conduct individual investigations or pursue 
remedial litigation.
Mental Health Services
    The U.S. Surgeon General has found that debilitating mental 
disorders affect one in five U.S. youth, but access to effective 
treatment is often limited. In July 2004, Rep. Henry A. Waxman and Sen. 
Susan Collins released the results of a national survey of juvenile 
detention facilities that assessed the inappropriate detention of youth 
with mental illness. The survey found that without access to treatment 
in the community, many mentally ill youth were warehoused in detention 
facilities, even if they did not have any criminal charges pending 
against them. Criminal justice and juvenile justice agencies across the 
nation need to use more diversion programs to ensure that people with 
mental illness are not unnecessarily criminalized. Diversion programs 
provide an alternative to incarceration by linking individuals to 
community-based mental health and substance abuse services, housing, 
medical care, income supports, employment and other necessary services. 
With appropriate diversion programs in place, youth with mental illness 
can get the appropriate services they need without ending up in the 
juvenile or criminal justice systems.
    In well-run juvenile justice agencies, youth are screened upon 
arrival at secure facilities to identify the need for further 
evaluation for mental illness, and to ensure that any mental health 
needs that require immediate attention, such as suicidal youth and 
youth on psychotropic medications, are identified and their needs 
promptly met. However, some facilities have not adopted systems to 
identify youths' needs, and many more are unable to provide adequate 
services due to insufficient staffing.\6\ For many youth with serious 
mental illness, a juvenile detention center or correctional institution 
will never be able to meet their treatment needs. Those youth should be 
served in more appropriate settings such as community and residential 
treatment centers. In fact, youth who have not previously experienced 
mental illness often develop mental disorders while in secure 
confinement. A recent report by the Justice Policy Institute, The 
Dangers of Detention: the Impact of Incarcerating Youth in Detention 
and Other Secure Facilities, found that placing youth in secure 
confinement itself caused mental distress. For one-third of the 
incarcerated youth with depression, the onset occurred after they were 
incarcerated.\7\
    The JJDPA could help address these problems by providing incentives 
or requiring states to ensure that youth who cannot be served 
appropriately in secure juvenile facilities are diverted to more 
appropriate sites for their care. In addition, adequate mental health 
staffing to promptly and effectively treat youth in crisis and those 
with long-term treatment needs could be required of all states. The 
combination of diverting youth who cannot be treated in secure juvenile 
justice settings combined with ensuring timely and appropriate 
treatment for those who remain would have important effects on the 
safety of youth both with and without disabilities.
Education
    Approximately 36% of youth involved in the juvenile justice system 
are estimated to have learning disabilities,\8\ yet staff of facilities 
often fail to identify these needs. Youth come to juvenile justice with 
a high incidence of school failure and truancy, in many cases because 
schools have failed to identify and meet their educational needs.\9\ 
School failure, disability, and ethnic minority status combine to put 
children and youth at risk for involvement with the juvenile justice 
system.\10\
    Once incarcerated, youth are, literally, ``captive audiences.'' 
Facilities have the opportunity to nurture school success in a time 
when attendance is both required and enforceable, and can be excellent 
places to meet youths' educational needs. Unfortunately, facilities 
often fail to identify youth with disabilities, and they frequently 
lack resources to meet their needs. Facilities also are faced with a 
wide range of abilities, from first grade level readers to college-
level youth. Common problems at facilities include failure to provide 
meaningful access to the curriculum for limited English speakers, 
failure to hold school for sufficient hours per day, and failure to 
provide sufficiently challenging work for more highly achieving youth.
    Additional challenges face youth returning to their home 
communities. Frequently, systems do not sufficiently plan for youths' 
return to their home schools, so they experience educational disruption 
when they are released. They often lose credit for the work they did 
while incarcerated when facility schools fail to transfer records to 
youths' home school systems. Increased communication and planning for 
youths' re-entry to their communities can greatly increase their 
likelihood of success.
    A first step in the process of correctional education reform would 
be requiring minimum standards for educational programs in juvenile 
detention and confinement facilities that approximate those in public 
school programs. Federal agencies could propose incentives for states 
and local jurisdictions that achieve and maintain minimum standards for 
the operation of correctional educational programs. Agencies could 
develop a pilot program that involves technical assistance and support 
as states apply for and meet accreditation standards.\11\ Congress 
could choose to address some of these failures through the JJDPA by 
requiring the development of minimum standards for educational programs 
in juvenile detention and confinement facilities that approximate those 
in public school programs. The JJDPA could also include incentives for 
states that achieve and maintain minimum standards in their 
correctional educational programs. OJJDP, in partnership with other 
federal agencies, could provide technical assistance and support as 
states increase their capacity for effective correctional education 
programs.\12\
            Sincerely,
           Andrea Weisman, Ph.D., Chief of Health Services,
                    DC Department of Youth Rehabilitation Services.
                                endnotes
    \1\ Bureau of Justice Statistics, Prison and Jail Inmates at 
Midyear 2006, June 2007.
    \2\ Gibbons, J.J., & Katzenbach, N.B. (2006, June). Confronting 
Confinement. The Commission on Safety and Abuse in America's Prisons.
    \3\ Bureau of Justice Statistics, Sexual Violence Reported by 
Correctional Authorities, 2006, August 2007.
    \4\ Bureau of Justice Statistics, Suicide and Homicide in State 
Prisons and Local Jails, August 2005.
    \5\ See U.S.D.O.J. Findings Letters, http://www.usdoj.gov/crt/
split/findsettle.htm# CRIPAletters.
    \6\ Detecting Mental Disorder in Juvenile Detainees: Who Receives 
Services, Linda A. Teplin, et al. 95(10) Am. J. Public Health 1773 
(Oct., 2005), available at: http://www.ajph.org/cgi/content/abstract/
95/10/1773.
    \7\ Justice Policy Institute, The Dangers of Detention: The Impact 
of Incarcerating Youth in Detention and Other Secure Facilities.
    \8\ Pamela Casey and Ingo Keilitz, Estimating the Prevalence of 
Learning Disabled and Mentally Retarded Juvenile Offenders: A Meta-
Analysis, in UNDERSTANDING TROUBLED AND TROUBLING YOUTH 82-101 (P.E. 
Leone ed. 1990), pp. 89-94.
    \9\ Foley's extensive review (2001) of the research on the academic 
characteristics of incarcerated youth found that in general: (a) their 
intellectual functioning has been assessed at the low-average to 
average range; (b) their academic achievement levels range from fifth 
to ninth grade; (c) they have significant deficits in reading, math, 
written language, and oral language compared with non-incarcerated 
students; (d) those who recidivate have significantly lower levels of 
intellectual and academic functioning than those who do not; and (e) 
school failure is a common experience. Foley, R. M. (2001). Academic 
characteristics of incarcerated youth and correctional educational 
programs: A literature review. Journal of Emotional and Behavioral 
Disorders, 9, 248-259.
    \10\ Peter E. Leone, et al., School Failure, Race, and Disability: 
Promoting Positive Outcomes, Decreasing Vulnerability for Involvement 
with the Juvenile Delinquency System, The National Center on Education, 
Disability, and Juvenile Justice, pp. 2-5, available at http://
www.edjj.org/Publications/list/leone--et--al-2003.pdf.
    \11\ Peter E. Leone & Sheri Meisel, Improving Education Services 
for Students in Detention and Confinement Facilities, a publication of 
EDJJ: The National Center on Education, Disability, and Juvenile 
Justice, available at http://www.edjj.org/Publications/list/leone--
meisel-1997.html.
    \12\ Peter E. Leone & Sheri Meisel, Improving Education Services 
for Students in Detention and Confinement Facilities, a publication of 
EDJJ: The National Center on Education, Disability, and Juvenile 
Justice, available at http://www.edjj.org/Publications/list/leone--
meisel-1997.html.
                                 ______
                                 
    Chairwoman McCarthy. Mr. Aos.

 STATEMENT OF STEVE AOS, ASSISTANT DIRECTOR, WASHINGTON STATE 
                  INSTITUTE FOR PUBLIC POLICY

    Mr. Aos. Madam Chair, members of the committee, my name is 
Steve Aos. I am an assistant director and an economist with the 
Washington State Institute for Public Policy.
    The Institute conducts nonpartisan research at the request 
of the legislature in Washington State, and I want to talk to 
you a little bit today about what we have done in Washington 
State for our legislature, and some of the principles that we 
have found may be helpful to you as you consider the 
reauthorization. Our legislature was interested, actually, in a 
broader question. It wanted to know how to reduce crime, one, 
and, two, how to do it cost-effectively, how to actually do the 
smart thing so that you can save reduced crime rates and save 
taxpayers' money in the process. So we began to look at their 
request and a wide range of options--options in the prevention 
system, in juvenile justice and in adult corrections.
    In conducting a thorough review of the research literature, 
we found 571 solid studies in all of those areas, control group 
kinds of studies, of what works and what does not to reduce 
crime. We found some things that do not work and some things 
that do. Then we also did an economic analysis of those 
programs.
    What we produced then for our legislature is kind of a 
consumer reports, a list, of what works, what does not ranked 
by what we think is the kind of rate of return we can give 
taxpayers with the different programs. That research has been 
used now by our legislature, I am happy to report in this 2007 
session, to substantially reform the way we spend our money in 
all three of those systems, in the prevention system, the 
juvenile justice system and in the adult corrections system.
    What we did find when we did that work is that we think we 
can avoid buildings several new prisons, adult prisons, down 
the road, particularly if we concentrate on some prevention 
programs and some juvenile justice programs. Those look 
particularly attractive to us. Economically, they can save 
taxpayers in our State a considerable amount of money. For 
example, let me just pick out one that is in the juvenile 
justice system, a program that we are implementing now in 
Washington State. It is called Functional Family Therapy. This 
is a program that was done outside of Washington State. We 
looked at it. We looked at all seven studies that had been done 
of it. We thought it made sense.
    We imported it into Washington State, put it into our 
juvenile court system. The State funded that program. We 
evaluated it. We found out that it is working pretty much as we 
thought it would once we had good quality control of that 
program, and we think it is saving taxpayers about $7 for every 
$1 it puts in, and additionally, because there are fewer crimes 
committed by those juveniles, we think it is saving about 
another $7 or $8 to the crime victims or to people who are not 
victimized. So its total return is about $15, a benefit per $1 
of cost, so it looks awfully attractive to us.
    The lessons that I think I would like to leave the 
committee with here, if you want to learn anything about what 
we have tried to do in Washington State, is that, one, the 
first thing is that the research has progressed in the last 10 
years. We know a lot more now about what works and what does 
not work, and that is useful to put that into action now. We 
have done it in Washington State. We would suggest it would be 
a good thing to put that information into play as you 
reauthorize.
    The second thing that we have looked at is, if you think 
about this as an investment as you might do on Wall Street, you 
know, what kind of portfolio of spending do you want to do? 
What we have tried to do in Washington is to put an increasing 
percentage, the greatest percentage--70 or 80 percent of what 
we spend our money on are on the things that are on this list, 
things for which we already have evidence that work and do not 
work, and we move money out of things that do not work and put 
it into things that work, and then we reserve about another 20 
or 25 percent for things that we do not know yet as to whether 
they work or not. ``research and development'' is what it is 
called in the business world. You do those. You put some of the 
money into that research and development part of the portfolio, 
and then we make sure that we conduct those evaluations.
    So we are already on the road in Washington State, we 
think. The legislature has taken a big step forward this 
session to try to implement some of these programs, some of 
these things that work. We have shifted money out of things 
that do not work. We were doing some things that did not make 
any sense to us based on rigorous research, and we have moved 
those dollars into things where we think we can give taxpayers 
a better return on their dollar.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you, Mr. Aos.
    [The statement of Mr. Aos follows:]

 Prepared Statement of Steve Aos, Assistant Director, Washington State 
                      Institute for Public Policy

    Thank you Madam Chair and Members of the Committee. I am Steve Aos, 
Assistant Director of the Washington State Institute for Public Policy. 
The Institute I work for was created by the Washington State 
Legislature in 1983 to carry out non-partisan research on projects as 
directed by the Legislature.
    I have been asked to discuss recent work we have done for the 
Washington State Legislature on juvenile justice issues. Since our 
Legislature has taken a broad view of crime and ways to reduce it, I 
will also broaden my remarks on the juvenile justice system to 
encompass our analysis of prevention programs for youth before they 
become involved in the juvenile justice system, and, at the other end 
of the age spectrum, cost-effective public policy options for adult 
offenders. As I discuss, we have found that all three efforts are 
needed if a state is to implement a long-term crime reduction strategy 
that uses taxpayer money efficiently.
    Legislators in Washington State asked my Institute to examine a 
straightforward question: What works to reduce crime--and what doesn't?
    They wanted us to apply rigorous standards to identify the specific 
``evidence-based'' public policy options they could exercise. They also 
wanted to know whether the options could pass an economic test. That 
is, if an option can reduce crime, then does the program also save 
taxpayers more money than the option costs? Thus, the two hallmarks of 
our work are its explicit focus on evidence-based options and on sound 
economics. Washington legislators wanted to identify public policies 
that pass both tests.
    We have published a number of reports on our work. Our October 2006 
study--``Evidence-Based Public Policy Options to Reduce Future Prison 
Construction, Criminal Justice Costs, and Crime Rates''--contains the 
full set of options we have identified to date. I will briefly 
summarize our findings today; the full document is available on our 
website: www.wsipp.wa.gov.
    In short, this is what we did and what we found. We conducted a 
systematic review of all research evidence we could locate to identify 
what works, if anything, to reduce crime. We found and analyzed 571 
rigorous comparison-group evaluations of adult corrections, juvenile 
justice, and prevention programs, most of which were conducted in the 
United States during the last 30 years. We then estimated the benefits 
and costs of many of these evidence-based options from the perspective 
of Washington State. That is, if Washington were to implement any of 
these options, would they be beneficial to the state? Finally, we 
projected the degree to which alternative ``portfolios'' of these 
programs could affect future prison construction needs, criminal 
justice costs, and crime rates in Washington.
    We found that some evidence-based programs can reduce crime, but 
others cannot. Per dollar of spending, a number of the successful 
programs produce favorable returns on investment. Public policies 
incorporating these options can yield positive outcomes for Washington. 
We then projected the long-run effects of three example portfolios of 
evidence-based options: a ``current level'' option as well as 
``moderate'' and ``aggressive'' implementation portfolios.
    We found that if Washington successfully implements a moderate-to-
aggressive portfolio of evidence-based options, a significant level of 
future prison construction can be avoided, Washington taxpayers can 
save about two billion dollars, and crime rates can be reduced. Perhaps 
most significant for your hearing today, we found that several of the 
most cost-effective options are in the juvenile justice and prevention 
areas.
    Before discussing our findings in a bit more detail, I want to 
report to you that the 2007 Washington Legislature used the Institute's 
findings to alter substantially the State's approach toward some 
criminal justice policies. The Legislature has shifted funding away 
from some previous efforts that have not proven successful and moved 
those funds toward evidence-based cost-beneficial programs. In addition 
to shifting funding, the 2007 Legislature also increased funding levels 
for some of the most economically attractive options on our list. The 
Legislature expects a payoff for its action: as a result of these new 
investments, the Legislature now expects future crime rates and 
criminal justice costs to be lower than they otherwise would be. In 
effect, Washington has placed a fiscal bet on these options and now 
must deliver the results for the taxpayers who pay for the programs.
    As we did our research, the first thing we learned is that a 
coherent set of crime reduction policies must be broad in scope and be 
targeted at the long run. We found that it is necessary to think about 
a ``portfolio'' of public policy options if the long-term goal is to 
reduce crime and save taxpayers money. Thus, the strategies that we 
identified are in three broad public policy areas: prevention, juvenile 
justice, and adult corrections. We found that some well-researched 
prevention programs for children and their families can reduce crime 
down the road. We also found that several juvenile justice programs 
designed for youth already in the juvenile justice system are critical 
elements of an overall crime reduction strategy. Finally, we identified 
a number of effective and cost-beneficial options in the adult 
corrections system.
    The important point from our work is this: a coherent long-term 
strategy involves all three elements--prevention, juvenile justice, and 
adult corrections. Our overall conclusion is one of good news: In the 
last two decades, research on what works and what doesn't has developed 
and, after considering the comparative economics of these options, this 
information can now be used to improve public resource allocation.
    For the topic of this hearing in particular, we found that cost-
effective prevention and juvenile justice programs are a very 
significant part--perhaps over half--of the solution for Washington to 
achieve long-term reductions in crime rates as well as net reductions 
in criminal justice costs. A significant way to avoid having to build 
adult prisons down the road is to implement evidence-based cost-
beneficial prevention programs for youth and for youth in the juvenile 
justice system.
Some Specific Findings
    The findings from our study center on three questions: what works 
to reduce crime; what are the economics of each option; and how would 
alternative portfolios of these options affect Washington's prison 
construction needs, state and local criminal justice costs, and crime 
rates?
    I have attached an Exhibit from our October 2006 study that 
summarizes some of the key findings from our current systematic review 
of the evaluation research literature. As the Exhibit reveals, we found 
a number of programs that have demonstrated statistically significant 
reductions in crime outcomes. We also found other approaches that do 
not achieve a statistically significant reduction in recidivism. Thus, 
the first lesson from our evidence-based review is that some programs 
work and some do not. A direct implication from these mixed findings is 
that public policies that reduce crime will be ones that focus 
resources on effective evidence-based programming while avoiding 
ineffective approaches.
    An example of the information provided on the attached Exhibit is 
the juvenile justice program called ``Functional Family Therapy'' 
(FFT). This program follows a specific training manual and approach. 
The FFT program, which has been implemented in Washington, involves an 
FFT-trained therapist working for about three months with a youth in 
the juvenile justice system and his or her family. The goal is to 
increase the likelihood that the youth will stay out of future trouble. 
We located and meta-analyzed seven rigorous evaluations of this 
program--one conducted in Washington--and find that the average FFT 
program with quality control can be expected to reduce a juvenile's 
recidivism rates by 15.9 percent.
    We also wanted to know what the economics looked like for FFT. To 
do this we estimated benefits from two perspectives: taxpayers' and 
crime victims'. For example, if a program is able to achieve 
statistically significant reductions in recidivism rates, then 
taxpayers will spend less money on the criminal justice system. 
Similarly, if a program produces less crime, then there will be fewer 
crime victims. For the FFT program, we find that the program costs, on 
average, $2,325 per juvenile participant. The 15.9 percent reduction in 
recidivism rates that we expect FFT to achieve generates about $34,146 
in life-cycle benefits, measured in terms of the taxpayer and crime 
victim costs that are avoided because of the reduced long-run level of 
criminal activity of the youth. Thus, the net present value of this 
juvenile justice program is expected to be $31,821 per youth.
Bottom Line
    The purpose of our legislatively directed study was to test whether 
evidence-based public policy options could: (a) lower the anticipated 
need to build new prisons, (b) reduce state and local fiscal costs of 
the criminal justice system, and (c) contribute to reduced crime rates.
    We found that there are economically attractive evidence-based 
options in three areas: adult corrections programs, juvenile justice 
programs, and prevention. Per dollar of spending, several of the 
successful programs produce favorable returns on investment. Public 
policies incorporating these options can yield positive outcomes for 
Washington.
    We also found that if Washington can successfully implement a 
moderate-to-aggressive portfolio of some of these evidence-based 
options, then a significant level of future prison construction can be 
avoided, state and local taxpayers can save about two billion dollars, 
and net crime rates can be lowered slightly. In particular, we found 
that cost-beneficial prevention and juvenile justice programs play a 
critical role in a long-term crime control strategy for Washington 
State.
    Finally, as I mentioned earlier, the 2007 Washington Legislature 
used this information to make significant changes to the way it funds 
the state's prevention, juvenile justice, and adult corrections 
systems.
    Madam Chair, this concludes my testimony.
                                 ______
                                 
    [Mr. Aos's responses to questions for the record follow:]

                                     [VIA ELECTRONIC MAIL],
                                                   October 1, 2007,
Hon. George Miller, Chairman; Hon. Carolyn McCarthy, Subcommittee 
        Chairwoman, Committee on Education and Labor, U.S. House of 
        Representatives, Washington, DC.
    Thank you for the honor of testifying to the Subcommittee on 
Healthy Families, September 18, 2007.
    In your follow-up letter you asked for answers to some additional 
questions from Representative Robert C. Scott. Representative's Scott's 
questions concern, primarily, the effects of confinement of juvenile 
offenders in adult corrections systems, the effects of confinement of 
status offenders, and ways to decrease minorities and those with mental 
illness in the juvenile justice system.
    Unfortunately, I do not have research results on the topics 
concerning confinement. As my testimony indicated, I conduct research 
at the request of the Washington State Legislature and, to date, our 
Legislature has not asked us to look into these topics. There is 
research in the nation on these matters, but I have not reviewed it.
    In terms of ways to reduce the proportion of minorities in the 
juvenile justice system, I refer the Committee to the testimony I 
delivered. The Table in my testimony lists the programs that we have 
found to be effective in reducing juvenile offending. We have found 
some of these programs to be equally effective for all groups of 
juveniles. For example, we found that the program called ``Functional 
Family Therapy'' works equally well with minority and non-minority 
juvenile justice populations. We recommend that these evidence-based 
programs become an integral part of a State's overall strategy of cost-
effectively reducing crime. As I also noted, we have found that some 
prevention programs also work; we also recommend the adoption of these 
programs as an effective way to reduce the chance that crime will be 
committed in the first place. Washington State, for example, has 
recently substantially increased its investments in these programs.
            Thank you again for allowing me to testify.
                             Steve Aos, Assistant Director,
                      Washington State Institute for Public Policy.
                                 ______
                                 
    [Additional materials submitted by Mr. Aos follow:]
    [Internet address for ``No Turning Back: Promising 
Approaches to Reducing Racial and Ethnic Disparities Affecting 
Youth of Color in the Justice System,'' report, by the Building 
Blocks for Youth Initiative, October 2005, follows:]

http://www.buildingblocksforyouth.org/noturningback/ntb--fullreport.pdf

                                 ______
                                 
    [A copy of the King County resource guide, ``Information 
Sharing: A facilitating tool for the agency partners, and their 
professional staff, of the King County Systems Integration 
Initiative,'' 2006, may be obtained by contacting Casey Family 
Programs at the following Internet address:]

                             www.casey.org

                                 ______
                                 
    Chairwoman McCarthy. Ms. Ambrose.

 STATEMENT OF ANNE MARIE AMBROSE, DIRECTOR, CHILD WELFARE AND 
   JUVENILE JUSTICE SERVICES, DEPARTMENT OF PUBLIC WELFARE, 
                  COMMONWEALTH OF PENNSYLVANIA

    Ms. Ambrose. Thank you.
    Good morning. I am Anne Marie Ambrose, the Director of 
Child Welfare and Juvenile Justice Services for the 
Commonwealth of Pennsylvania. I am happy to have this 
opportunity to be here today to represent Pennsylvania as well 
as juvenile justice administrators and advocates on the 
critical importance of the reauthorization of the Juvenile 
Justice and Delinquency Prevention Act.
    The JJDPA has been critical in supporting juvenile justice 
system improvement and for delinquency prevention. The 
establishment of the Pennsylvania State Advisory Group and the 
Juvenile Justice and Delinquency Prevention Committee within 
the Pennsylvania Commission on Crime and Delinquency in 1978 
has provided tremendous leadership and commitment to improving 
the juvenile justice system and to providing a consistent focus 
on delinquency prevention. This important work has been 
accomplished over the past several years primarily because of 
the strength of the JJDPC.
    We are appointed by the governor without regard for 
political affiliation, but based on experience, expertise and 
dedication in the field of juvenile justice. Our committee is 
composed of judges, probation officers, researchers, youth and 
victim advocates, defenders, district attorneys, practitioners, 
community leaders, providers, and educators. We have the best 
and the brightest engaged in intensive discussions and planning 
to create a framework for juvenile justice and delinquency 
prevention goals for Pennsylvania youth and families.
    We believe in the fair, humane and just treatment of all 
youth in the juvenile justice system. We believe that all youth 
have the promise and potential to become productive citizens 
through our juvenile justice mission of balanced and 
restorative justice, which includes the protection of the 
community, accountability for offenders and competencies to 
enable children to become responsible and productive members of 
the community. The JJDPC meets quarterly and submits a plan to 
the governor every 2 years. Subcommittees meet quarterly as 
well to drive the work and to make recommendations in critical 
priority areas such as female services, evidence-based 
prevention, as well as disproportionate minority confinement.
    Through the years, our committee has used the goals of the 
JJDPA and critical Federal funding as a springboard for 
juvenile justice reform that has become a national model. 
Devastating cuts in Federal funding over the last few years 
have forced the committee to reevaluate our work and focus even 
more on prevention as well as the sustainability of programs.
    Our key priority areas are evidence-based prevention, 
disproportionate minority contact, after care, and behavioral 
health. The JJDPC has used much of their Federal funding over 
the years to invest in over 160 evidence-based prevention and 
intervention programs such as multidimensional treatment, 
foster care, functional family therapy, and multisystemic 
therapy.
    In the absence of any good research that establishes that 
public safety is enhanced by prosecuting juveniles in adult 
court or in placing them in institutions, Pennsylvania has 
invested in supporting youth and families in their communities. 
In order to build our current prevention efforts and to build 
more instate capacity, planning is underway to develop a 
resource center for evidence-based prevention and intervention 
practices. As you have heard on this panel, these interventions 
are both cost-effective and have proven outcomes. Important 
resources like this require stable Federal funding to succeed. 
In 2003, the JJDPC priorities became the foundation for our 
work with the MacArthur Foundation's Model for Change 
Initiative. The partnership with MacArthur has been critical to 
advancing JJDPC's priorities and in seeking to promote broad 
juvenile justice system reform in the areas of after care, 
mental health and disproportionate minority contact.
    Pennsylvania believes in keeping children and families 
together whenever possible and in using the least restrictive 
intervention necessary. We have implemented performance-based 
standards launched by the Council of Juvenile Correctional 
Administrators and supported by OJJDP to ensure quality of care 
in juvenile correctional facilities for youth who require 
secure confinement but believe that most youth should be served 
in the community, if possible.
    Pennsylvania's SAG--the Juvenile Justice and Delinquency 
Prevention Committee--have helped to create a model juvenile 
justice system. In 2005, of 45,504 delinquent dispositions, 
only 3,487 youths were placed in out-of-home care. Much of our 
good work has been built around the core protections for 
children found in the JJDPA. Those protections should be 
maintained and strengthened through reauthorization.
    Our work has been made increasingly difficult because of 
significant cuts in funding. OJJDP should be charged with not 
only holding States accountable for adhering to the goals of 
JJDPA, but for providing technical assistance to States in 
order to achieve those goals. Incentive funding should also be 
made available for States that are able to demonstrate the 
ability to create innovative and effective local initiatives 
that provide treatment to youth involved in the juvenile 
justice system while keeping communities safe. OJJDP should be 
responsible for measuring outcomes in States that receive 
Federal funding. Positive outcomes for youth, families and 
communities must be achieved in order to maintain and to 
increase Federal funding.
    I hope that I have been able to communicate the critical 
importance of the reauthorization of the JJDPA. It has helped 
create a synergy in Pennsylvania's juvenile justice system that 
recognizes the need to provide an opportunity for redemption 
for our troubled youth while valuing the importance of 
community protection and the community's critical role in 
achieving youth redemption. Our reform efforts would not have 
been possible without Federal funding that was available over 
the last several years. In order to sustain our progress and to 
continue to make critical investments in prevention, including 
evidence-based programs, we must receive additional Federal 
funding.
    Thank you for the opportunity to address you on this very 
important issue. I encourage Congress not only to support but 
to also strengthen the JJDPA. Thanks.
    Chairwoman McCarthy. Thank you, Ms. Ambrose.
    [The statement of Ms. Ambrose follows:]

Prepared Statement of Anne Marie Ambrose, Director of Child Welfare and 
        Juvenile Justice Services, Department of Public Welfare

    Good morning members of the Healthy Families and Communities 
Subcommittee. I am Anne Marie Ambrose, the Director of Child Welfare 
and Juvenile Justices Services at the Office of Children Youth and 
Families in the Department of Public Welfare for the Commonwealth of 
Pennsylvania.
    Thank for the opportunity to be here today to represent 
Pennsylvania as well as juvenile justice administrators and advocates 
on the critical importance of the reauthorization of the Juvenile 
Justice and Delinquency Prevention Act (JJDPA).
    The JJDPA has been critical in supporting juvenile justice system 
improvement and for delinquency prevention. The establishment of 
Pennsylvania's State Advisory Group (the Juvenile Justice and 
Delinquency Prevention Committee) within the Pennsylvania Commission on 
Crime and Delinquency in 1978, has provided tremendous leadership and 
commitment to improving the juvenile justice system and to provide a 
consistent focus on delinquency prevention.
    This important work has been accomplished over the past several 
years primarily because of the strength of the Juvenile Justice and 
Delinquency Prevention Committee (JJDPC). We are appointed by the 
Governor without regard for political affiliation but based on 
experience, expertise and dedication in the field of juvenile justice.
    Our committee is composed of judges, probation officers, 
researchers, youth and victim advocates, defenders, district attorneys, 
practitioners, community leaders, providers and educators.
    We have the best and brightest engaged in intensive discussions and 
planning to create a framework for juvenile justice and delinquency 
prevention goals for Pennsylvania youth and families.
    Pennsylvania has a proud history of full compliance with the core 
requirements of the JJDPA, which include: Deinstitutionalization of 
Status Offenders (with a particular emphasis on the special needs of 
girls), Jail Removal, Sight and Sound Separation, and Disproportionate 
Minority Contact. The Core Protections have all been longstanding goals 
of Pennsylvania's juvenile justice system.
    We believe in the fair, humane and just treatment of all youth in 
the juvenile justice system. We believe that all youth have the promise 
and potential to be productive citizens through our juvenile justice 
mission of Balanced and Restorative Justice.
    In the early 1990's high violent juvenile crime rates raised 
concerns as to the effectiveness of juvenile justice system 
intervention. Out of these concerns, Act 33 of Special Session No. 1 
was passed by the Pennsylvania General Assembly in November 1995. Act 
33 amended Pennsylvania's Juvenile Act to provide that, consistent with 
the protection of the public interest, the purpose/mission of the 
juvenile justice system is ``* * * to provide for children committing 
delinquent acts programs of supervision, care and rehabilitation which 
provide balanced attention to the protection of the community, the 
imposition of accountability for offenses committed and the development 
of competencies to enable children to become responsible and productive 
members of the community.''
    The new purpose clause in the Juvenile Act is rooted in the 
philosophy of ``balanced and restorative justice,'' which gives 
priority to repairing the harm done to crime victims and communities 
and which defines offender accountability in terms of assuming 
responsibility for the harm caused by his/her behavior and taking 
action to repair that harm to the extent possible.
    In response to recommendations presented to the Governor in 1997 by 
the JJDPC, the Commonwealth has developed a strong juvenile justice and 
delinquency prevention infrastructure that has helped to make 
Pennsylvania a national leader in juvenile justice and delinquency 
prevention.
    In 1998, the Committee adopted a mission statement and guiding 
principles for Pennsylvania's juvenile justice system in order to guide 
the operation of the system and shape system policy.
    The JJDPC meets quarterly and submits a plan to the Governor every 
two years. The JJDPC Subcommittees meet quarterly as well to drive the 
work and make recommendations in critical priority areas such as female 
services, evidence-based prevention and intervention practices as well 
as disproportionate minority contact.
    The JJDPC in coordination with PCCD's Office of Juvenile Justice 
and Delinquency Prevention has administered federal funding under the 
JJDP Act to advance overall juvenile justice system improvement and for 
delinquency prevention.
    Through the years our committee has used the goals of the JJDPA and 
critical federal funding as a springboard for juvenile justice reform 
that has become a national model.
    Title II funds have supported a broad range of juvenile justice and 
delinquency prevention projects and this has been the most stable 
federal funding source over the last several years.
    These funds have focused on 4 main areas: compliance monitoring 
activities to maintain compliance with the federal JJDP Act, addressing 
the issue of disproportionate minority contact in the juvenile justice 
system, implementing model delinquency prevention programs and overall 
juvenile justice system improvement efforts.
    The Juvenile Accountability Block Grant (JABG) Program was created 
to encourage state and local governments to hold delinquent youths 
responsible for their offenses through accountability-based sanctions.
    Local units of government have been able to use these funds 
covering the entire spectrum from entry-level diversion programs such 
as Youth Aid Panels to Intensive Aftercare services for sex offenders.
    Title V funds under the JJDP Act have been used to support 
sustainability efforts for Pennsylvania's Communities That Care (CTC) 
initiatives. Title V funds support projects that were developed and 
implemented through the efforts of CTC risk-focused Prevention Policy 
Boards at various locations throughout Pennsylvania.
    The CTC initiatives help to sustain community collaboration and 
prevention/intervention programs that create safe places for children 
and youth, reduce problem behaviors among children and youth, and teach 
children and youth healthy beliefs and clear standards.
    Title V funds under the JJDP Act were used to launch Pennsylvania's 
CTC Risk-Focused Prevention Initiative in 1994 and CTC is still a 
critical prevention planning process used by many communities around 
the Commonwealth.
    Devastating cuts in federal funding over the last few years have 
forced the committee to reevaluate our work and focus even more on 
prevention as well as sustainability of programs.
    Through the leadership of the Pennsylvania Commission on Crime and 
Delinquency's Juvenile Justice and Delinquency Prevention Committee 
(JJDPC) and its system partners, Pennsylvania continues to be a model 
for the nation in its approach to preventing and appropriately 
responding to delinquency. The combination of state leadership and 
vision with local autonomy and innovation is the strength of our system 
and future progress will depend on continued commitment and leadership.
    Key priority issues targeted for improvements are:
    1. Evidence-Based Prevention and Intervention Practices
    2. Disproportionate Minority Contact
    3. Aftercare
    4. Behavioral Health
    Pennsylvania is considered a leader in juvenile crime prevention.
    Since 1998, PCCD, through the leadership of the JJDPC, has funded 
over 160 model prevention/intervention programs with a combination of 
federal and state funds.
    The JJDPC has used much of their federal funding over the years to 
invest in evidence-based prevention/intervention programs such as 
Multidimensional Treatment Foster Care, Functional Family Therapy and 
Multisystemic Therapy.
    In the absence of any good research that supports locking youth up, 
Pennsylvania has invested in supporting youth and families in their 
communities.
    In order to build on our current prevention efforts and build more 
in-state capacity, planning is underway to develop a Resource Center 
for Evidence-Based Prevention and Intervention Practices.
    The overall purpose is to support the proliferation of high quality 
and effective juvenile justice and delinquency prevention programs 
throughout Pennsylvania. We want to improve and promote Pennsylvania's 
knowledge of effective juvenile justice and delinquency prevention 
programs and practices by advancing recognized standards of research 
for determining program effectiveness.
    Funding will support the start-up and operation of prevention or 
intervention programs proven to be effective, and ensure Evidence-Based 
Program models are implemented with fidelity and adherence to quality 
assurance standards. PCCD's OJJDP will serve as a resource to the field 
related to the implementation of evidence-based programming as well as 
support local innovative intervention programs designed to achieve the 
juvenile justice system goals of community protection, offender 
accountability, and competency development to ensure all programs meet 
a minimum threshold of quality and effectiveness.
    A vital part of the overall initiative will be collaborating with 
all state agencies on planning and programming related to juvenile 
delinquency prevention and the reduction and prevention of violence by 
and against children.
    Another key aspect is supporting providers and probation 
departments in documenting their activities so that programs/
departments can track their performance and report their outcomes in a 
standardized way that would ultimately support research into what 
programs work best with which offenders/respond to community risk 
factors.
    As you will hear on this panel, these interventions are both cost-
effective and have proven outcomes. Important resources like the 
Resource Center for Evidence-Based Prevention and Intervention 
Practices require stable federal funding to succeed.
    In 2003, the JJDPC priorities became the foundation for our work 
with the MacArthur Foundation's ``Model for Change'' Initiative.
    Pennsylvania was the first state selected to participate in the 
``Models for Change'' initiative supported by the John D. and Catherine 
T. MacArthur Foundation. Pennsylvania was chosen due to its favorable 
reform climate and seems poised to become an exemplary system.
    Having a strong State Advisory Group like the JJDPC, was a key 
factor in Pennsylvania's selection and due to strong partnerships among 
state stakeholders-judges, district attorneys, public defenders, 
community leaders, and city, county, and state officials.
    The partnership with the MacArthur Foundation has been critical in 
advancing the JJDPC's priorities in seeking to promote broad juvenile 
justice system reform in the areas of aftercare, mental health 
services, and disproportionate minority contact.
    Pennsylvania believes in keeping children and families together 
whenever possible and using the least restrictive intervention 
necessary. We have implemented Performance-based Standards (PbS) 
launched by the Council of Juvenile Correctional Administrators (CJCA) 
and supported by the federal Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) to insure quality care in juvenile correctional 
facilities for youth who require secure confinement but believe that 
most youth should be served in the community if possible.
    The Department of Public Welfare has created an Integrated 
Children's Services Initiative to bring together all child-serving 
systems in an effort to make appropriate planning decisions. The 
juvenile justice system should only be for youth who pose a risk to the 
community and require ongoing court supervision.
    Education, mental health and families working together with 
probation can identify appropriate diversion resources to meet the 
mandates of Balanced and Restorative Justice. Federal funding is needed 
to stabilize and expand this innovative practice.
    Pennsylvania's SAG, the Juvenile Justice and Delinquency Prevention 
Committee have helped to create a model juvenile justice system. In 
2005, of 45,504 delinquent dispositions, only 3487 youth are placed in 
out of home care.
    Much of our good work has been built around the core protections 
for children found in the JJDPA. Those protections should be maintained 
and strengthened through the reauthorization. Our work has been made 
increasingly difficult because of significant cuts in funding.
    OJJDP should be charged with not only holding states accountable 
for adhering to the goals of the JJDPA but for providing technical 
assistance to states in order to achieve those goals. Incentive funding 
should also be made available for states that are able to demonstrate 
the ability to create innovative and effective local initiatives that 
provide treatment to youth involved in the juvenile justice system 
while keeping communities safe.
    OJJDP should be responsible for measuring outcomes in states that 
receive federal funding. Positive outcomes for youth, families and 
communities must be achieved in order to maintain and increase federal 
funding.
    I hope that I have been able to communicate the critical importance 
of reauthorization of the JJDPA. It has helped create a synergy in 
Pennsylvania's juvenile justice system that recognizes the need to 
provide the opportunity for redemption for our troubled youth while 
valuing the importance of community protection and the community's 
critical role in achieving youth redemption.
    Our reform efforts would not have been possible without federal 
funding that was available over the last several years.
    In order to sustain our progress and continue to make critical 
investments in prevention, including evidence-based programs, we must 
receive additional federal funding.
    Thank you for the opportunity to address you on this very important 
issue. I encourage Congress to not only support but also strengthen the 
JJDPA. My written testimony includes references to additional 
information on juvenile justice issues. Please use these resources and 
continue to promote policy that values and supports all of our youth. I 
am happy to answer any questions you might have regarding my testimony.
                                 ______
                                 
    [Ms. Ambrose's responses to questions for the record 
follow:]

      Bureau of Child Welfare and Juvenile Justice 
                                          Services,
                             1401 N. 7th Street, 4th Floor,
                                Harrisburg, PA, September 27, 2007.
Committee on Education and Labor, U.S. House of Representatives, 
        Rayburn House Office Building, Washington, DC.
    Dear Chairman Miller and Chairwoman McCarthy: Thank you for the 
opportunity to supplement my testimony I gave before the U.S. House of 
Representatives Education and Labor Committee, Subcommittee on Healthy 
Families and Communities on September 18, 2007. The following provides 
my response to questions submitted by Representative Scott.
Consequences of Imprisoning Juveniles with Adults
    Imprisoning juveniles with adults does not improve public safety, 
nor does incarceration with adults help youth make an appropriate 
transition to adulthood. Youth leaving adult facilities not only come 
out without the education and skills necessary to succeed and retain 
jobs, but they have also spent time with career criminals. Available 
evidence suggests that juveniles who experience the adult criminal 
justice system commit more subsequent violent crimes following release 
than juveniles retained in the juvenile justice system. A study done in 
Florida compared 315 ``best-matched'' pairs of youth. These youth were 
matched based on age, race, gender, previous offenses, and such. The 
study found that while 37% of youth who were given juvenile sanctions 
re-offended, 49% of the youth receiving adult sanctions re-offended.\1\ 
In addition, there is insufficient evidence to believe that 
transferring youth to the adult system is an effective deterrent to 
crime either.
---------------------------------------------------------------------------
    \1\ Bishop, D.M., Frazier, C.E., Lane, J., & Lanza-Kaduce, L. 
(2002, January). Juvenile transfer to criminal court study: Final 
report. p. 15. Washington, DC: U.S. Department of Justice, Office of 
Justice Programs, Office of Juvenile Justice and Delinquency 
Prevention.
---------------------------------------------------------------------------
    In addition, the MacArthur Foundation Research Network on 
Adolescent Development has conducted extensive research that shows that 
children in adult facilities face harsher settings and experience more 
developmental problems than children in juvenile correctional 
settings.\2\ Correctional administrators across the country recognize 
the ill-effects of housing youth in adult facilities and the Council of 
Juvenile Correctional Administrators (CJCA) has issued a policy 
statement against the placement of youth in adult facilities.
---------------------------------------------------------------------------
    \2\ MacArthur Foundation Research Network on Adolescent Development 
and Juvenile Justice. (2006, September). Issue Brief 5: The changing 
borders of the juvenile justice system: Transfer of adolescents to the 
adult criminal court.
---------------------------------------------------------------------------
Consequences of Imprisoning Status Offenders
    Placing youth who have committed status offenses in lock-ups is 
stigmatizing and counters all goals of rehabilitation. Detention/
incarceration interrupts educational progress, pro-social relationships 
with peers, family, caring adults, and often undercuts job training and 
employment opportunities. Feelings of social isolation and a sense of 
hopelessness are exacerbated not reduced during imprisonment--in 
essence making it more likely that a young person will feel alienated. 
Common sense and research tells us that imprisonment is not a positive 
approach to status offending behavior. Status offenders are youth who 
engage in behavior only considered delinquent because they are under 
the age of majority--such as breaking curfews, running away from home, 
skipping school, underage drinking, etc. Such youth often commit status 
offenses in response to underlying problems.
    The Coalition for Juvenile Justice (CJJ), which serves as the 
national association of the State Advisory Groups (SAGs) appointed by 
Governors under the JJDPA, urges strict prohibitions on the use of 
locked detention/incarceration of status offenders. CJJ calls for 
appropriate services and supports within a family and home environment 
whenever possible and at all times close to home and in a healthy 
school and community context. CJJ cites that it is both contrary to 
both federal law and to effective practice to lock up status offenders, 
see www.juvjustice.org. CJJ is joined in its view by more than 160 
organizations that have come together under the ``Act-4-JJ Campaign'' 
of the National Juvenile Justice and Delinquency Prevention Coalition, 
see www.act4jj.org.
    Here in Pennsylvania, we have found that home- family and 
community-based care for status offending youth is by far the most 
effective approach.
Effective Ways to Reduce DMC
    To effectively reduce racial and ethnic disproportionality, a 
coordinated body of juvenile justice and community stakeholders must 
engage in an intensive, data-driven examination of juvenile justice 
policies, procedures, and practices that may disparately impact youth 
of color. At present there are two major initiatives going on across 
the country that are actively making progress in reducing racial 
disparities: the MacArthur Foundation's Models for Change Initiative; 
and the Annie E. Casey Foundation's Juvenile Detention Alternatives 
Initiative (JDAI).
    As I mentioned in my testimony, Pennsylvania has a model juvenile 
justice system and is part of the MacArthur Foundation's Models for 
Change Initiative. Reform work in the DMC area begins with the effort 
to understand the problem statistically. Since 1989 the DMC 
Subcommittee of Pennsylvania's Juvenile Justice and Delinquency 
Prevention Committee has used arrest, juvenile court, and detention 
admissions data compiled by the National Council on Juvenile Justice 
(NCJJ) to monitor statewide trends in the handling of youth involved at 
various stages of the juvenile justice system, identify emerging 
problems at certain stages for some groups, and target finite resources 
for system reform. The data have also been used to track the extent to 
which members of minority groups are beneficiaries of alternative 
processing options such as diversion from court or home detention.
    Local juvenile justice stakeholders with access to these indicators 
at the county level can begin to ``look for the story behind the 
numbers'' and develop strategies to assure nondiscriminatory decision-
making across population groups and identify areas that may need more 
in-depth examination. With guidance from the DMC Subcommittee, the 
Center for Children's Law and Policy, under Pennsylvania's partnership 
with the MacArthur Foundation's Models for Change initiative, is 
working in three Pennsylvania counties to help facilitate an 
examination of racial data at the county and neighborhood levels and to 
plan system improvements intended to reduce disparities. The Juvenile 
Court Judges' Commission has been successful at enhancing the 
reliability and completeness of the state's data on the processing of 
juveniles of Hispanic ethnicity. These efforts have resulted in the 
issuance of a Racial Coding Booklet which provides detailed 
instructions and guidance to local juvenile courts and probation 
departments on techniques for gathering accurate information regarding 
the race and ethnicity of youth involved in Pennsylvania's juvenile 
justice system. Models for Change also addresses DMC at the local 
level, through demonstration projects involving partnerships with local 
courts, probation departments and citizens. In Berks County, Models for 
Change is working with stakeholders on four task forces to reduce 
Hispanic overrepresentation through language capability and cultural 
diversity, education and workforce development, detention alternatives 
and nontraditional services.
Mentally-ill Youth
    The Models for Change Initiative in Pennsylvania is also working to 
improve mental health services for youth. Our vision is that by 2010 
every county will have a comprehensive model system that: (1) prevents 
the unnecessary involvement of youth who are in need of mental health 
treatment, including those with co-occurring substance abuse disorders, 
in the juvenile justice system; (2) allows for the early identification 
of youth in the system with mental health needs and co-occurring 
disorders; and (3) provides for timely access by identified youth in 
the system to appropriate treatment within the least restrictive 
setting that is consistent with public safety needs.
    This effort is prompted by the recognition that many youth in 
contact with the juvenile justice system have significant mental health 
and co-occurring substance abuse treatment needs. Youth with 
unidentified and untreated mental health and co-occurring substance 
abuse needs are unable to participate fully in their families, schools 
and communities, and are at high risk of becoming involved in offending 
behavior. Once in the juvenile justice system, untreated youth pose a 
safety risk to themselves and others. Moreover, they are hindered in 
their ability to participate in their own rehabilitation, be 
accountable for their actions, and develop competencies, in accordance 
with the principles of balanced and restorative justice (BARJ) as 
incorporated into Pennsylvania's Juvenile Act. In order to promote 
these purposes, we are committed to implementing policies that promote 
the early identification of youth with mental health and co-occurring 
substance abuse needs, appropriate diversion out of the juvenile 
justice system, and referral to effective, evidence-based treatment 
that involves the family in both the planning for and delivery of 
services. Concurrent with these efforts, we are also working to ensure 
that safeguards are in place to avoid the misdiagnosis and/or 
overdiagnosis of youth in the juvenile justice system, as well as to 
protect youth's legal interests and rights.
    Pennsylvania's commitment to cross-systems collaboration to achieve 
this vision is further premised on the understanding that no one system 
bears sole responsibility for these youth. Youth are the community's 
responsibility, and all policy responses developed for them, on both 
the state and county level, should be collaborative in nature, 
reflecting the input and involvement of all child-serving systems as 
well as family members. Attached is a copy of our Mental Health and 
Juvenile Justice Joint Policy Statement.
Conditions of Confinement Issues
    The 1994 Congressionally-mandated ``Conditions of Confinement'' 
report of juvenile facilities documented how facilities were unsafe for 
youths and staff, provided inadequate health and mental health 
services, were overcrowded, and generally were not meeting the 
expectations for juvenile justice and delinquency prevention. The 
report called for the development and implementation of Performance-
based Standards (PbS), launched in 1995 by the Council of Juvenile 
Correctional Administrators (CJCA). In 2004, PbS won the ``Innovations 
in American Government Award'' by Harvard University's Ash Institute 
for Democratic Governance and Innovation for addressing the issues of 
confinement: safety, security, fairness, health/mental health services, 
education, programming and rehabilitation as well as preparation to 
return to the community. Currently 180 correction and detention 
facilities across the country have volunteered to implement PbS (adopt 
the standards, report outcome data and integrate the improvement 
process), but they need financial support to continue to use PbS as 
OJJDP funding is ending. Incentive funds could encourage the remaining 
1,000 public facilities to adopt PbS. PbS has been effective in 
bringing accountability and transparency to juvenile agencies and 
facilities.
    In the reauthorization of the JJDPA, conditions of confinement 
issues could be addressed by:
    1) Establishing and supporting standards and programs that 
demonstrate effectiveness at keeping youths safe, provide 
rehabilitation services that work, and are continually reviewed and 
revised as more recent research and information becomes available.
    2) Supporting efforts to monitor facilities, programs, and agencies 
to ensure they are keeping kids safe and providing rehabilitation. 
Rewards and incentives should be available for facilities, programs, 
agencies that continually improve how they care for and treat youths 
and have outcome data to demonstrate positive impact on youths' lives.
    3) Supporting research on specific practices within facilities to 
develop evidence-based approaches similar to evidence-based research on 
community-based treatments.
    4) Prohibiting the use of especially dangerous practices, including 
the use of chemical agents; use of pain compliance techniques; hitting, 
kicking, striking, or using chokeholds or blows to the head; use of 
four- or five-point restraints, straightjackets, or restraint chairs; 
tying or placing in restraints in uncomfortable positions; periods of 
excessive isolation; restraining to fixed objects; restraining in a 
prone position or putting pressure on the back; using physical force or 
mechanical restraints (including shackling) for punishment, discipline, 
or treatment; and use of belly belts or chains on pregnant girls. These 
dangerous practices have been prohibited within the JDAI Detention 
Facility Self-Assessment (attached), recommendations compiled by 
experienced attorneys, physicians, and psychologists who have seen the 
ill-effects such practices across the country.
            Sincerely,
                                        Anne Marie Ambrose,
                                                          Director.
                                 ______
                                 
    [Additional materials submitted by Ms. Ambrose follows:]
    [Internet address to ``Detention Facility Self-Assessment: 
A Practice Guide t Juvenile Detention Reform,'' Juvenile 
Detention Alternatives Initiative, a poject of the Annie E. 
Casey Foundation, follows:]

         http://www.jdaihelpdesk.org/Pages/PracticeGuides.aspx

                                 ______
                                 

   Commonwealth of Pennsylvania Mental Health/Juvenile Justice Joint 
                            Policy Statement

    The Mental Health/Juvenile Justice (MH/JJ) Work Group of the 
Pennsylvania MacArthur Foundation Models for Change Initiative is 
comprised of representatives from the juvenile justice, mental health, 
child welfare, drug and alcohol, and education systems as well as 
families. Our vision is that by 2010 every county will have a 
comprehensive model system that: (1) prevents the unnecessary 
involvement of youth who are in need of mental health treatment, 
including those with co-occurring substance abuse disorders, in the 
juvenile justice system; (2) allows for the early identification of 
youth in the system with mental health needs and co-occurring 
disorders; and (3) provides for timely access by identified youth in 
the system to appropriate treatment within the least restrictive 
setting that is consistent with public safety needs. The MH/JJ Work 
Group's goal is to engender the systems change necessary to make this 
vision a reality, including minimizing barriers that impede county 
innovation.
    This effort is prompted by the recognition that many youth in 
contact with the juvenile justice system have significant mental health 
and co-occurring substance abuse treatment needs. Youth with 
unidentified and untreated mental health and co-occurring substance 
abuse needs are unable to participate fully in their families, schools 
and communities, and are at high risk of becoming involved in offending 
behavior. Once in the juvenile justice system, untreated youth pose a 
safety risk to themselves and others. Moreover, they are hindered in 
their ability to participate in their own rehabilitation, be 
accountable for their actions, and develop competencies, in accordance 
with the principles of balanced and restorative justice (BARJ) as 
incorporated into Pennsylvania's Juvenile Act. In order to promote 
these purposes, the MH/JJ Work Group is committed to implementing 
policies that promote the early identification of youth with mental 
health and cooccurring substance abuse needs, appropriate diversion out 
of the juvenile justice system, and referral to effective, evidence-
based treatment that involves the family in both the planning for and 
delivery of services. Concurrent with these efforts, the MH/JJ Work 
Group will work to ensure that safeguards are in place to avoid the 
misdiagnosis and/or overdiagnosis of youth in the juvenile justice 
system, as well as to protect youth's legal interests and rights.
    The MH/JJ Work Group's commitment to cross-systems collaboration to 
achieve this vision is further premised on the understanding that no 
one system bears sole responsibility for these youth. Instead, these 
youth are the community's responsibility and all policy responses 
developed for them, on both the state and county level, should be 
collaborative in nature, reflecting the input and involvement of all 
child-serving systems as well as family members. This commitment is in 
line with the Pennsylvania Department of Public Welfare's requirement 
that counties annually submit Children's Integrated Services Plans.
The Fundamentals of a Comprehensive Model System
    Our goal is to support every Pennsylvania county in developing, 
through a collaborative effort among all child-serving systems and 
families, a comprehensive system that features the key components of 
identification, diversion, short term interventions and crisis 
management, evidence-based treatment and continuity of care/aftercare 
planning for youth with mental health needs and co-occurring substance 
abuse issues. Such a system will integrate families into the planning 
for and delivery of services, and ensure that youth's legal rights are 
protected at all stages.
Screening and Assessment
    1. Mental health and substance abuse screening is available as 
needed at key transition points in the juvenile justice system to 
identify conditions in need of immediate response.
    2. Instruments used for screening and assessment are standardized, 
scientifically-sound, contain strong psychometric properties, and 
demonstrate reliability and validity for identifying the mental health 
and substance abuse treatment needs of youth in the juvenile justice 
system.
    3. Safeguards ensure that screening and assessment is used to 
divert youth out of the juvenile justice system and into mental health 
and/or substance abuse treatment when appropriate, and information and/
or statements obtained from youth are not used in a way that violates 
their rights against self-incrimination.
    4. All youth identified as in need of immediate assistance receive 
emergency mental health services and substance abuse treatment.
    5. All youth identified as in need of further evaluation receive a 
comprehensive assessment to determine their mental health and substance 
abuse treatment needs.
    6. Youth are not subjected to unduly repetitive screening and 
assessment.
    7. All personnel who administer screening and assessment 
instruments are appropriately trained and supervised.
Continuum of Services
            Diversion
    8. Youth and their families have timely access to evidence-based 
treatment in their communities, such that youth do not have to enter 
the juvenile justice system solely in order to access services or as a 
result of mental illness and co-occurring substance abuse disorders.
    9. Diversion mechanisms are in place at every key decision-making 
point within the juvenile justice continuum such that youth with mental 
health needs and co-occurring substance abuse disorders are diverted 
from the juvenile justice system whenever possible and when matters of 
public safety allow, including into the dependency system as 
appropriate.
    10. Juvenile justice professionals, including judges, prosecutors, 
defense attorneys and probation officers, receive training on how youth 
with mental health and co-occurring substance abuse disorders can be 
diverted into treatment.
    11. Youth who have been diverted out of the juvenile justice system 
are served through effective community-based services and programs.
    12. Diversion programs are evaluated regularly to determine their 
ability to effectively and safely treat youth in the community.
Short-Term Interventions and Crisis Management
    13. Secure detention facilities and shelter care programs have 
services adequate to provide short-term interventions and crisis 
management to youth with mental health needs and co-occurring substance 
abuse disorders, in order to keep them safe and stable while awaiting a 
permanent placement.
Evidence-Based Treatment
    14. Assessment data is used to develop comprehensive treatment 
plans for adjudicated youth as part of their disposition.
    15. Representatives from all relevant child serving systems (i.e., 
juvenile justice, child welfare, mental health, substance abuse, 
education, etc.) and families engage in the development and 
implementation of comprehensive treatment plans.
    16. If diversion out of the juvenile justice system is not 
possible, youth are placed in the least restrictive setting possible 
with access to evidence-based, developmentally-appropriate treatment 
services. Such services are tailored to reflect the individual needs 
and variation of youth based on issues of gender, ethnicity, race, age, 
sexual orientation, socio-economic status, and faith.
    17. Qualified mental health and substance abuse personnel are in 
place to provide treatment to youth in the juvenile justice system.
    18. In-state capacity provides support for evidence-based treatment 
programs and their proliferation.
    19. Mechanisms are in place to continually measure and evaluate the 
effectiveness of various treatment modalities, as well as the quality 
of service delivery.
Continuity of care/aftercare
    20. Representatives from all relevant child serving systems (i.e., 
juvenile justice, child welfare, mental health, substance abuse, 
education, etc.) and families are engaged in the development and 
implementation of comprehensive treatment plans to ensure continuity of 
care as youth move to new juvenile justice placements, appropriate 
aftercare when youth are released from placement to the community, and 
to aid in the youth's transition to adulthood.
Family Involvement
    21. Families engage with all relevant child-serving systems in the 
development and implementation of comprehensive treatment and aftercare 
plans for their children.
    22. All services are child-centered, family focused, community-
based, multi-system and collaborative, culturally competent and offered 
in the least restrictive/intrusive setting as possible, and these CASSP 
principles are followed in all treatment planning and implementation.
Funding
    23. Sustainable funding mechanisms are identified to support all 
services identified above as comprising the continuum of care, 
particularly for screening and assessment, evidence-based treatment 
practices, and cross-training of professionals from the various child-
serving systems.
Legal Protections
    24. Policies control the use of pre-adjudicatory screening and/or 
assessment information, as well as information gathered during post-
disposition treatment, to ensure that information is not shared or used 
inappropriately or in a way that jeopardizes the legal interests of the 
youth as defendants, including their constitutional right against self-
incrimination.

    Note: This policy statement is based, in part, on many of the 
principles and recommendations found in Blueprint for Change: A 
Comprehensive Model for the Identification and Treatment of Youth with 
Mental Health Needs in Contact with the Juvenile Justice System (Draft 
January 2006) developed by the National Center for Mental Health and 
Juvenile Justice at Policy Research Associates, Inc. with support from 
The Office of Juvenile Justice and Delinquency Prevention. BLUEPRINT 
FOR CHANGE can be found at www.ncmhjj.com.
                                 ______
                                 
    Chairwoman McCarthy. Let me say that we are working very 
hard to see if we can increase funding because that is on the 
top of everybody's list. We are working under restraints 
because we do believe ``do and pay as you go,'' but we are 
going to try to do what we can.
    With that being said, listening to all of your testimony, 
and you are hands-on, I mean, you are the ones who are actually 
working with these young people. You can see the results. You 
see where the weaknesses are. As we go forward in trying to 
reevaluate the funding, certainly we will see what we can do to 
improve the programs. I think that is important and where all 
of you come in.
    One of the things I would ask you and you can expand on, 
because I know 5 minutes is not enough time to go through 
everything you have to say. So one of the things I would say to 
you is, as we look at reauthorization, I want each and every 
one of you to give your opinion as to what is the most 
important thing from what you see that we could do to improve 
the reauthorization.
    One of the things, before I came to Congress, I was a 
nurse. So, to me, prevention, as far as I am concerned, is the 
number one issue, and hopefully, we are going to deal with a 
lot of that as we reauthorize Leave No Child Behind because, 
again, when we see healthy children, children who are stable in 
school, that also will prevent them, hopefully down the road, 
from going into the juvenile justice system.
    So, with that, I certainly would open it up to Judge 
Kooperstein, if you want to start, on what you think is the one 
thing. We will take money off the table because we are already 
fighting for that.
    Judge Kooperstein. We are taking money off the table in 
terms of prevention, Congresswoman.
    I do not get to see people who have not committed a crime 
or who have been arrested as a juvenile through the youth court 
because I am in a town and am aware of what is going on in the 
town, basically, from my successful drug treatment court. They 
are teenagers, two of whom I have established a close 
relationship with, it is hard to believe, but I have put them 
in jail, and now we have a relationship, which, of course, a 
judge is never supposed to have with a defendant, but in the 
drug treatment court, it is permitted, and Matt tells me what 
he thinks, so I would like to tell you what he says.
    He is 19 years old. He was a football star at Southampton 
High School, a very bright boy, addicted to three different 
drugs, really destroying his life, and he told me that the DARE 
program is very good, but then after the 6th grade, there is 
nothing available. Those junior high school years are critical. 
We have puberty, which I believe is a very important thing to 
consider, and the brain is developing. New kinds of thoughts 
are coming into their heads, and the availability of the drugs, 
I hope, we all understand is there. So they are vulnerable. 
They are going through a phase of rebellion with their parents, 
and they need something to guide them. Matt likes the youth 
court, but until recently, it was not very popular and 
supported. If we are talking about prevention, something 
involving that is very good to me, and that would not even 
involve a judge. If you want real prevention and you want 
nobody to get arrested, then we need to give our adolescents 
something else because of the fact that the family alone cannot 
give them the support because of the factors that face us in 
this country, and in my town, a lot of it comes down to drugs--
the availability of them, the susceptibility of an adolescent 
and the fact that it is an experimental time, and it is not a 
gentle time, so they are really out there, and we need to 
protect them, and we need them to believe us.
    Now, these teenagers can tell when you are not telling the 
truth, so they have held me to a very high standard, 
Congresswoman. It has been good for me. I learned to cut out a 
lot of the nonsense, and I talk very directly to them, and they 
respond. You know, they really do respond if they see you take 
a real interest, even the hardened ones, even the ones doing 
Oxy every day, Ecstasy at night, all the things that Matt was 
doing--pot, coke, everything. He finally was able to believe 
somebody was really not just pushing him over. He is just going 
through a phase. Let us just wait it out and hope for the best.
    So those are my thoughts.
    Chairwoman McCarthy. Thank you.
    It is my fault for not explaining that I want to try to get 
an answer from each one of you. So, if you could, go a little 
bit faster, and just sum up the one issue that you think is 
important that we should do.
    Ms. Clark.
    Judge Clark. Thank you.
    I think, certainly, prevention is important, but there is 
another thing that I would like the committee to consider in 
terms of those children who are already in the system and who 
are about to age out, the juvenile delinquent children who are 
in placement who are getting ready to turn 18 or, in some 
cases, 21, and we have to close the books on them, and we have 
not provided them with the skills to make it on their own. They 
are the children who are in the child welfare system who are 
about to age out of the system, and they are homeless. They 
have not achieved their education, and we have not provided 
them with the tools that they need. I think this is something 
that we really need to focus on with these kids. We have seen 
an increase of even older children entering the child welfare 
system, becoming dependent at 14, 15 and 16 years of age, and 
we have a little bit of time to work with them, and we need 
funding for programs that can help these children.
    Chairwoman McCarthy. Thank you, Ms. Clark.
    Ms. Garcia. I would say that early identification of youth 
maltreatment is really the key to diverting youth out of the 
system. We often assume that youth become dependent, and then 
they are later found delinquent. What the NCJJ study found in 
Arizona is that it often is the delinquency that sheds light on 
the family and exposes the years of abuse and trauma that the 
child has suffered. So, if we can identify early the kids who 
are being maltreated and provide intensive family services when 
possible to preserve and to heal the family, then those youth 
will not continue down the road towards delinquency.
    Chairwoman McCarthy. Thank you, Ms. Garcia.
    Ms. Weisman.
    Dr. Weisman. Yes, I actually agree. We should not be 
surprised that the evidence-based practices that have proven 
most effective are those that work with the family--as have 
been mentioned, the multisystemic therapy, functional family 
therapy, multidimensional, therapeutic foster care--all of 
those strategies that work in the natural setting and with the 
family unit as such, and I think that the system of care, the 
values and concepts of all agencies working together promote 
those kinds of effective treatments.
    I think the most important issue is, again, the significant 
trauma and abuse that so many of the children have experienced. 
Again, as I said, it is multigenerational, and unless we work 
with the family system per se, we are not going to be effective 
in working with youth individually. So I would encourage us to 
take more of a public health view on the ills of our youth and 
especially those who do wind up coming into contact with the 
juvenile justice system.
    Chairwoman McCarthy. Thank you.
    Mr. Aos.
    Mr. Aos. Yes. I would suggest that if the reauthorization 
focused on evidence-based treatment, practices--wheels cost a 
lot of money to invent, and we do not need to reinvent some of 
these. It takes one of you to invent wheels, and there are 
already a number of models out there that have been shown to 
work, including the Nurse-Family Partnership, Madam Chair, that 
employs nurses as a form of prevention, and then the other 
programs have been mentioned. So, if I were to offer one bit of 
advice, it would be again to put a substantial portion of what 
you do in the reauthorization into programs that have already 
been shown to work, that we do not need to reinvent the wheel. 
It costs a lot of money to do that. Let us just go out there 
and do the things that we are pretty confident at this stage 
reduce crime.
    Chairwoman McCarthy. Thank you.
    Ms. Ambrose.
    Ms. Ambrose. Yes. I would recommend strengthening the 
Office of Juvenile Justice and Delinquency Prevention so that 
they are actually holding States accountable for doing good 
things for youth in the juvenile justice system and then 
providing incentive funding for use of evidence-based practice 
and prevention services for youth that we know work.
    Chairwoman McCarthy. I want to thank you all.
    Mr. Davis.
    Mr. Davis. Thank you, Madam Chairwoman.
    Thank you, panelists, for being here today. You have 
offered some great testimony.
    Judge Kooperstein, thank you for your support of the Vols. 
I appreciate that. We have talked a lot about outcomes today. I 
wish we had had a different outcome this past Saturday. It was 
not as good as I would have liked for it to have been.
    How are youth chosen for your youth court?
    Judge Kooperstein. Beginning this year, they are referred 
by a probation officer, by a juvenile probation officer, from 
her docket.
    Mr. Davis. How many have actually participated in youth 
court today?
    Judge Kooperstein. Well, if we begin from the beginning in 
the early 1990s, I would say well over 200. The statistics and 
the documentation is scant. In the last year, we had 36 
participate, by that, I mean also staff the court--be the 
judge, the jury, the prosecutor, and the defendant. We have had 
six trials to date this year, and they are lengthy, and two of 
them involved substantial drug cases.
    Mr. Davis. Tell me about one of your major success stories 
through the drug court.
    Judge Kooperstein. I have spoken about Matt, but I will 
tell you about someone else, another teenager who was a cocaine 
addict, who came into the treatment court pregnant. Very soon 
after she entered, we found out she was pregnant, and she got 
clean, and that was highly significant because not only did she 
get clean, but her baby was born drug free.
    Mr. Davis. That is a great success story.
    Judge Kooperstein. That is a double success.
    Mr. Davis. That is a great success story. Thank you.
    Just real quickly, Mr. Aos, in your testimony, you 
discussed research to conduct evidence-based approaches.
    Can you tell us how you define those ``evidence-based 
approaches''?
    Mr. Aos. Well, before I started this job, I did not need 
reading glasses. I do now.
    What we found was by searching all of the well-researched 
things that have ever been tried anywhere in the country, and 
so we really combed all of the research studies, throwing out 
the ones that did not have good comparison groups and just 
keeping the ones that were very well-controlled trials at these 
interventions. So, when we come to conclusions about what works 
and what does not work, it is based on those rigorous studies 
that have been tried somewhere in the country. Some of them 
have been in Washington State. Most of them, of course, have 
been elsewhere.
    Mr. Davis. Did those approaches actually net an economic 
return?
    Mr. Aos. Pardon me?
    Mr. Davis. Did you see some economic benefit from using 
those approaches.
    Mr. Aos. Yes. So, after we reviewed all of the literature 
as to what reduces crime or child abuse or any of the other 
outcomes of interest to our legislature, we then put on our 
economic green eye shades, and we said, well, how much money 
does it cost to do those programs on the one hand, but then to 
the degree that they achieved an outcome that our legislature 
was interested in, like less crime or less child abuse, what is 
that worth to us in Washington State, both as taxpayers, 
because if we reduce crime, we do not have to spend as much on 
police and on prisons and also, as well, to the victims who are 
not victimized. So we added up the benefits, calculated what we 
thought were the reasonable assumptions about the benefits of 
these programs and the costs based upon that rigorous research. 
So that is sort of the green eye shade thing that we did to try 
to come up with our list.
    Mr. Davis. Thank you.
    Then I have one last question of Ms. Ambrose.
    First, let me say congratulations on being selected as the 
first State to participate in the MacArthur Foundation's Model 
for Change. Can you tell me how your State was selected?
    Ms. Ambrose. Yes. There was intensive research done by the 
MacArthur Foundation. I think there were lots of reasons why 
Pennsylvania was selected. The main reason was probably the 
strength of our juvenile advisory board. We had lots of 
leadership in place who were already engaged in many reform 
efforts that MacArthur research showed were reasons to invest 
in juvenile justice. So we feel very fortunate to be part of 
that network. There is a national resource bank that is 
available to States that are participating in the effort, and 
so we have been real recipients of additional, not only 
research, but expertise nationally in order to advance our 
juvenile justice reform efforts.
    Mr. Davis. Thank you.
    I yield back.
    Chairwoman McCarthy. Thank you, Mr. Davis.
    Mr. Scott.
    Mr. Scott. Thank you, Madam Chairman.
    I want to thank all of our witnesses. It has been very 
helpful testimony.
    Mr. Aos, you indicated that you could reduce crime and save 
money by focusing on well-researched programs before crimes 
occurred rather than wait and try to lock people up after they 
occur; is that right?
    Mr. Aos. That is correct.
    Mr. Scott. I wasn't sure whether you counted in cost 
savings. Did you count just the criminal justice costs, or did 
you add in the costs to victims and other costs to society?
    Mr. Aos. Yes, Congressman, we did both. We certainly were 
interested in any savings that would accrue to taxpayers, but 
we also added up if there is less child abuse, if there is less 
crime, there will be savings to people who weren't victimized, 
to kids who weren't victimized, to other people who aren't 
victimized by those crimes. So we used actually some numbers 
that were computed by the Federal Government to estimate those 
victimization cost savings, avoided costs, so that our 
estimates do include both of those.
    Mr. Scott. Did you include savings that would be generated 
by reduced welfare, because some of these programs, by 
empowering children, getting them on the right track, and more 
likely to be employed and need social services, do you count 
other savings outside of the criminal justice system?
    Mr. Aos. Yes, sir, we do when we think there is a reason to 
believe that some of those savings are causally related to the 
outcome achieved.
    Mr. Scott. Thank you.
    Ms. Weisman what can we do in the foster care system to 
help reduce crime?
    Dr. Weisman. Again, I think that multidimensional, 
therapeutic foster care has been shown to be effective. It is 
one of the most intensive home- or foster-home-based 
interventions that can be provided, but there is just not 
enough of it. In the District we have very few slots, as they 
say. And there is just an under----
    Mr. Scott. Those that go from foster home to foster home 
are at high risk of getting in trouble, and we end up spending 
a lot of money on them. Would it make more sense to spend the 
money up front in the focused foster care programs that you are 
talking about, or would it make more sense to spend less, wait 
for them to mess up, and spend millions of dollars on prison 
and other costs?
    Dr. Weisman. Clearly the answer is yes, it would make more 
sense to spend more money earlier on and not to have these 
youth progress inevitably to more expensive institution-based, 
whether they be juvenile justice systems or prison systems, 
adult correctional systems.
    Whenever possible some of the evidence-based practices 
should be attempted in the home. I think youth who bounce from 
one foster care to another foster care family are doubly, 
triply and exponentially further traumatized by those 
experiences. We clearly don't want those things to happen, and 
clearly there needs to be more training, more support services 
to those families that would serve as foster care families. 
They do, frankly, much better with younger youth, but when the 
youth reach their teenage years, then they are becoming 
involved in the juvenile justice system.
    Inevitably the overwhelming number of kids in the juvenile 
justice system have started out in the child welfare system, 
and so a lot of further attention and resources need to be 
spent in the child welfare system working with families 
reunification and options for them in their natural homes and 
settings.
    Mr. Scott. Does that include possibly helping children 18 
to 24 who, quote, age out of foster care?
    Dr. Weisman. Yes. As a matter of fact, I am agreeing with 
Judge Clark, who noted her concern and the field's concern 
about the lack of independent living programs for these youth. 
In fact, my husband and I took in a youth at that juncture in 
our own lives, a youth who had aged out of the foster care 
system and had nowhere to go. We took her in at that point and 
helped her to become independent and self-sufficient. But there 
needs to be more families like ours, and there needs to be more 
programs that truly work with the youth on their life skills 
and abilities to take care of themselves in the community.
    Mr. Scott. Thank you.
    I wanted to ask one other question for the record, because 
I know my time is up, and that is if the panelists could just 
tell us what is wrong with locking up juveniles with adults, 
and what is wrong with locking up status offenders? Those are 
part of the core requirements of the JJDPA, and we just want 
that for the record. What is wrong with locking up juveniles 
with adults and locking up status offenders? And I yield back.
    Ms. Ambrose. Are we waiting for someone to answer? I am 
happy to answer.
    Mr. Scott. My time is up. Ms. Clarke, I think, wanted to 
ask questions.
    Chairwoman McCarthy. The bells that you heard, we have to 
go down for a vote.
    Ms. Clarke, if you would go forward. But with Mr. Scott, I 
know that he would like an answer and possibly could they write 
it up to us and get it to the committee? That would be great.
    [The information follows:]

                                     [VIA ELECTRONIC MAIL],
                                                September 20, 2007.
Hon. Deborah Kooperstein, Administrative Judge,
40 A Newtown Lane, East Hampton, NY.
    Dear Judge Kooperstein: Thank you for testifying at the September 
18, 2007 hearing of the Subcommittee on Healthy Families.
    Representative Robert C. ``Bobby'' Scott (D-VA), a member of the 
Committee, has asked that you respond in writing to the following 
questions:
    What consequences result from imprisoning juveniles with adults?
    What consequences result from imprisoning juveniles convicted of 
status offences?
    What are the most effective ways to decrease the proportion of 
minorities in the juvenile justice system?
    What are the most effective ways to decrease the proportion of 
individuals with mental illness in the juvenile justice system?
    Are there any conditions of confinement issues, including the 
availability of education that must be addressed in the JJDPA 
reauthorization?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact the Committee at 202-225-
3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
                                     [VIA ELECTRONIC MAIL],
                                                September 20, 2007.
Hon. Kim Berkeley Clar, Administrative Judge,
Family Law Center, Ross Street, Pittsburgh, PA.
    Dear Judge Clark: Thank you for testifying at the September 18, 
2007 hearing of the Subcommittee on Healthy Families.
    Representative Robert C. ``Bobby'' Scott (D-VA), a member of the 
Committee, has asked that you respond in writing to the following 
questions:
    What consequences result from imprisoning juveniles with adults?
    What consequences result from imprisoning juveniles convicted of 
status offences?
    What are the most effective ways to decrease the proportion of 
minorities in the juvenile justice system?
    What are the most effective ways to decrease the proportion of 
individuals with mental illness in the juvenile justice system?
    Are there any conditions of confinement issues, including the 
availability of education that must be addressed in the JJDPA 
reauthorization?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact the Committee at 202-225-
3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
                                     [VIA ELECTRONIC MAIL],
                                                September 20, 2007.
Janet Garcia, Deputy Director,
Governor's Office for Youth and Families, West Washington, Phoenix, AZ.
    Dear Ms. Garcia: Thank you for testifying at the September 18, 2007 
hearing of the Subcommittee on Healthy Families.
    Representative Robert C. ``Bobby'' Scott (D-VA), a member of the 
Committee, has asked that you respond in writing to the following 
questions:
    What consequences result from imprisoning juveniles with adults?
    What consequences result from imprisoning juveniles convicted of 
status offences?
    What are the most effective ways to decrease the proportion of 
minorities in the juvenile justice system?
    What are the most effective ways to decrease the proportion of 
individuals with mental illness in the juvenile justice system?
    Are there any conditions of confinement issues, including the 
availability of education that must be addressed in the JJDPA 
reauthorization?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact the Committee at 202-225-
3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
                                     [VIA ELECTRONIC MAIL],
                                                September 20, 2007.
Andrea Weisman, Ph.D., Chief of Health Services,
Department of Youth Rehabilitation Services, Mt. Olivet Road, NE, 
        Washington, DC.
    Dear Dr. Weisman: Thank you for testifying at the September 18, 
2007 hearing of the Subcommittee on Healthy Families.
    Representative Robert C. ``Bobby'' Scott (D-VA), a member of the 
Committee, has asked that you respond in writing to the following 
questions:
    What consequences result from imprisoning juveniles with adults?
    What consequences result from imprisoning juveniles convicted of 
status offences?
    What are the most effective ways to decrease the proportion of 
minorities in the juvenile justice system?
    What are the most effective ways to decrease the proportion of 
individuals with mental illness in the juvenile justice system?
    Are there any conditions of confinement issues, including the 
availability of education that must be addressed in the JJDPA 
reauthorization?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact the Committee at 202-225-
3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
                                     [VIA ELECTRONIC MAIL],
                                                September 20, 2007.
Steve Aos, Assistant Director,
Washington State Institute for Public Policy, East Fifth Avenue, 
        Olympia, WA.
    Dear Mr. Aos: Thank you for testifying at the September 18, 2007 
hearing of the Subcommittee on Healthy Families.
    Representative Robert C. ``Bobby'' Scott (D-VA), a member of the 
Committee, has asked that you respond in writing to the following 
questions:
    What consequences result from imprisoning juveniles with adults?
    What consequences result from imprisoning juveniles convicted of 
status offences?
    What are the most effective ways to decrease the proportion of 
minorities in the juvenile justice system?
    What are the most effective ways to decrease the proportion of 
individuals with mental illness in the juvenile justice system?
    Are there any conditions of confinement issues, including the 
availability of education that must be addressed in the JJDPA 
reauthorization?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact the Committee at 202-225-
3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
                                     [VIA ELECTRONIC MAIL],
                                                September 20, 2007.
Anne Marie Ambrose, Director,
Bureau of Child Welfare and Juvenile Justice Services, N. 7th Street, 
        4th Floor, Harrisburg, PA.
    Dear Ms. Ambrose: Thank you for testifying at the September 18, 
2007 hearing of the Subcommittee on Healthy Families.
    Representative Robert C. ``Bobby'' Scott (D-VA), a member of the 
Committee, has asked that you respond in writing to the following 
questions:
    What consequences result from imprisoning juveniles with adults?
    What consequences result from imprisoning juveniles convicted of 
status offences?
    What are the most effective ways to decrease the proportion of 
minorities in the juvenile justice system?
    What are the most effective ways to decrease the proportion of 
individuals with mental illness in the juvenile justice system?
    Are there any conditions of confinement issues, including the 
availability of education that must be addressed in the JJDPA 
reauthorization?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact the Committee at 202-225-
3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
    Chairwoman McCarthy. Ms. Clarke?
    Ms. Clarke. Thank you very much, Madam Chair, and I want to 
congratulate you on this very excellent panel, and thank the 
panelists for their commitment to this area of expertise.
    I am from New York City, and there is a debate that has 
begun to simmer regarding the police presence in our public 
high schools, the impact on the development of at-risk youths 
in our schools which have been labeled or stigmatized as most 
dangerous as part of the No Child Left Behind authorizations. 
Behaviors that a couple of decades ago may have sent students 
to the principal's office for detention now can send students 
to the local precinct for detention.
    Could you give us a sense of, in our search for safety and 
security in our school environments, are there some unintended 
consequences that we need to take heed with, or are we creating 
a culture of self-fulfilling prophecy, given the social and 
mental indicators that many of you have talked about with 
respect to juvenile delinquency?
    And I want to direct this question particularly to Dr. 
Weisman and to Ms. Garcia, as you spoke about early 
identification, our public schools tend to be that place. And 
if anyone else wants to give an answer with our time 
constraints.
    Ms. Garcia. Absolutely schools are the place. Most great 
schoolteachers will tell you that they can identify the young 
people who are going to be in trouble, so they are the place.
    I will tell a story that one of our judges tells about a 
young person that came to their detention center. He was acting 
out in the classroom when they were taking the high-stakes 
testing that Arizona does, the AIMS test. He refused to take 
the test, was flipping ahead on the test, an ADHD child. When 
the teacher redirected him, he got mouthy. She called the 
principal. The principal came in, the resource officer came in. 
The kid got a little aggressively acting out, the police were 
called, ended up in handcuffs, ended up in a juvenile detention 
center. The kicker to the story is the child was 8.
    She tells that story to show how far it has sometimes gone, 
that schools feel that they have to be so focused on high-
stakes testing and getting the No Child Left Behind met that 
they forget about the social needs of the child. Schools have a 
lot on their plate, but we definitely need to support them, and 
fund them, and provide services at the school level in order to 
identify and provide services to young people to keep them out 
of the system.
    Ms. Weisman. Yes. When I was working in Maryland, nearly 
one-third of all the arrests in Baltimore City came from the 
schools. These were school-based arrests for behavior that was 
engaged in in the school; disruptive behavior to be sure, but 
not the sort of behavior that required a youth being locked up 
for it.
    It is unwise and unwelcome to have youth who engage in 
disruptive behavior treated by the juvenile justice system. 
Indeed the juvenile justice system has become the repository 
for kids with behavioral and emotional health problems, and 
that is really wrong.
    There are negative outcomes, because there are kids who do 
commit offenses and who do require, for public safety concerns, 
being locked up, and putting all youth together under the same 
umbrella and in the same facility means unwanted outcomes for 
those who should not be there.
    Judge Kooperstein. Congresswoman, just briefly. 
Congresswoman, I agree there are unintended consequences. In 
our little town, though, there are police officers who are very 
good with the kids, and it is overkill to bring in a force and 
then just arrest. But if we could build on the D.A.R.E. 
Program, which in our town is run by police officers who have 
the skills--and I don't mean just the police power to put on 
the cuffs, I mean who care and can relate--if we build on that 
so that those are the officers called if there is a disruption 
in the school, because an officer who is well trained can 
diffuse a situation. That officer doesn't have to just say, you 
are going in, you are getting locked up. So I just ask you to 
think about that, too.
    Judge Clark. When I first took the bench in 1999, we had an 
influx of juvenile delinquency petitions being initiated by the 
school system, assaults on teachers, which are felonies, and 
some of them were two kids getting into a fight, the teacher 
goes to break it up, and the teacher gets knocked down, no 
injuries, and it got to be problematic.
    One of the things that our judges did was meet with the 
school officials to say that we are not going to allow all of 
these cases to come into court. In other words, sometimes, I 
guess, the judges have to take control of their own court 
system and provide some reasonable alternatives for what can be 
done for some of these children.
    Disruptive behavior is very different than criminal 
behavior, and status offenses are offenses that should not 
warrant incarceration or removal from home, but providing 
services to work or to try to identify why children are 
engaging in these behaviors; in other words, making some 
assessment early on, and an appropriate assessment.
    At some time the court has to, I think, take control of the 
situation and be in control of its own court, because they can 
file a petition, but the court has to intervene and take some 
action as well.
    Chairwoman McCarthy. Thank you, Ms. Clarke.
    As you heard the bells, we are voting, so I am going to 
submit my closing statements for the record.
    What I want to say to each and every one of you, again, I 
thank you for your service on what you are doing back in the 
community, but I also thank you for coming here in front of us 
and giving us information.
    I have been here in Congress long enough, and we are going 
to work really hard on the reauthorization, but I also know we 
won't have every solution, but it will be a start. And with 
your testimony it gives us a lot food for thought for what 
needs to be done.
    The ray of hope that I also see is we are reauthorizing 
Leave No Child Behind, so there are going to be a lot of 
different programs in that particular reauthorization that 
hopefully will work with our young people from pre-K and 
through junior high.
    The D.A.R.E. Program and many other programs, why in God's 
name they forget middle schools I have no idea. I mean, that is 
when almost all students, especially our young women today, 
too, need that extra help. So hopefully we can do something 
about that. The most encouraging thing is through this 
committee we were able to pass a mental health parity program, 
which I think has long been in need not just for children, but 
for adults also.
    The world has become more aggressive. We see our young 
children, I see my grandchildren, are certainly more aggressive 
than some of us were brought up, and those situations that 
schools are having a hard time dealing with. We have teachers 
that are supposed to be teaching, not being social workers, not 
being police officers in the room.
    So as I said, we are not going to be able to have all the 
solutions, but with your testimony and your information, 
hopefully we are going to make it a better bill and have 
hopefully the end goal protect our children of this Nation and 
make them good citizens, and that certainly is the goal of this 
whole committee.
    As previous ordered, Members will have 14 days to submit 
additional materials for the hearing record. Any Member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with the Majority staff within the 
requested time.
    [The information follows:]

   Prepared Statement of Hon. Todd Russell Platts, Ranking Minority 
        Member, Subcommittee on Healthy Families and Communities

    Good morning. Thank you for joining us for another hearing on the 
Juvenile Justice Prevention and Delinquency Act. Chairwoman McCarthy, I 
am pleased that we are continuing our focus on improving the juvenile 
justice system.
    We know that investing in prevention methods now, saves substantial 
resources in the future. I am pleased to see a diverse panel of 
witnesses that can provide first hand knowledge of the juvenile justice 
system, describe how the federal law is administered at the state-
level, and provide insight as to which programs are working 
efficiently, and which, if any, need improvement. I also look forward 
to hearing testimony regarding the link between juvenile delinquency 
and mental illness.
    As I have mentioned during previous hearings, I believe that one of 
the most important things that we can do as legislators is to craft 
legislation that prevents juvenile delinquency and encourages healthy 
child development. Although I recognize the aggressive fall agenda that 
the majority is planning, it is my hope that this subcommittee will 
produce a bi-partisan reauthorization bill before JJDPA's expiration 
this year. In addition, I encourage the inclusion of authorization of 
funding for quality home visitation programs such as the Nurse Family 
Partnership and Parents as Teachers in the reauthorization. Research 
shows that families that participate in home visitation services rely 
less on public assistance, have fewer problems with substance use, and 
have substantially less involvement with the criminal justice system.
    Finally, I would like to thank all of the panelists for being with 
us today. With that, I yield back to Chairwoman McCarthy.
                                 ______
                                 
    [Questions for the record submitted by Mr. Grijalva 
follow:]

                                           [VIA FACSIMILE],
                                                September 26, 2007.
Hon. Deborah Kooperstein, Administrative Judge,
40 A Newtown Lane, East Hampton, NY.
    Dear Judge Kooperstein: Thank you for testifying at the September 
18, 2007 hearing of the Subcommittee on Healthy Families.
    Representative Raul Grijalva (D-AZ), a member of the Subcommittee, 
has asked that you respond in writing to the following question:
    What role, if any, does the judiciary play in your state with 
regard to the review or approval of release plans of youth offenders?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact Committee staff at 202-
225-3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
                                           [VIA FACSIMILE],
                                                September 26, 2007.
Hon. Kim Berkeley Clark, Administrative Judge,
Family Law Center, Ross Street, Pittsburgh, PA.
    Dear Judge Clark: Thank you for testifying at the September 18, 
2007 hearing of the Subcommittee on Healthy Families.
    Representative Raul Grijalva (D-AZ), a member of the Subcommittee, 
has asked that you respond in writing to the following question:
    What role, if any, does the judiciary play in your state with 
regard to the review or approval of release plans of youth offenders?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact Committee staff at 202-
225-3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                                 ______
                                 
                                     [VIA ELECTRONIC MAIL],
                                                September 26, 2007.
Anne Marie Ambrose, Director,
Bureau of Child Welfare and Juvenile Justice Services, N. 7th Street, 
        Harrisburg, PA.
    Dear Ms. Ambrose: Thank you for testifying at the September 18, 
2007 hearing of the Subcommittee on Healthy Families.
    Representative Raul Grijalva (D-AZ), a member of the Committee, has 
asked that you respond in writing to the following question:
    I am developing legislation to authorize a reentry formula grant 
program to states to support pre-release planning and reentry services 
targeted to youth offenders. Would such funds be helpful to your state?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact Committee staff at 202-
225-3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
                                     [VIA ELECTRONIC MAIL],
                                                September 26, 2007.
Janet Garcia, Deputy Director,
Governor's Office for Youth and Families, West Washington, Phoenix, AZ.
    Dear Ms. Garcia: Thank you for testifying at the September 18, 2007 
hearing of the Subcommittee on Healthy Families.
    Representative Raul Grijalva (D-AZ), a member of the Subcommittee, 
has asked that you respond in writing to the following question:
    I am developing legislation to authorize a reentry formula grant 
program to states to support pre-release planning and reentry services 
targeted to youth offenders. Would such funds be helpful to your state?
    Representative John Yarmuth (D-KY), a member of the Subcommittee, 
has asked that you respond in writing to the following questions:
    1. In your written testimony you discuss the fact that it is clear 
that children of color are over-represented in the child welfare system 
and the JJ system. You continue on to discuss the deep end of the JJ 
system. Can you elaborate on what you mean by deep end in the JJ system 
and discus the correlation?
    2. Can you go into detail on some of the barriers experienced by AZ 
as it attempts to integrate the child welfare and JJ systems, and what 
role, if any, the Federal government can play in helping states break 
down these barriers?
    3. In your written testimony you presented statistics from the 
Arizona Dual Jurisdiction study which you believe has shown that 
children who suffer from dependency issues are more likely to have 
negative juvenile justice outcomes than non-dependent youth.
    <bullet> Do you believe enough is currently being done to treat 
dependency issues among the juvenile population either in detention or 
in probation?
    <bullet> What more could be done at the federal level to deal with 
dependency issues in the juvenile justice system?
    4. In your written testimony, you mention the need for interagency 
collaboration between the child welfare and juvenile justice 
communities.
    <bullet> Are there any privacy issues involved in these kinds of 
collaborations?
    <bullet> Under what circumstances should juvenile justice 
practitioners have access to child welfare case-files that include 
medical histories?
    5. How can the Federal government help to address the decentralized 
systems that engage multiple entities in the care of children with 
diverse goals and procedures, if possible?
    6. In your written testimony, you list 7 items that lead to 
improved outcomes for children in both the child welfare and JJ 
systems. I'd be interested in learning if you feel that the Committee 
should explore including such activities in JJDPA, and if so which ones 
and how might we do so?
    7. Can you go into detail on some of the barriers experienced by AZ 
as it attempts to integrate the child welfare and JJ systems, and what 
role, if any, the Federal government can play in helping states break 
down these barriers?
    Please send an electronic version of your written response to the 
questions to the Committee staff by COB on Tuesday, October 2, 2007--
the date on which the hearing record will close.
    If you have any questions, please contact Committee staff at 202-
225-3725.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                              Carolyn McCarthy, Chairwoman,
                      Subcommittee on Healthy Families Communities.
                                 ______
                                 
    Chairwoman McCarthy. Without objection, this hearing is 
adjourned.
    [The closing remarks of Mrs. McCarthy follow:]

               The Closing Remarks of Chairwoman McCarthy

    I want to thank each of you today for taking the time to explain 
the barriers, challenges, and successes in your work in the multiple 
issues that we sought to understand today. Our previous hearing, which 
was an overview of JJDPA and how it works, clearly showed that there 
are direction connections between the juvenile justice system, mental 
health, and child welfare, the importance of evidence-based preventions 
and interventions, and the necessity of working with the States and the 
Judges within them to break down barriers between systems and work to 
craft guidance for a continuum of care for the young people of our 
nation. Your testimony today will guide us on the path of 
reauthorization to address these issues. I am not sure that in one 
reauthorization we can break down all the barriers, but I hope that we 
can lay the groundwork to motivate States to go beyond what they find 
in the reauthorization and to work for what is truly best for our 
nation's children.
    Thank you again for being here today.
                                 ______
                                 
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
